<html>
<title> - MISCELLANEOUS WATER BILLS</title>
<body><pre>[Senate Hearing 110-86]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-86
 
                       MISCELLANEOUS WATER BILLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 175                                S. 1112

                           S. 324                                S. 1116

                           S. 542                                H.R. 235

                           S. 752                                H.R. 902

                           S. 1037


                                     
                               __________

                             APRIL 25, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
36-643                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida
                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
            Frank J. Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  TIM JOHNSON, South Dakota, Chairman
BYRON L. DORGAN, North Dakota        BOB CORKER, Tennessee
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
MARIA CANTWELL, Washington           CRAIG THOMAS, Wyoming
KEN SALAZAR, Colorado                JIM DeMINT, South Carolina
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
JON TESTER, Montana                  JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                          Mike Connor, Counsel
           Josh Johnson, Republican Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     5
Craig, Hon. Larry E., U.S. Senator from Idaho....................     3
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     4
Glode, Joe, Chairman, Upper North Platte Valley Water Users 
  Association....................................................    18
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................     4
Hirsch, Robert M., Associate Director for Water, U.S. Geological 
  Survey, Department of the Interior.............................     9
Johnson, Robert, Commissioner, Bureau of Reclamation, Department 
  of the Interior................................................     6
Purcell, Mike, State of Wyoming..................................    14
Salazar, Hon. Ken, U.S. Senator from Colorado....................     1
Smith, Hon. Gordon H., U.S. Senator from Oregon..................     5
Stewart, Dr. David R., Professional Engineer.....................    20
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     6
Tibbetts, Nicholas R., Redwood Valley County Water District......    24

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    43


                       MISCELLANEOUS WATER BILLS

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ken Salazar 
presiding.

   OPENING STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR FROM 
                            COLORADO

    Senator Salazar. I call the hearing to order of the Water 
and Power Subcommittee of April 25, 2007.
    We have a time problem because we have three votes coming 
up in half an hour and then following that we have an all 
Senators briefing on the Middle East and so we're going to get 
all of this hearing done in a very short period of time.
    It's my pleasure to welcome everybody to this afternoon's 
hearing today. We'll have two panels of witnesses competing 
with that we have these three votes and for that reason I 
wanted to get the hearing started on time and move it along as 
quickly as possible.
    In the interest of time what we'll do is we'll ask each 
Senator to limit their opening comments and submit their 
statements for the record. I have a long statement that I'll 
submit for the record and I will ask my colleagues to do as 
well.
    Second, with respect to the first panel of witnesses from 
the administration, we simply accept their statements for the 
record and we'll go directly to questions and answers so that 
we can get to the second panel in the next half an hour.
    If these suggestions are acceptable to Senator Corker and 
Senator Thomas, we'll proceed in that expedited fashion. The 
following nine bills are before us today:
    S. 175, sponsored by Senator Inhofe which authorizes a 
feasibility study on water supply alternatives in central 
Oklahoma.
    S. 324, sponsored by Senators Domenici and Bingaman 
authorizing ground water studies in New Mexico.
    S. 542, sponsored by Senator Craig, authorizing feasibility 
studies on water supply alternatives within the Snake River 
Basin in Idaho.
    S. 752, sponsored by Senators Nelson, Allard, Hagel and 
myself concerning the Federal participation in the Platte River 
endangered species recovery program.
    S. 1037, sponsored by Senators Smith and Wyden authorizing 
a water conservation project within the Tumalo Irrigation 
District in Oregon.
    S. 1112, sponsored by Senators Feinstein and Boxer and H.R. 
235, sponsored by Representative Thompson, which would allow a 
contract modification for the benefit of the Redwood Valley 
Water District in California.
    And finally S. 1116, which Senators Bingaman, Domenici, 
Thomas and I are sponsoring and H.R. 902, sponsored by 
Representative Mark Udall, which addresses the generation and 
beneficial use of produced water.
    With that quick opening statement, I'll turn to Senator 
Corker, the ranking member, for any brief comments he would 
like to make.
    [The prepared statements of Senators Salazar, Craig, 
Domenici, Hagel and Smith follow:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    I call to order this hearing before the Water and Power 
Subcommittee. It's my pleasure to welcome everyone to this afternoon's 
hearing. We have a full agenda today. Competing with that is an Iraq 
briefing for all Senators beginning at 4:00 pm. For that reason, I will 
get the hearing started and move it along as quickly as possible.
    The following nine bills are before us today: S. 175, sponsored by 
Senator Inhofe, authorizes a feasibility study on water supply 
alternatives in Central Oklahoma; S. 324, sponsored by Senators 
Domenici and Bingaman, authorizes groundwater studies in New Mexico; S. 
542, sponsored by Senator Craig, authorizes feasibility studies on 
water supply alternatives within the Snake River basin in Idaho; S. 
752, a bill I'm sponsoring with Senators Nelson, Allard, and Hagel, 
directs federal participation in the Platte River Endangered Species 
Recovery Program; S. 1037, sponsored by Senators Smith and Wyden, 
authorizes a water conservation project within the Tumalo Irrigation 
District in Oregon; S. 1112, sponsored by Senators Feinstein and Boxer, 
and H.R. 235, sponsored by Representative Thompson, allow a contract 
modification for the benefit of the Redwood Valley Water District in 
California; and finally, S. 1116, which I am sponsoring with Senators 
Bingaman, Domenici, and Thomas, and H.R. 902, sponsored by 
Representative Mark Udall, address the generation and beneficial use of 
produced water, a by-product of oil and gas production.
    We have 2 panels of witnesses today. The first panel consists of 
representatives of the Administration. Bob Johnson is the Commissioner 
of the United States Bureau of Reclamation and Bob Hirsch is the 
Associate Director for Water at the United States Geological Survey. 
Welcome to both of you.
    Before we get started, I'd like to note that the Subcommittee has 
received written testimony on several bills before us today. That 
testimony, as well as the written submissions of all the witnesses 
before us, will be made part of the official record.
    I'd now like to make some brief remarks about the bills that I'm 
sponsoring which are before the Subcommittee today.
    Senator Bingaman, Senator Domenici, Senator Thomas and I introduced 
legislation, S. 1116, the ``More Water, More Energy, and Less Waste Act 
of 2007,'' to facilitate the use of water produced in connection with 
development of energy resources for irrigation and other beneficial 
uses in ways that will not adversely affect water quality or the 
environment.
    Our bill is similar to one that has been introduced during this 
Congress in the House by Representative Mark Udall (H.R. 902, More 
Water and More Energy Act of 2007).
    The bill's purpose is to help turn what is today an energy-industry 
problem into an opportunity. The development of energy resources 
frequently results in bringing to the surface water from underground 
sources. Energy producers seek to minimize the waters that are produced 
during extraction operations, but inevitably waters are produced and 
they must either be treated before being released to the surface or 
returned to the ground. In a few cases, the waters are clean enough to 
be used for livestock watering, irrigation or other beneficial 
purposes.
    Especially in the water-short West, increasing the amount of water 
that can be used without adversely affecting water quality or the 
environment can increase water supplies for irrigation of crops, 
livestock watering, wildlife habitat, and recreational opportunities. 
Everyone will benefit from increased supplies of usable water, even if 
the supplies are temporary in nature, provided that the new water is of 
good quality and will not adversely affect the environment now or in 
the future.
    Our bill would direct the Commissioner of Reclamation, the Director 
of the U.S. Geological Survey, and the Director of the Bureau of Land 
Management to conduct a study to identify the technical, economic, 
environmental, and other obstacles to (1) reducing the quantity of 
produced water and (2) increasing the extent to which produced water 
can be used for irrigation and other purposes, without adversely 
affecting water quality or the environment, during or after energy 
development. Our bill will also provide grants for at least five 
projects to demonstrate (1) ways to optimize energy resource production 
by reducing the quantity of produced water generated or (2) the 
feasibility, effectiveness, and safety of processes to increase the 
extent to which produced water may be recovered and made suitable for 
use for irrigation, municipal, or industrial uses, or other purposes 
without adversely affecting water quality or the environment.
    In the water-short West, the produced waters are a virtually 
untapped resource, and the benefits of using them for irrigation and 
other purposes could be substantial. It is estimated that up to 18 
million barrels of produced waters are generated each year from oil and 
gas operations. Finding ways to minimize the waters that are produced 
during oil and gas extraction and then putting to beneficial use those 
waters that are produced, is a win/win for everyone.
    However, there are significant hurdles that must be overcome before 
produced waters can be used as a water resource in ways that do not 
adversely affect our water quality or harm our environment. The study 
required in our bill will bring our country closer to using this 
important untapped resource.
    Senator Ben Nelson along with Senator Allard, Senator Hagel, and 
myself, introduced S. 752, the ``Platte River Recovery Implementation 
Program and Pathfinder Modification Authorization Act of 2007,'' to 
authorize the Secretary of the Interior to participate in the 
implementation of the Platte River Recovery Implementation Program for 
endangered species in the Central and Lower Platte River Basin, and to 
modify the Pathfinder Dam and Reservoir.
    Our bill is similar to one that has been introduced during this 
Congress in the House by Representative Mark Udall (H.R. 1462, Platte 
River Recovery Implementation Program and Pathfinder Modification 
Authorization Act).
    Almost ten years ago, the Governors of Nebraska, Wyoming and 
Colorado and the Secretary of Interior signed the ``Cooperative 
Agreement for Platte River Research and Other Efforts Relating to 
Endangered Species Habitat along the Central Platte River, Nebraska.'' 
The Program will be a basin-wide effort undertaken by the Department of 
the Interior and the States of Colorado, Nebraska, and Wyoming to 
provide benefits for the endangered interior least tern, whooping 
crane, and pallid sturgeon and the threatened piping plover.
    The Program has three main elements: 1) increasing streamflows in 
the Central Platte River during relevant time periods through retiming 
and water conservation supply projects; 2) enhancing, restoring and 
protecting habitat lands for the target bird species; and 3) 
accommodating certain new water related activities. The Program's long-
term objective for water is to provide sufficient water to and through 
the Central Platte River habitat area to assist in improving and 
maintaining habitat for the target species.
    One of the Program's purposes is to mitigate the adverse impacts of 
certain new water related activities through the implementation of 
state and federal depletions plans. This will allow continued growth 
and water development to occur in the Platte River basin along with 
improving conditions for the target species.
    Thank you.
                                 ______
                                 
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho

    Idaho's storage capacity is being stressed by increasing demands 
from irrigation, power generation, industrial users, municipal users, 
and fish habitat.
    Idaho is growing at an unprecedented rate, particularly in the 
Treasure Valley. The assessment has already pointed out that, in less 
than 30 years, over 100,000 additional acre feet of water per year will 
be needed to meet increased demand. Beyond additional water, there is 
concern over current flood control because the increasing development 
and channelization of the Boise River is decreasing flood control 
capacity. Additionally, Idaho has four species of salmonids that are 
listed as threatened or endangered under the Endangered Species Act 
that require a significant amount of water for flow augmentation. This 
will reduce the pressure of other impoundments that are losing 
significant amounts of water causing different resource concerns.
    These increasing demands, coupled with limited storage, have caused 
concern for me and many of my constituents. In 2003, dialogue regarding 
needed water supplies began and a Stakeholder Working Group was created 
from many interest groups from federal, state and local partners to 
address irrigation, municipal, and environmental interests. These 
parties have worked collaboratively with the Bureau of Reclamation to 
locate appropriate storage options from adding to existing impoundments 
to building new structures to recharge.
    I would like to thank the Bureau of Reclamation and the Boise 
regional office in particular for their leadership and assistance in 
addressing Idaho's water needs.
    However, the Bureau of Reclamation needs congressional 
authorization to take the next step and do feasibility studies in the 
areas identified by the Stakeholder Working Group. I support this 
legislation and hope through the feasibility study process, we can 
determine possible locations for needed additional storage for my 
constituents in Idaho.
    This bill is simple and should be non-controversial. S. 542 
authorizes the Secretary of the Interior to conduct feasibility studies 
and address certain water shortages within the Snake, Boise, and 
Payette River systems in Idaho as well as authorizes the required 
appropriations.
    I ask unanimous consent that the Idaho Water Users Association 
testimony be made part of the record.
    Thank you.
                                 ______
                                 
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    Mr. Chairman, thank you for having this hearing today. 
Approximately 90 percent of New Mexicans depend on groundwater for 
drinking water and 77 percent of New Mexicans obtain water exclusively 
from groundwater sources. During times of drought, when surface water 
is scarce, New Mexicans must be able to reliably turn to groundwater. 
While groundwater supplies throughout the State are coming under 
increasing competition, not enough is known about these resources in 
order to make sound decisions regarding their use.
    S. 324, the New Mexico Aquifer Assessment Act would direct the 
United States Geological Survey, in collaboration with the state of New 
Mexico, to undertake a groundwater resources study in the state of New 
Mexico. A comprehensive study of the State's water resources is 
critical to effective water planning. I want to thank Chairman Bingaman 
for co-sponsoring S. 324.
    Another bill we are addressing today, S. 1116, introduced by 
Senator Salazar, and which I am an original co-sponsor, addresses one 
of the many key interrelationships of energy and water. Reducing where 
possible the amount of produced water and using the water that remains 
in the most effective manner is a very important issue for New Mexico 
and much of the inter-mountain west.
    I look forward to hearing from the witnesses today. Thank you Mr. 
Chairman.
                                 ______
                                 
   Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska

    Mr. Chairman: The development of water resources along the Platte 
River has altered the habitat of three species of bird and one fish 
species, all of which are listed under the Endangered Species Act 
(ESA): the least tern; the piping plover; the whooping crane; and the 
pallid sturgeon. As a result, in 1997, Nebraska, Colorado, Wyoming, and 
the U.S. Department of Interior entered into a partnership to develop a 
program to improve habitat for the four species. Between 1997 and 2006, 
the Platte River Recovery Implementation Program (Program) was 
formulated by the states, the Department of Interior, and other 
interested parties.
    In December 2006, the Governors of Nebraska, Colorado and Wyoming, 
along with the Department of Interior, signed a new agreement to 
implement the Program, which took effect on January 1, 2007.
    The new Program would:

  <bullet> restore and protect lands for the four endangered species by 
        increasing stream flows during certain times of year, and 
        through other methods;
  <bullet> provide a legal framework to protect existing water users 
        along the Platte River;
  <bullet> prepare for additional water use by new users, and set rules 
        for those users; and
  <bullet> provide for ongoing scientific research on the four species.

    S. 752, the Platte River Recovery Implementation Program and 
Pathfinder Modification Authorization Act of 2007, authorizes the 
relevant federal agencies to participate in the Program, and authorizes 
$157 million over 13 years to cover the federal portion of the project 
cost. This legislation is essential to the success of the Program.
    I applaud Nebraska Governor Dave Heineman for working with the 
Governors of Wyoming and Colorado, the U.S. Department of Interior and 
local stakeholders for developing a plan that will improve the habitat 
of endangered species, and protect both existing and future water users 
along the Platte River. This is the kind of infra-state cooperation 
that will be necessary to address future water challenges in Nebraska 
and across the U.S.
    It is important that we assist the states with the implementation 
of this Program by passing S. 752 as soon as possible.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator From Oregon

    Mr. Chairman, I want to thank you for convening this hearing to 
review several bills that are important to our respective states. As 
the sponsor of one of the bills before us today, I would like to submit 
for the hearing record the statement of the Tumalo Irrigation Water 
District on S. 1037.
    Briefly, S. 1037 would authorize the Secretary of the Interior to 
assist in the planning, design, and construction of the Tumalo 
Irrigation District Water Conservation Project in Deschutes County, 
Oregon. This project involves piping about six miles of open canals. 
This will enable the District, in accordance with state water law, to 
return an estimated 20 cubic-feet-per-second of conserved water to in-
stream flows in Tumalo Creek and the Deschutes River.
    In recent years, sections of the Deschutes River--below diversions 
by the federal Reclamation project in the basin--have dropped to as low 
as 30 cubic-feet-per-second during certain times of the year. The 
Deschutes Basin is in arid central Oregon, and there are several 
federally-listed fish species in the river. The water returned to in-
stream flows under this conservation project would be significant, and 
could also help mitigate the impact of federal project operations in 
the basin.
    This project will also enhance public safety in the region by 
eliminating the concerns related to open canals. By replacing these 
open canals with pressurized pipelines, the project will also improve 
the delivery of irrigation water to farmers in the Tumalo irrigation 
District's service area.
    The bill as introduced provides for the District to fund 75 percent 
of the total cost of the project's design, planning and construction. 
In addition, the District will pay the operation and maintenance costs 
of the project. Upon completion, Tumalo Irrigation District will hold 
title to any facilities constructed under this Act.
    If we are going to meet the federal goals for the recovery of fish 
species in the arid west, we must begin to recognize the value of water 
conserved by non-federal partners such as the Tumalo Irrigation 
District.
    Again, I want to thank the witnesses who are here today, and I look 
forward to hearing your testimony.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. In the interest of time, I'll be very 
brief, but Senator, I'm glad to join you at the first meeting 
of this subcommittee.
    I'm sorry that Senator Johnson cannot be with us but we're 
glad that his staff is. We look forward to him being back with 
us very soon and just want to welcome our panel and members of 
the public who are participating in the meeting and with that 
I'll turn it back over to you, Mr. Chairman. Thank you.
    Senator Salazar. Thank you, Senator Corker.
    Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you. I'll also be brief. Thank you 
for holding the meeting.
    A couple of bills here that I am particularly interested 
in, of course, the Platte River and also the recovery. In the 
second panel we'll have two leaders from Wyoming here. So, I'll 
introduce them then, if I may. So otherwise, get on with the 
hearing.
    Senator Salazar. Thank you. In the interest of time I think 
I have about, it seems that staff has prepared about 20 
questions. So what I think we will do in order to be able to 
hear from the rest of the panel that has traveled, some of the 
other panelists have traveled a long way here.
    I will submit these questions to you and if you could 
submit written responses to the committee. I would appreciate 
that very much and I would ask you both, Mr. Johnson and Dr. 
Hirsh, if you have a quick comment with respect to the 
legislation that is before us today.

     STATEMENT OF ROBERT JOHNSON, COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Johnson. We've submitted our comments for the record. 
In the interest of time, I'll abstain and be glad to answer 
questions but we'll just pass.
    [The prepared statement of Mr. Johnson follows:]

     Prepared Statement of Robert Johnson, Commissioner, Bureau of 
                Reclamation, Department of the Interior
                                 S. 175

    Mr. Chairman and members of the Subcommittee, I am Robert Johnson, 
Commissioner of the Bureau of Reclamation. I am pleased to present the 
views of the Department of the Interior on S. 175 concerning the 
Central Oklahoma Master Conservancy District (District) Feasibility 
Study.
    S. 175 would authorize Reclamation to conduct a Feasibility Study 
of alternatives to augment the water supplies of the District and 
cities served by the District. S. 175 would also require the study to 
be conducted within one year of the date of enactment, and authorize 
$300,000 to be spent in conducting the study. The Department does not 
support S. 175.
    The one-year timeframe for the study described in S. 175 is 
insufficient for a thorough evaluation of alternatives to meet future 
water needs of surrounding communities not presently served by the 
District and would be a very aggressive schedule. This timeframe would 
also make completion of the Feasibility Study, including preparation of 
the appropriate National Environmental Policy Act (NEPA) compliance 
document, extremely problematic and may prove difficult to achieve with 
any degree of accuracy.
    The Department recognizes that a water need exists for the 
District. Reclamation is currently preparing a scope of work in 
coordination with the District, which focuses the plan of study to be 
completed. However, the Department does not support authorization of a 
Feasibility Study at this time.
    Thank you for the opportunity to comment on S. 175. This concludes 
my statement and I am happy to answer any questions.

                                 S. 542

    I am Robert Johnson, Commissioner for the Bureau of Reclamation. I 
am pleased to be here today to provide the Department of the Interior's 
views on S. 542, legislation to authorize the Secretary to conduct 
feasibility studies to address water shortages within the Snake, Boise, 
and Payette River systems in Idaho.
    Reclamation previously provided testimony on September 21, 2006, 
regarding the Administration's views on H.R. 2563 as referred to the 
Senate Energy and Natural Resources Committee, a bill equivalent to S. 
542 introduced this Congress. Consistent with our testimony in the last 
Congress, we support S. 542.
    The State of Idaho continues to experience the effects of a 
prolonged drought as well as tremendous growth and urbanization in the 
Boise and Payette River basins. Projected population growth will 
eventually over-extend existing ground water supplies for these rapidly 
growing areas. In light of this and other water resource issues 
elsewhere in the state, the Idaho State House of Representatives issued 
Joint Memorial No. 24 in 2004, which ``recognizes the need for 
additional water to meet Idaho's emerging needs and encourages Federal 
and State agencies to cooperate with Idaho in identifying and 
developing such water supply projects.''
    Under existing authorities, Reclamation initiated an assessment 
level water supply study specifically in the Boise and Payette basins. 
Stakeholders with wide representation from the State, Federal, 
agricultural, environmental and municipal sectors participated in that 
study. The Final Boise/Payette Water Storage Assessment Report was 
completed in July 2006 and was distributed to local State, Federal, 
agricultural, environmental and municipal parties.
    S. 542 would go the next step by authorizing Reclamation to conduct 
feasibility studies within the Snake, Boise, and Payette River systems. 
However, while the legislation provides authority for feasibility 
studies in the Snake River system, Reclamation's assessment report 
referenced in the legislation solely evaluated and identified projects 
for further consideration in the Boise and Payette river systems, thus 
limiting the scope of the bill's authorization.
    Reclamation supports focused, basin-by-basin water resource studies 
with input and local involvement from the State and the stakeholder 
communities. We recognize the need to address projected water supply 
shortages in the Boise and Payette River systems, and look forward to 
doing so in partnership with future beneficiaries. We would welcome the 
opportunity to be an active partner in addressing these water supply 
issues with the State of Idaho and its water users. However, any 
studies conducted under this new authority would still need to compete 
with other needs within the Reclamation program for funding priority in 
the President's Budget.
    This concludes my testimony. I am pleased to answer any questions.

                                 S. 752

    Mr. Chairman and members of the subcommittee, I am Robert Johnson, 
Commissioner of the Bureau of Reclamation. I appreciate the opportunity 
to appear before you today to discuss S. 752, the Platte River Recovery 
Implementation Program and the Pathfinder Modification Authorization 
Act. The Department supports passage of S. 752.
    The Platte River originates in the mountains of Wyoming and 
Colorado and, as it flows through Nebraska, provides important habitat 
for the whooping crane, piping plover, interior least tern, and pallid 
sturgeon (target species) that are listed as threatened or endangered 
under the Endangered Species Act (ESA). In 1997, the States of 
Colorado, Nebraska, and Wyoming and the Department of the Interior 
signed a Cooperative Agreement to develop a basin-wide program that 
would provide measures to assist in the recovery of these four target 
species in the Platte River in Nebraska. In late 2006, the Platte River 
Recovery Implementation Program (Program) Agreement was signed by the 
Governors of the three States and the Secretary of the Interior, 
allowing for Program implementation to begin January 1, 2007. The 
Program assists in the conservation and recovery of the target species 
in the Platte River basin and implements aspects of the recovery plans 
for these species, thereby providing compliance under the Endangered 
Species Act (ESA) for existing water related activities and certain new 
water-related activities in the Platte River Basin in Colorado, 
Wyoming, and Nebraska.
    Title I of S. 752 provides authorization for the Secretary of the 
Interior, through the Bureau of Reclamation, to fully implement the 
Program. It also provides Reclamation with authority to appropriate 
non-reimbursable funds for the Program. Reclamation, in cooperation 
with the Governance Committee, will implement the Program in 
incremental stages with the first increment being a period of 13 years. 
Pursuant to the Program Agreement, the Federal cost share for the first 
increment is $157 million (2005 dollars), plus indexing. The State 
cost-share is the same amount, to be provided from the three State 
Parties to the Program Agreement.
    Pre-implementation activities, such as forming the new Governance 
Committee, initiating the selection of the Executive Director, and 
various administrative functions have already begun. Federal activities 
up to this point have been authorized under existing law encouraging 
the Department of the Interior to work with States to promote habitat 
protection and the protection of species. Under the ESA, the Program 
can initiate monitoring and research activities; however, actual water 
and land acquisitions cannot be initiated using Federal funds prior to 
enactment of this legislation. Upon enactment of this authorizing 
legislation, Program land and water acquisitions will begin. It is 
critical that acquisitions begin early in the Program to allow 
sufficient time to evaluate the biological response and effectiveness 
of the Program's recovery measures.
    Title II authorizes the Secretary, through the Bureau of 
Reclamation, to modify Pathfinder Dam and Reservoir and enter into 
agreements with the State of Wyoming to implement this modification. No 
Federal funds are required for this activity.
    In accordance with our commitment to cooperative conservation, the 
Department of the Interior seeks to encourage the efforts of States and 
local communities to play active roles in managing the resources they 
depend on for their livelihoods. The Platte River Recovery 
Implementation Program that would be authorized under this Act is an 
example of a partnership combining Federal and Non-Federal funding in 
an ongoing effort to recover endangered species while also meeting the 
water needs of local communities, irrigators, power generation, and the 
environment. Enactment of this legislation provides an opportunity not 
only to meet ESA requirements using a basin-wide, cooperative, and 
scientific approach, but to do so in a manner that protects existing 
water uses and allows for future water uses in the Platte River Basin. 
For these reasons, the Administration supports S. 752.
    Mr. Chairman, this completes my statement. I am happy to answer any 
questions the Subcommittee may have.

                                S. 1037

    I am Robert Johnson, Commissioner of the Bureau of Reclamation. I 
appreciate the opportunity to provide the Department's views on S. 
1037, legislation to authorize the Secretary to participate in the 
planning, design, and construction of the Tumalo Irrigation District 
Water Conservation Project in Deschutes County, Oregon. The Department 
cannot support S. 1037.
    The Tumalo Irrigation District (District) and the facilities in 
question are not part of a Reclamation project. During the 1990's the 
District did have a repayment contract for rehabilitation of Crescent 
Lake Dam. The District satisfied its repayment obligation to the United 
States in 1998, and holds title to all project facilities.
    The Tumalo Irrigation District Water Conservation Project (Project) 
would convert approximately 6 miles of open canal in the District into 
a pipeline. It is Reclamation's understanding that the Project, known 
locally as the Tumalo Feed Canal pipeline, would conserve up to 20 
cubic feet per second (cfs) of water for instream use. The 
Administration supports the objective of the District to conserve water 
and to improve instream flows while not diminishing the amount of water 
available for agricultural uses. Furthermore, we recognize the 
improvements made in S. 1037 over legislation introduced in the 
previous Congress.
    S. 1037 authorizes the Secretary to participate in the planning, 
design, and construction of the Project and provides authorization for 
$4.0 million to be appropriated for the Federal share of the Project. 
Project sponsors anticipate the Federal share of the Project would be 
made in the form of a grant, however, the language in Section 3(a)(1) 
does not clearly give the Secretary such authority.
    Most importantly, the Department is concerned that use of 
Reclamation funds on non-Reclamation projects would adversely impact 
water projects which Congress has charged Reclamation with operating 
and maintaining. Reclamation activities are targeted to perform 
essential functions at Federal projects, such as security, operations 
and maintenance (O&M), resource management, dam safety, and 
construction.
    As conceived, the District's water conservation project may be 
ideally suited to compete for funds within the Department of Interior's 
existing water conservation programs like the Water 2025 Program. 
Through such conservation programs, local entities develop innovative 
on-the-ground solutions to water supply problems with financial 
assistance from Reclamation. However, because of the reasons stated 
above, the Department cannot support the legislation as written.
    This concludes my testimony. I would be pleased to answer any 
questions.

                                H.R. 235

    Mr. Chairman and members of the Subcommittee, I am Robert W. 
Johnson, Commissioner of the Bureau of Reclamation. For the reasons 
discussed below, the Department does not support H.R. 235.
    Reclamation has worked with the Redwood Valley County Water 
District (District) for over 30 years to fund and build a water 
distribution system to provide over 1,100 residents and farmers of 
Redwood Valley, California with a reliable municipal and industrial 
water supply. Although we recognize the need to develop a workable 
strategy for ensuring the District is able to repay its loan obligation 
to Reclamation, because H.R. 235 could provide the District legislative 
loan forgiveness, Reclamation cannot support the bill.
    Over 25 years ago, Reclamation executed two 35-year repayment 
contracts with the District (contract numbers 14-06-200-8423A and 14-
06-200-8423A Amendatory) for two Small Reclamation Projects Act (P.L. 
94-984) loans totaling $7.3 million. Combining those loans with funding 
from other sources, the District built an $8.5 million water system 
project that is still in use today. By 1982, the District's water rate 
for its customers were above the state average, yet still inadequate to 
generate revenues for facilities operation and maintenance and 
repayment of a projected debt of $200,000 per year. That same year the 
District informed Reclamation of possible repayment problems.
    Beginning in the late 1980s, the District, congressional 
representatives, and Reclamation engaged in numerous discussions over 
the District's inability to make the scheduled loan payments. 
Subsequent legislation resulted in a postponement of loan interest, but 
did not produce any positive outcome on the repayment issue.
    Compounding its fiscal problems, the District does not have a firm 
and reliable water supply and is currently under a court-ordered 
moratorium preventing new service connections. This moratorium has 
greatly hampered the District's ability to repay its two loans.
    Reclamation cannot support H.R. 235 because the legislation's 
repayment provision does not establish a date certain for either 
repayment to begin or to be concluded. The proposed legislation does 
not provide any assurance that the United States will ever receive 
payment on the two loans, and essentially could provide loan 
forgiveness. The renegotiated payment arrangement could further 
postpone repayment of money owed Reclamation.
    Reclamation recognizes that a firm and reliable water supply is 
likely necessary to resolve the District's current financial dilemma, 
which prevents the District from being able to complete repayment of 
these two loans. Also, any deferment legislation should include 
language to ensure that the District first uses proceeds from the sales 
of such a supply to repay the new obligation used to secure the water 
supply and second to satisfy the District's repayment obligations to 
Reclamation. Furthermore, such legislation should include a date 
certain for repayment of Reclamation loans to begin or to be completed. 
We support efforts by the District to recover financially and find a 
solution that will enable it to pay its debts. Any such solution must 
ensure that the loans made by Reclamation will be wholly repaid.
    While the Department cannot support H.R. 235, we look forward to 
working with the District to address the repayment issue. This 
concludes my prepared remarks. I am pleased to answer any questions.

    Senator Salazar. Dr. Hirsh.

 STATEMENT OF ROBERT M. HIRSCH, ASSOCIATE DIRECTOR FOR WATER, 
       U.S. GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Mr. Hirsch. Same, same for me. Our statement stands.
    [The prepared statement of Mr. Hirsch follows:]

 Prepared Statement of Robert M. Hirsch, Associate Director for Water, 
           U.S. Geological Survey, Department of the Interior

                                 S. 324

    Mr. Chairman and Members of the Committee, I am Dr. Robert M. 
Hirsch, Associate Director for Water for the U.S. Geological Survey 
(USGS). I thank you for the opportunity to provide the views of the 
Department of the Interior (Department) on S. 324, the ``New Mexico 
Aquifer Assessment Act of 2007.''
    The Department agrees that the goals of the bill are commendable 
and the needs that could be addressed are real; however, we have 
concerns with this bill, including the availability of funding for the 
work proposed in the context of overall funding for the 
Administration's priorities. To ensure appropriate flexibility in 
budgetary management, the Administration recommends that this bill be 
amended to authorize rather than require the study within a statutorily 
prescribed timeframe. We would like to work with the committee to 
revise the bill to address these issues.
       s. 324, the ``new mexico aquifer assessment act of 2007''
    S. 324 directs the Secretary of the Interior, acting through the 
Director of the USGS, to conduct a study on ground-water resources in 
the State of New Mexico. The role identified for the Department in this 
bill is consistent with the leadership role of USGS in monitoring and 
assessing ground-water resources.
    As the Nation's largest water, earth, and biological science and 
civilian mapping agency, the USGS conducts the most extensive ground-
water and surface-water investigations in the Nation in conjunction 
with State and local partners. The USGS New Mexico Water Science Center 
currently operates 203 streamflow stations and routinely measures 
ground-water levels at 2573 well sites through cooperative programs 
with several Federal, State, Tribal, and local agencies. In addition to 
hydrologic monitoring programs, the USGS is providing hydrologic 
understanding to water agencies through the Cooperative Water Program 
by conducting several investigative projects that include describing 
the interaction of surface water and ground water in the Mesilla, upper 
Rio Hondo, and Middle Rio Grande Basins; planning geohydrologic studies 
in the Salt Basin; and evaluating water quality of the Rio Grande and 
Rio Chama. In support of all water agencies within New Mexico, USGS 
technical specialists actively participate on work groups and 
committees addressing critical New Mexico water issues. Currently, 
personnel are involved in the Technical Subcommittee of the Gila-San 
Francisco Coordinating Committee, the Espanola Basin Technical Advisory 
Group, and the Upper Rio Grande Water Operations Model Work Group.
    The USGS has a long history of conducting ground-water assessments 
at a regional scale. In the 1980s, 25 regional aquifer systems were 
studied in detail as part of the Regional Aquifer-System Analysis 
(RASA) Program, including the Southwest Alluvial basins, High Plains 
aquifer, and San Juan Basin in New Mexico. More recently, the Middle 
Rio Grande Basin was studied extensively for 6 years as a partnership 
among Federal, State, and local sources.
    Congress directed the USGS in their fiscal year (FY) 2002 
appropriation to ``prepare a report to describe the scope and magnitude 
of the efforts needed to provide periodic assessments of the status and 
trends in the availability and use of freshwater resources.'' We are 
midway through a pilot project in the Great Lakes region and a small 
effort in the Lower Colorado River basin to develop approaches for 
national assessment that began in FY 2005 as part of the USGS Ground-
Water Resources Program. The approaches developed to date could be 
applied to New Mexico and nationwide. However, we note that a 
comprehensive study of a major aquifer system commonly takes 4 or more 
years to complete; and thus, the 2-year time frame for completing the 
overall study proposed by S. 324 would yield limited results.

                               CONCLUSION

    In conclusion, the USGS concurs with the goals of S. 324. The 
proposed effort would help ensure long-term water supplies for the 
citizens, businesses, industry, and natural features of New Mexico, and 
the expertise of USGS is highly relevant to the tasks contemplated by 
the legislation. However, we are concerned with the funding 
requirements that accompany S. 324. We note that there are no funds in 
this year's budget or the President's FY 2008 budget to implement the 
legislation, and any future funding requests would have to compete with 
other priority projects for funds. We also note there are some ongoing 
efforts to address the goals of the Act. Finally, individual major 
aquifer studies commonly require 4 or more years to complete, and thus, 
the 2-year time frame for completing the overall study proposed by S. 
324 would yield limited results.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony. I will be pleased to respond to questions you and other 
Members of the Committee may have.

                                H.R. 902

    Mr. Chairman and Members of the Subcommittee, I am Dr. Robert M. 
Hirsch, Associate Director for Water for the U.S. Geological Survey 
(USGS). I thank you for the opportunity to provide the views of the 
Department of the Interior on H.R. 902, the ``More Water and More 
Energy Act of 2007.''
    The Department agrees that the goals of the bill are commendable, 
but we have concerns regarding the availability of funding and the 
Administration's priorities. In addition, the USGS and Bureau of 
Reclamation (Reclamation) currently have sufficient authority to carry 
out the types of activities authorized by H.R. 902.
    Water is the lifeblood of the American West and the foundation of 
its economy, yet it is also the scarcest resource in some of the 
fastest growing areas of the country. Seeking to remove the obstacles 
to putting produced waters to beneficial use is important to our 
Nation's energy and water future.
    H.R. 902 requires the Secretary of the Interior, acting through the 
Commissioner of Reclamation, and the Director of the USGS, to conduct a 
study to identify the technical, economic, environmental, legal, and 
other obstacles to increasing the extent to which produced water can be 
used for irrigation and other purposes; and the legislative, 
administrative, and other actions that could reduce or eliminate such 
obstacles. It further requires the Secretary, within existing 
authorities, and subject to the availability of funds, appropriated for 
the purpose, to provide financial assistance for at least four 
demonstration projects. The $4 million authorized for demonstration 
project grants would be used to develop facilities to demonstrate the 
feasibility, effectiveness, and safety of the processes to increase the 
extent produced water may be used for irrigation and other purposes.

                               BACKGROUND

    Development of energy resources, such as oil, natural gas, and 
coalbed methane, produces water, sometimes in volumes that are 
difficult and costly to manage. Often the produced water is of such 
poor quality that subsurface disposal is an essential cost of 
production. Streams and aquifers can be contaminated by improper 
handling of produced water or the failure of disposal systems. The 
major concerns over produced water are potential impacts on soils, 
water, and the biota that depend on the soil and water. Where produced 
water quality is unsuitable for irrigation, industrial, or domestic 
uses, it can be disposed of by deep well injection, evaporation, or 
after appropriate treatment, percolation or discharge into surface 
water drainages.
    Prior to environmental regulations in the 1970s, produced waters, 
which are often highly saline (3,000 to more than 350,000 mg/L total 
dissolved solids) and may contain toxic metals, organic and inorganic 
components, and naturally occurring radioactive materials, were 
commonly discharged into streams, creeks, and unlined evaporation 
ponds, causing salt crusts and surface- and ground-water contamination. 
These past practices and current accidental releases of produced water 
are national issues that concern managers of Native American, Federal, 
and State lands, as well as oil and gas producers, mineral rights and 
lease owners, State and Federal regulators, and land owners. A growing 
concern is the potential use of land for farming, housing, or other 
uses where produced water from oil and gas production has left a legacy 
of undesirable environmental effects. Even produced waters of low 
salinity can lead to problems because application of such waters to the 
land for irrigation or ground water recharge can result in rapid 
leaching of the naturally occurring salts present in the soil and the 
unsaturated zone, leading to potential contamination of aquifers and 
streams.
    The USGS has an 80-year history of conducting scientific studies to 
evaluate and describe the long-term and short-term effects of the 
disposal of produced water on soils, ground water, streams, and 
ecosystems. The USGS has also conducted numerous studies to describe 
the effects of produced-water salts on water and biota, techniques for 
detecting these effects, and techniques for remediation of soils and 
ground water.
    In 2002, the USGS released a national produced-water geochemistry 
database that describes the water quality of waters produced from 
conventional oil and gas fields. This database is an invaluable tool 
for coalbed methane development companies; land managers; Federal, 
State, and local water-quality officials; and the public. The 
information facilitates evaluation of issues pertaining to energy 
resource development and environmental quality, such as the need for 
anti-scaling additives, the design of water handling and treatment 
systems, and disposal and beneficial use options.
    The USGS and the U.S. Fish and Wildlife Service are studying the 
impacts on water quality and the landscape caused by waters associated 
with coalbed methane production in the Powder River Basin of Wyoming. 
This research is being conducted as part of the DOI Landscapes 
Initiative in collaboration with the Department of Energy, U.S. Fish 
and Wildlife Service, Bureau of Land Management, and others. One 
component of that project is an examination of hydrology and 
geochemistry in the vicinity of a produced-water infiltration pond. 
Early findings are that slightly to moderately saline water 
infiltrating from the pond dissolved significant quantities of salts 
present in the soil and unsaturated zone, resulting in a significant 
increase in total dissolved solids. Although coalbed methane production 
in the Powder River Basin can provide ecological benefits by increasing 
stream flows and creating and enhancing wetlands, there are some 
concerns associated with the levels of contaminants in the Basin. 
Indeed, preliminary findings were dramatic enough to cause a State 
regulatory agency to order that disposal of produced water at the 
infiltration pond be stopped and the site be reclaimed.
    The USGS, in cooperation with the Osage Nation, Department of 
Energy, and U.S. Environmental Protection Agency, is investigating the 
effects of hydrocarbons and produced water (brines) on soil and ground 
and surface water at two sites adjacent to Skiatook Lake in the 
southeastern part of the Osage Reservation in northeastern Oklahoma. 
Results from this investigation will provide information needed by 
environmental officials, land managers, petroleum companies, and land 
owners to assess human and ecosystem impacts and to develop risk-based 
corrective actions to clean up contamination from produced water from 
oil and gas wells that are no longer active.
    Reclamation has extensive expertise and capabilities in water 
storage and delivery infrastructure planning and design. Reclamation 
works with the states, BLM, EPA and others in managing produced waters 
so that the quality of Western water supplies are not degraded by 
impaired produced waters.
    Pilot and demonstration projects like those described in this bill 
could help provide proof of concept from treatment to beneficial use in 
key basins where opportunities may exist for converting produced waters 
to beneficial uses. However, the feasibility and potential value of any 
demonstration project should be evaluated prior to making any 
commitments to conduct pilot and demonstration projects. Any such 
demonstration projects should be well coordinated at the federal, 
state, and local levels. Other federal agencies with whom Reclamation 
and USGS would coordinate such demonstration projects include BLM, EPA, 
and DOE's National Energy Technology Lab (NETL).

                                CONCERNS

    The Department concurs with the goals of the bill to identify 
impediments to the beneficial use of produced waters. Understanding the 
opportunities and overcoming the challenges involved in converting 
produced waters to beneficial uses will help irrigators, farmers, 
energy producers, and State and Federal agency efforts to increase the 
development of western energy sources while protecting the quality of 
our streams and aquifers.
    Our concerns with the bill include funding for these activities. 
The study, report, and pilot activities required by this bill are not 
currently in the FY2007 operating plans for the USGS or BOR and the FY 
2008 President's Budget also does not fund these activities. The 
activities authorized in this bill should compete with other priority 
projects for funds.
    Additionally, language in Section 3 that directs the Secretary, 
acting through USGS and BOR, to conduct a study to identify the legal, 
legislative, and administrative obstacles to increasing the extent to 
which produced water can be used for irrigation and other purposes. It 
is not within the purview or expertise of the USGS or BOR to identify 
legal, legislative, or administrative obstacles.
    Another concern is that if the bill becomes law, the accomplishment 
of the study and report, as proposed in Section 3 of H.R. 902, should 
be subject to the availability of funds appropriated for that purpose, 
just as the projects proposed by section 4 are. We anticipate that such 
a study would focus on existing and potential new technologies for 
treating produced waters to make them suitable for beneficial uses and 
would also focus on existing and potential new hydrologic and 
geochemical models needed to predict the impacts of various management 
strategies on streams, aquifers, soils and biota.
    We wish to note that S. 1116, a companion bill to H.R. 902 which 
was introduced on April 17, 2007, is very similar to H.R. 902 and that 
the Administration would have the same concerns about S. 1116 that we 
have discussed with respect to H.R. 902. We have one other comment on 
S. 1116. Section 3(a) of the Senate bill includes the Bureau of Land 
Management (BLM) in the list of agencies within the Department of the 
Interior that are to carry out the study authorized in this bill. While 
Reclamation and USGS are working with the BLM to manage produced 
waters, a study of this nature would appropriately be carried out by 
Reclamation and USGS. BLM and other Interior agencies, including the 
Fish and Wildlife Service, would provide assistance as appropriate but 
should not be listed as leads on the study.
    Improved technology and collaboration are among the four key tools 
proposed as part of Water 2025, an initiative of the Department to meet 
the water-supply challenges of the future.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony. I will be pleased to respond to questions you and other 
Members of the Subcommittee may have.

    Senator Salazar. Senator Corker, do you have any questions 
for this panel?
    Senator Corker. We have a number of questions also. I think 
we'll use the same format that you have and that is to just 
submit them in writing. Based on the number of bills and the 
time allowed and the other panelists there's no way that we'd 
have the opportunity, really, to go through all those.
    So, we'll submit them in writing and hope you'll return.
    Senator Salazar. Senator Thomas.
    Senator Thomas. I'll change the pattern and ask one quick 
question, if I might, of the Commissioner.
    The Governor of Wyoming and the Upper North Platte water 
users have asked for Federal regulation prohibiting the Bureau 
of Reclamation from calling on the Wyoming water engineers who 
regulate water rise upstream of the Pathfinder Dam during 
irrigation season. Would you support such an amendment?
    Mr. Johnson. Senator, since that is an amendment it's not 
appropriate for us to make formal comments. We'd be glad to 
comment on a specific amendment when it's offered in writing.
    I would say that in general, we would be cautious about an 
amendment that would restrict a water right that it is 
administered under State law. The Platte River has an 
interstate agreement. There's a compact. There's a decree and 
it's administered under State law.
    Reclamation always operates under State law for its water 
rights and we would look to that State law to define the use of 
the water entitlements.
    So as a general rule, I think we'd be reluctant to have 
that sort of amendment in Federal legislation.
    Senator Thomas. Well, we'll talk about it more later but I 
think you've indicated or the Department has indicated that 
they wouldn't plan on calling on that water. So if that's the 
case then an amendment to that degree couldn't be troublesome 
to you so we'll talk about it. Thank you, Mr. Chairman.
    Senator Salazar. Thank you, Senator Thomas. Commissioner 
Johnson, as head of the Bureau of Reclamation we welcome you 
once again to the committee and look forward to working with 
you on all the reclamation issues in the West.
    Dr. Hirsh, we appreciate your work in the U.S. Geological 
Survey, not only on these bills that we have before us today 
but also on other matters that we're working with you on 
including legislation that Senator Corker, Senator Bunning and 
I are sponsoring on carbon sequestration. Thank you very much 
for being here. We'll move on to the second panel.
    As our second panel comes up let me introduce them. From 
left to right we have Mike Purcell, who is the director of the 
Wyoming Water Development Commission.
    We also have Joe Glode, who is the chairman of the Upper 
North Valley Water Users Association. The two of them will 
speak on the Platte River bill.
    We also have David Stewart, who will talk about produced 
water and Nick Tibbetts, who will testify on the Redwood Valley 
Water District bill.
    I welcome each of you to the hearing today.
    Mr. Purcell, we'll begin with you and I would ask the 
witnesses also, if you would keep your remarks, perhaps, to 3 
minutes, so we can make sure that we have the opportunity to 
ask you some questions and we'll finish on time.
    Mr. Purcell.
    Senator Thomas. Mr. Chairman, I just want to say, we're 
very grateful for our two representatives from Wyoming to come 
this far and to be here to represent us. Thank you very much, 
gentlemen, for being here.
    Senator Salazar. And I join Senator Thomas in making that 
comment. I know how far Wyoming is and Senator Thomas, Senator 
Enzi and I are often on the same flight back to the West and we 
appreciate the distance that you've traveled to come here today 
to present your testimony.
    Mr. Purcell.

          STATEMENT OF MIKE PURCELL, STATE OF WYOMING

    Mr. Purcell. Thank you, Mr. Chairman. My name is Mike 
Purcell. I'm Wyoming Governor Freudenthal's representative on 
the Governance Committee for the Platte River Recovery 
Implementation Program. I'm presently the chair of that 
committee.
    With us today we have, Ann Bleed, who's the director of the 
Nebraska Department of Natural Resources, who is representing 
Nebraska Governor Heineman and Ted Kowalski, program manager 
for Colorado Water Conservation Board, who's representing 
Colorado Governor Ritter.
    We also have in attendance Dan Ludke, who is a 
representative to the environmental interest in the long 
negotiations that led to this program.
    All three of them will provide written testimony for your 
consideration.
    I thank you for the opportunity to provide testimony in 
support of S. 752. Issues related to the endangered birds and 
critical habitat in the Central Platte River in Nebraska have 
affected water use and management in the three States since the 
late 1970's. They have affected the relationship between the 
States and with the Federal Government.
    The Platte River Recovery Implementation Program affords 
the States the opportunity to address these issues through 
cooperation, rather than conflict.
    The program will allow our water users to implement a 
simplified consultation process rather than the often 
acrimonious formal consultations on all of our water related 
activities.
    I would like to point out that the States are, in fact, 
contributing 50 percent toward this program either in funding 
or in kind services and I need to point out also that what the 
States have agreed to do is curtail their water use to 1997 
levels. While that does not enter into the mathematics of the 
50-50 match, I can assure you, it does affect our water 
management and our water decisions in the future.
    Another important component of S. 752 is the authorization 
for the Secretary to modify Pathfinder Dam and enter into 
agreements with the State of Wyoming for the implementation of 
the project. There are no Federal funds involved in this 
project. The part of the partnership is that the State of 
Wyoming would provide the sum of $8.5 million to implement the 
project.
    The operation of the project was carefully crafted during 
the settlement of the recent Nebraska v. Wyoming lawsuit. That 
settlement was ultimately approved by the U.S. Supreme Court in 
2001. The United States and the States of Wyoming, Nebraska and 
Colorado were parties to those negotiations.
    With my written testimony I have attached a copy of 
Appendix F * to that final relevant stipulation which provides 
for you the carefully crafted operation we're proposing for 
that program and I won't go over it today.
---------------------------------------------------------------------------
    * Appendix F has been retained in subcommittee files.
---------------------------------------------------------------------------
    In closing I would suggest to you that the Pathfinder 
Modification Project is very important to Wyoming. There are 
pieces in it that, it's the manner by which you provide our 
water contribution to the Platte River Implementation Program 
and that some of the water is needed for us to comply with the 
Nebraska v Wyoming lawsuit as well as provide a much needed 
supplement municipal supply. Therefore it is very important to 
our long term interest. Mr. Chairman, thank you.
    [The prepared statement of Mr. Purcell follows:]
          Prepared Statement of Mike Purcell, State of Wyoming
    My name is Mike Purcell. I am Wyoming Governor Dave Freudenthal's 
representative on the Governance Committee of the Platte River Recovery 
Implementation Program. Presently, I am serving as Chairman of that 
Governance Committee. I would like to offer the following thoughts 
relating to the importance of S. 752 to the Department of Interior, 
States of Colorado and Nebraska, and, in particular, the State of 
Wyoming.
    The Platte River Recovery Implementation Program and Pathfinder 
Modification Project enjoy the support of water users in the Platte 
River Basin in Wyoming, including the irrigators that contract for 
federal storage water, several municipalities, and others.

       I. PLATTE RIVER RECOVERY IMPLEMENTATION PROGRAM (PROGRAM)

    Issues related to the endangered birds and the critical habitat in 
the Central Platte River in Nebraska have affected water use and 
management in the States of Colorado, Nebraska, and Wyoming since the 
late 1970's. They have affected the relationships between the states 
and with the federal government. The Platte River Recovery 
Implementation Program affords the states the opportunity to address 
these issues through cooperation rather than conflict.
    After 14 years, the negotiations have been completed. The Wyoming 
Legislature has approved the state's Program financial contribution of 
$6M and Governor Freudenthal and the other signatories have executed 
the necessary agreements. The Program commenced on January 1, 2007.
    The Program will provide the states coverage under the Endangered 
Species Act (ESA) through simplified consultation processes for 
existing water related activities and certain specified new water 
related activities. The states and their water users will not be 
required to complete contentious ESA consultations on each water 
related activity requiring federal approvals. Without the Program, 
proponents of these activities would likely be required to provide 
funding and water to gain clearance under the ESA.

A. Key Components of the Program
    1. A major Program objective is to provide 130,000-150,000 acre 
feet of water per year to reduce shortages to the Fish and Wildlife 
target flows in the Central Platte.
    2. Another Program objective is to provide and maintain 10,000 
acres of habitat in the Central Platte.
    3. The monetary budget is approximately $187M for the first 
increment of the Program. The federal government will provide 
approximately $157M. To match the federal funding, the three states are 
making $160M in contributions. These contributions include: $30M in 
cash, approximately 3,000 acres of land, and an average of 80,000 acre 
feet of water per year. Program cash will be dedicated to additional 
land purchases and restoration, additional water (50,000-70,000 acre 
feet of water per year), and an adaptive management program.
    4. While it does not show up as a contribution to match the federal 
funding, it should not be overlooked that the states have also agreed 
to curtail their water use to 1997 levels. Each state has developed a 
depletions plan which has been approved by the parties that outlines 
how that state will manage its water to meet this threshold. 
Implementing these depletions plans will be costly and will affect 
future water use and management decisions in all three states.
    5. The first increment of the Program will be 13 years. Provisions 
in the Program call for additional increments if needed and if approved 
by the states and the Department of Interior.
    6. An adaptive management scientific approach will be implemented 
to determine the water and habitat needs of the endangered birds 
(whooping crane, least tern, and piping plover) in the Central Platte 
River basin in Nebraska and the pallid sturgeon in the Lower Platte 
River basin in Nebraska. The states and their water users will have a 
seat at the table during the development of this information, which 
will become the best scientific information available for ESA purposes 
and will become the basis of future consultations.
    7. The Program will be implemented by a Governance Committee in 
which the states and their water users will both have individual 
members. The Committee will operate on a consensus basis, which will 
ensure that all views must be addressed.
    8. The Program will serve as the reasonable and prudent alternative 
under the Endangered Species Act for existing water related activities 
(depletions) that occurred prior to July 1, 1997, the date of the 
initiation of the Cooperative Agreement which led to the Program, and 
certain specified new water related activities.

B. Why?
    Wyoming, Nebraska, and Colorado became interested in the Program 
when it became apparent that the ESA provided the U.S. Fish and 
Wildlife Service the authority to require the replacement of existing 
depletions until it achieved its water supply goal for the critical 
habitat in the Central Platte River in Nebraska. Therefore, the three 
states, the Department of Interior, affected water users, and 
environmental groups began seeking a cooperative solution in 1993.
    Why did the states stay the course during 14 years of negotiations 
relating to the Program? The state representatives had several meetings 
and discussions relating to future life without a Program and came to 
the following conclusions:
    1. The Fish and Wildlife Service would be obligated under ESA to 
undertake separate ESA consultations on the federal reservoirs and 
other major reservoirs in each state. The likely outcome would be that 
the operations of those reservoirs that are presently serving our water 
users would be reconfigured to provide 417,000 acre of feet water for 
the endangered species and their habitat. The loss of this water would 
``ripple'' through each state's water right system impacting not only 
the users of the storage water but also all water users in our states.
    2. Without the Program, ESA consultations required for future 
federal actions (permits, including renewals; funding; contracts; 
easements; and others) would require our water users (irrigators, 
municipalities, industries and others) to replace existing and proposed 
new depletions.
    3. Prolonged and costly law suits would likely be initiated by each 
state, or by the states collectively, challenging the ESA and the Fish 
and Wildlife Service's interpretation of the ESA. Recent case history 
indicates that unless there is meaningful reform to ESA, investments in 
such litigation would likely be lost.

                  II. PATHFINDER MODIFICATION PROJECT

A. Description
    The Pathfinder Modification Project is authorized by Appendix F to 
the Final Settlement Stipulation relating to the Nebraska v. Wyoming 
law suit, as approved by the U.S. Supreme Court. A copy of the 
Stipulation is attached to this written testimony. The Bureau of 
Reclamation (USBR) has a Wyoming water right to store 1,070,000 acre 
feet of water in Pathfinder Reservoir for the benefit of the North 
Platte Project, which includes irrigated land in Eastern Wyoming and 
Western Nebraska. Over the years, 53,493 acre feet of the storage 
capacity of the reservoir have been lost to sediment. The project would 
recapture this storage space. The recaptured space would be 
administered through two accounts, the ``Environmental account'' and 
the ``Wyoming account.'' The operation of these accounts was carefully 
crafted during the negotiations that lead to the settlement of the 
Nebraska v. Wyoming law suit which has been approved by the U.S. 
Supreme Court in November, 2001. The United States and the States of 
Colorado, Nebraska, and Wyoming were parties to the negotiations.
    An ``Environmental account'' consisting of 33,493 acre feet of the 
proposed 53,493 acre foot enlargement will be established and will be 
operated for the benefit of the endangered species and their habitat in 
Central Nebraska. The Environmental account is Wyoming's water 
contribution to the Platte River Recovery Implementation Program 
(Program) on behalf of all of its water users in the Platte River 
basin, including the federal government and its major storage 
facilities in our state and irrigators in Nebraska that rely on storage 
water from the federal dams in Wyoming.
    The State of Wyoming has the exclusive right to contract with the 
USBR for the use of 20,000 acre feet of the enlargement capacity in a 
``Wyoming account.'' The USBR, under contract with Wyoming, will 
operate the 20,000 acre feet of storage to insure an annual firm yield 
of 9,600 acre feet. This is the same yield that was anticipated from 
the proposed Deer Creek Dam and Reservoir. Upon completion of the 
Pathfinder Modification Project, Wyoming will cancel existing water 
rights and federal permits pertaining to the Deer Creek Project.
    The ``Wyoming account'' will serve as a much needed supplemental 
water supply for Wyoming's municipalities during times of water rights 
regulation. Many of the municipal water supplies along the North Platte 
River have junior water rights which may be shut off or severely 
curtailed during water rights regulation. The account will also provide 
water to meet some of Wyoming's obligations specified in the Nebraska 
v. wyoming settlement agreement and documented in the modified north 
Platte Decree.
    The modification would be accomplished by raising the elevation of 
the existing spillway by approximately 2.4 feet with the installation 
of an ogee crest. The recaptured storage space would store water under 
the existing 1904 storage right for Pathfinder Reservoir and would 
enjoy the same entitlements as other uses in the reservoir, with the 
exception that the recaptured storage space could not place regulatory 
calls on existing water rights upstream of Pathfinder Reservoir, other 
than the rights pertaining to Seminoe Reservoir.
    The Pathfinder Modification Project is essential to Wyoming in 
order for the state to meet its obligations under the Program and the 
Modified North Platte Decree.
B. Status
    State authorization to contract with the USBR was approved by the 
2006 Wyoming Legislature. The Wyoming Legislature has approved an 
appropriation of $8.5M to implement the project.
    The next critical step is securing Congressional authorization for 
the Secretary of the Interior to modify the Pathfinder Dam and 
Reservoir and enter into agreements with the State of Wyoming for the 
implementation of the project. Upon receipt of this authorization, the 
following work can be completed:
    1. The USBR must obtain a partial change of use for its Wyoming 
water right for Pathfinder Reservoir from the Wyoming Board of Control 
for the 53,493 acre feet of Pathfinder storage water from irrigation 
use to the uses proposed by the Project. The funding approved by the 
Wyoming Legislature cannot be encumbered until the USBR obtains this 
partial change of use. This condition was placed on the funding to 
ensure that those with concerns about the project could express those 
concerns before a state tribunal before construction could begin.
    2. The State of Wyoming and USBR must negotiate a contract to 
formalize the partnership between the parties.
    3. While the final EIS for the Program will serve to address the 
regional effects of the project, a site-specific NEPA document will be 
required.
    4. Under the PRRIP, Wyoming is obligated to have the Project 
operational in 2011. However, the WWDC would like to have the project 
completed as soon as possible as the water is needed to meet the 
state's obligations under the Modified North Platte Decree.
C. Proposed Amendment
    An amendment to Senate Bill 752 and House Resolution 1462 has been 
proposed on behalf of the Upper North Platte Water Users. The proposed 
amendment suggests that the Bureau of Reclamation should be restricted 
from seeking water rights administration (calls for regulation) on 
behalf of Pathfinder Reservoir during the irrigation season. I would 
like to offer the following clarifications:
    1. The Platte River Recovery Implementation Program (Program) and 
the Pathfinder Modification Project (Project) will not impact the issue 
of priority calls on water rights upstream of Pathfinder Reservoir 
during the irrigation season. This matter relates to interpretations of 
the Modified North Platte Decree and Wyoming water law.
    2. All calls for regulation must be deemed valid by the Wyoming 
State Engineer before any water rights administration can occur. The 
Wyoming State Engineer has advised that a very difficult standard must 
be overcome for such calls to be honored.
    3. The Wyoming Attorney General, upon review of the Modified North 
Platte Decree, concluded that such calls should not be honored
    4. The matter of the effects of the Project on Wyoming water users 
will be brought before the Wyoming Board of Control during its hearings 
on the Bureau of Reclamation's petitions for the partial change of use 
to the storage water right for Pathfinder Reservoir. The Upper North 
Platte Water Users will be afforded the opportunity to present their 
views and evidence to this state tribunal and state statutes ensure 
that the project cannot be constructed until the opportunities for any 
resulting appeals have been exhausted.
    5. Please refer to Section 1 of the attached copy of Appendix F to 
the Final Settlement Stipulation which states in part: ``The recaptured 
storage space would store water under the existing 1904 storage right 
for Pathfinder Reservoir and would enjoy the same entitlements as other 
uses in the reservoir with the exception that the recaptured storage 
space could not place regulatory calls on the existing water rights 
upstream of Pathfinder Reservoir other than the rights pertaining to 
Seminoe Reservoir.'' (Emphases added.) The Upper North Platte Water 
Users are located upstream of Pathfinder Reservoir.

    Senator Salazar. Thank you, Mr. Purcell. I'd like to note 
that the subcommittee has received the written testimony on 
several bills before us today. That written testimony, as well 
as other written submissions of all the witnesses before us, 
will be made part of the official record of this committee 
hearing.
    Mr. Glode.

  STATEMENT OF JOE GLODE, CHAIRMAN, UPPER NORTH PLATTE VALLEY 
                    WATER USERS ASSOCIATION

    Mr. Glode. Thank you, Senator. My name's Joe Glode. I'm the 
president of the Upper North Platte Valley Water Users 
Association, representing the appropriators of Wyoming Water 
above Pathfinder Reservoir to the Colorado border.
    Moving along in 3 minutes, I'd just simply like to say that 
we do not oppose the North Platte Recovery Implementation 
Program.
    However, we do oppose, S. 752 in its current form. In that 
we feel that that bill, as currently written, has the potential 
to injure us greatly in the administration of Wyoming water 
law.
    One of the things that we've heard here recently is the 
fact that the Federal Government is reluctant to ask for an 
amendment here before you today because it may or may not 
affect Wyoming water law. We see that as having nothing to do 
with Wyoming water law.
    We're simply asking you, in your Federal purview to direct 
Federal employees to place and I quote, ``To protect the 
existing upstream water rights in Wyoming, the Bureau of 
Reclamation shall not place a priority call for Pathfinder 
Reservoir, including the proposed Pathfinder Modification 
Project between May 1 and September 30 in any given year.''
    Although this amendment will not completely remove our 
injury because most of the injury that's referred to in the 
environmental impact statement refers to allocation years which 
are a part of the modified decree which Mr. Purcell referred 
to.
    What we're primarily concerned about is post May 1 
administration. Now in Appendix F of the modified decree the 
calculations for allocation years run into July. There's no 
contemplation of cutting off those allocation years on the 
first of May and we feel that we are at great risk to being 
called, after May 1.
    The original North Platte Decree of 1945 stated that 
priority administration for Pathfinder against the upper valley 
was not necessary or appropriate.
    The Wyoming Attorney General has issued a statement saying 
that such a call should not be honored by the state engineer. 
The state engineer has said, he probably would not honor such a 
call and the environmental impact statement actually says that 
it is so unlikely that such a call would be made that they 
never even considered it in the impacts of the environment 
impacts statement, then why not?
    As Senator Thomas said why don't we give it the force of 
law instead of the administrative interpretations that we have.
    I thank you for the time.
    [The prepared statement of Mr. Glode follows:]

 Prepared Statement of Joe Glode, Chairman, Upper North Platte Valley 
                        Water Users Association

    The Upper North Platte Valley Water Users Association (``UNPVWUA'') 
is an organization of ranchers and irrigators who utilize the waters of 
the Upper North Platte River. Our members divert water from the North 
Platte and its tributaries in Wyoming in the area between the Colorado/
Wyoming state line downstream to Pathfinder Reservoir. Our members own 
both direct flow and storage water rights with priority dates both 
junior and senior to the 1904 priority for Pathfinder Reservoir. The 
UNPVWUA was originally formed in 1989 as a reaction to the first call 
for administration of the 1904 priority for Pathfinder Reservoir. Up 
until that time, the occurrence of such administration was considered 
highly unlikely.
    The UNPVWA opposes Senate Bill 752 in its current form. The 
proposed expansion of Pathfinder Reservoir with the Pathfinder 
Modification Project (``PMP'') that is authorized in Senate Bill 752 
will cause injury to water rights held by UNPVWA members, and 
irreparable harm to the natural resources and economy of the Upper 
North Platte River basin.
    As proposed, the PMP will enlarge the capacity of Pathfinder 
Reservoir by 54,000 acre-feet, and will also add new uses for 
Pathfinder Reservoir water. This new capacity and the new uses will not 
be administered under a new, junior water right priority as one would 
expect, but will instead be given a 1904 priority date. Pathfinder's 
December 6, 1904 priority is senior to 1091 of the 1596 Water Right in 
the Upper North Platte Basin. This attempt to expand both the size and 
the authorized uses of the original 1904 water right violates the 
fundamental principle of Western water law that senior water rights 
cannot be expanded or changed to the injury of junior users. See e.g., 
Basin Electric Power Cooperative v. Wyoming State Board of Control, 578 
P.2d 557 (Wyo. 1978). As the burden of this enlargement will be borne 
by the holders of junior water rights in the Upper North Platte River 
basin, it also represents a taking of the vested property rights that 
our members have in the junior water rights that will be diminished by 
the expansion and change. See Tulare Lake Basin Water Storage District 
v. United States, 49 Fed. CI, 313, 319 (2001).
    The taking issue is addressed in greater detail in the March 20, 
2007 letter from our attorney to the Wyoming Congressional delegation 
that I am submitting as Exhibit A to this written testimony. The 
letters attached as Exhibits B and C to this written testimony document 
in greater detail the potential injury arising from the PMP and the 
administration of the Platte River Recovery Implementation Program 
(``PRRIP'').
    The supposed call protection in the PMP does not prevent injury to 
upstream junior users. By its terms, that protection does not extend to 
Seminoe Reservoir. See Modified Decree, App. F. The increased call 
against Seminoe that will result from the expansion under the PMP will 
mean less water for Seminoe, and Seminoe in turn will place a greater 
demand under its priority against junior water rights. Moreover, the 
call protection supposedly offered under the PMP as explained in 
Appendix F to the Modified Decree is absent and not considered in the 
actual formula for determining an ``allocation year'' in Appendix E of 
the Modified Decree.
    Even the Final Environmental Impact Statement (``FEIS'') for the 
PRRIP documents the injury to the Upper North Platte Basin from the 
PRRIP. The UNPVWUA feels the FEIS grossly understates the injury from 
the PMP and PRRIP, because, among other reasons, it uses a study period 
that ends in 1994, and does not even consider the most relevant data 
from the past 12 years when drought has increased, and allocation years 
and overall demands have all increased. The FEIS also fails to consider 
Nebraska's expansion of irrigation during this recent period. Although 
issues concerning the FEIS deficiencies were raised to officials 
responsible for preparation of the FEIS, they were largely ignored.
    Moreover, the FEIS fails to even consider the devastating impacts 
on water resources when the Pathfinder 1904 right is administered after 
May 1. In this regard, it is important to direct you again to Appendix 
F of the final Modified Decree which addresses the PMP. It mandates 
that the Bureau of Reclamation cannot proceed with the PMP until it has 
been appropriately considered under the National Environmental Policy 
Act. As the impacts of a post-May 1 call were not even considered in 
the FEIS, such a call cannot be part of the approved PRRIP program.
    The foregoing concerns demonstrate the need to place appropriate 
limits on Pathfinder Reservoir. The UNPVWA views this proposed 
legislation as just such an opportunity. To prevent further and future 
injury, we respectfully ask that you consider adding the following 
language at the end of Section 202 of the current bill:

          To protect existing upstream water rights in Wyoming, the 
        Bureau of Reclamation shall not place a priority call for 
        Pathfinder Reservoir, including the proposed Pathfinder 
        Modification Project, between May 1st and September 30th in any 
        year.

    Although this amendment would not completely remove injury in the 
Upper Basin, it will address the most serious threat. The basis for May 
1 call protection is explained in the March 20, 2007 letter that is 
attached as Exhibit A. As noted therein:

  <bullet> The United States never intended that Pathfinder would fill 
        in the irrigation season against upstream junior users.
  <bullet> The original North Platte Decree of 1945 declined to require 
        strict priority administration for Pathfinder as against the 
        Upper North Platte Basin.
  <bullet> There is a Wyoming Attorney General's Opinion stating the 
        Wyoming State Engineer should not honor a post May call for any 
        component of the Pathfinder Reservoir.
  <bullet> There is a Wyoming State Engineer letter stating he would 
        probably not honor an irrigation season call by Pathfinder.
  <bullet> As explained above, the language in the FEIS states that 
        post May 1 administration on behalf of Pathfinder's 1904 
        priority date is highly unlikely, so unlikely, the impacts of 
        such a call were never considered in the EIS.
  <bullet> Governor Freudenthal issued a letter requesting the Wyoming 
        delegation's assistance in imposing a May 1st Call Restriction 
        on Pathfinder.

    Finally, we ask you to consider the basic equity of what is going 
on here. The FEIS shows no correlation between water uses in the Upper 
Basin and deficiencies in the target recovery area in Nebraska. The 
Supreme Court and the Special Master in the various Nebraska v. Wyoming 
lawsuits have similarly recognized that there is little or no real 
hydrologic connection between water use above Pathfinder Reservoir in 
Wyoming and water shortage in the critical area in Nebraska. 
Nevertheless, by way of the PMP, it is proposed that irrigators and 
other water users above Pathfinder be asked to bear the burden of 
solving a problem they have not created. The UNPVWA asks that you give 
serious consideration to the amendment it proposes, and bring some 
small measure of equity 10 those who rely on the waters of the Upper 
North Platte River.
    I thank the respected members of this Committee for the opportunity 
to present our comments.

    Senator Salazar. Thank you very much, Mr. Glode.
    Dr. Stewart.

    STATEMENT OF DR. DAVID R. STEWART, PROFESSIONAL ENGINEER

    Dr. Stewart. Today I am here to talk about produced water. 
I'm a professional engineer from Colorado and have over 30 
years in water treatment.
    Why are we talking about produced water? There's 22 billion 
barrels of produced water generated every year. That's about 
2.3 or 2.8 million acre feet of water.
    The cost of water along the Colorado front range has 
increased dramatically. It now ranges about $20,000 an acre 
foot. In the Western United States it goes anywhere from $5,000 
to $35,000 an acre foot. So, there's a huge cost associated 
with that.
    Why hasn't this worked before? Energy companies talk in 
barrels, water users talk in acre feet. So we've got a 
communication problem for one. The others are the fluctuating 
oil prices, uncertainties with water supply.
    The beauty of produced water is that it's drought proof. It 
comes up every year whether you want it to or not. It comes up 
with the oil or the coal bed methane projects and so there's a 
beauty to that water from that standpoint.
    You have private industry verses public agencies and the 
private companies don't want to take the risk associated with 
environmental issues associated with that water, but the 
benefits are that it is new water. It's water that doesn't come 
to the surface naturally so it adds water to the basin, which 
is crucial in the West. We need more water.
    It reduces energy because you don't have to re-inject it. 
30 percent of the energy that we use when it comes to the 
surface, we use 30 percent of it to put that water back in the 
ground. We should use that water as a resource.
    There is more research that's needed. We need both more 
oil, more energy and we need more water and so the Bureau and 
USGS are in a perfect position to do that research. We need to 
enhance that water recovery.
    I have an example of this in Colorado, the Wellington 
Waterworks Project, up in northern Colorado. We're the first 
plant to utilize, to produce water for beneficial use.
    The only plant in the United States that does that today 
and that beneficial use is providing the town of Wellington 
with the water supply. It increases their water supply by 300 
percent, so it's very beneficial to the area and yet the oil 
company is now realizing an asset that was a waste to them 
before.
    So, one of the things that we want to do with this water is 
we want to turn that prominent waste product into an asset. All 
it takes is treatment to do it. We need to enhance that.
    I would suggest that we support S. 1116 and H.R. 902. Thank 
you very much.
    [The prepared statement of Dr. Stewart follows:]

   Prepared Statement of Dr. David R. Stewart, Professional Engineer

    I am David R. Stewart, a Colorado Registered Professional Engineer. 
I have worked for over thirty (30) years as an Engineer for various 
industrial and commercial companies in the western US. My experience 
includes the design and operation of water reuse and reclamation 
facilities, design of advanced treatment technologies, and development 
of a production water treatment system for augmentation of tributary 
water in Colorado. I hold several patents and patent pending 
applications in this area of water reuse and reclamation.

                               BACKGROUND

    In 2003, Interior Secretary Norton announced a new Federal 
initiative to assist communities in addressing chronic water shortages 
in the West. In this initiative, areas where shortages are most likely 
were identified. To a large extent, these areas coincide with the 
states that produce oil and natural gas. The top producing states are 
Colorado, Texas, Louisiana, Alaska, Oklahoma, and California.
    In 2002, 2.1 billion barrels of oil and 196 trillion cubic feet of 
natural gas were produced in the United States (API). These activities 
resulted in nearly 22 billion barrels of produced water or 2.84 million 
acre feet per year. Produced water is water, generally mineralized, 
brought to the surface with oil and gas.

        PRODUCED WATER REMAINS A LARGELY UNTAPPED WATER RESOURCE

    Despite individual efforts by the oil and gas industry to 
beneficially reuse produced water, and an increasing trend toward reuse 
and recycling, by far the most common method of disposal is subsurface 
injection. This disposal method is very costly and treats water as a 
liability rather than an asset. There appears to be several reasons why 
previous reuse efforts have had limited success, including:

  <bullet> Unfamiliarity of the oil and gas industry with the 
        intricacies of water marketing.
  <bullet> Uncertainties related to the duration of the produced water 
        supply.
  <bullet> Fluctuating oil and gas prices and the resulting fluctuation 
        in the willingness to make capital investments in recycling 
        technology.
  <bullet> Wide differences between the desire for rapid development of 
        recycling by private industry, once a ``go'' decision has been 
        made, and the slow pace of development for public water 
        infrastructure.
  <bullet> The relatively poor source water quality of produced water 
        and the need for extensive treatment.
  <bullet> Risks associated with environmental and public exposure to 
        treated produced water.
  <bullet> The relatively low value placed on water, particularly in 
        relation to the high value of oil and gas.
  <bullet> Focus of time and capital by the oil industry on their core 
        business--finding oil.
  <bullet> Clean Water Act limits the discharge of produced water to 
        surface water in the West.

    In short, although there are significant technical, economic, 
environmental, and legal barriers to produced water development, the 
primary barriers are the institutional and communication differences 
between the private oil and gas industry and the publicly dominated 
water industry.

                 BENEFITS OF PRODUCED WATER DEVELOPMENT

    Despite the barriers to development of produced water, the benefits 
are substantial and are both economic and technical.
    The economic benefits of produced water treatment include:

  <bullet> Adding a new water resource to the shrinking number of water 
        resources available in the water-short West.
  <bullet> Water is becoming an increasingly valuable commodity that is 
        both transportable and in demand. Along the front range of 
        Colorado, the cost of an acre foot of water has reached $20,000 
        for the Perpetual or annual right to divert an acre foot of 
        water. This is significantly higher than the value of this same 
        right in California, which is approximately $5,000 per acre 
        foot. However, there are instances in the western U.S. where an 
        acre foot of water is valued at $35,000 per acre foot.
  <bullet> Dramatically reduce the volume of produced water injected 
        into disposal wells and eliminate this as a cost of producing 
        oil and gas. This will reduce the energy loss due to this 
        operation by as much as 20 percent.
  <bullet> Minimize the cost and risk of the environmental impact of 
        producing oil and gas by dramatically reducing the total use of 
        chemicals in the recovery and treating process.
  <bullet> Make better use of natural and financial resources by 
        lowering the cost of environmental compliance.
  <bullet> Reduce the demand for surface water resources by domestic 
        and industrial users, which conflict with the maintenance of 
        endangered species and wild rivers.
  <bullet> Reduce some or all of the costs associated with the 
        underground disposal of produced water including maintenance, 
        acidizing, drilling new disposal wells, regulatory and 
        administrative activities.

    The technical benefits of produced water treatment include:

  <bullet> Improve the efficiency of thermal oil recovery by decreasing 
        the amount of steam required to heat the water along with the 
        oil in the reservoir.
  <bullet> Reduce the potential for reservoir damage by disposal 
        injection.
  <bullet> Reduce the recirculation of injected water into the oil 
        producing horizons.
  <bullet> Lower the energy demand for oil field operations through 
        reduced water production and handling.

     PRODUCED WATER RECOVERY WILL INCREASE DOMESTIC OIL PRODUCTION

    In many oilfields, injected produced water flows to producing areas 
and increases the water content of recovered oil. For example, in the 
San Ardo Oilfield in California where produced water is reinjected, the 
water cut was less than 1 percent in the 1940s, but now is nearly 95 
percent. Thus, water removal is the key to increasing production. If 
the reservoir could be dewatered, an estimated 150 million barrels of 
additional oil could be developed from this oilfield alone.
    In reservoirs with thermally enhanced recovery, produced water 
reuse will also reduce heat requirements. By increasing the steam 
quality, the amount of steam required can be substantially reduced. 
Because these heat requirements represent a significant cost and 
recoverable oil reserves are based on production economies, more oil 
may be recoverable from existing oilfields.

                 EXAMPLES OF PRODUCTION WATER PROJECTS

    There are two examples of production water projects that have been 
or are nearing completion. The first project is near Wellington, 
Colorado. This project is treating oil production water as a new water 
resource. This new water resource will be used to augment shallow water 
aquifers to prevent injury to senior water users. The oil company is 
embarking on this project to increase oil production. A separate 
company will then purchase and utilize this water as an augmentation 
water source. This water will eventually be used to allow the Town of 
Wellington and northern Colorado water users to increase their drinking 
water supplies significantly. In this example, the Town of Wellington 
can increase their water supply by 300 percent due to this new water 
source.
    Another example of the beneficial use of production water is the 
San Ardo field near Monterey California. Research of this production 
water system is being conducted by Kennedy/Jenks Consultants of San 
Francisco, California. This oil field is currently utilizing 50,000 
barrels per day for steam, but has over 100,000 barrels per day of 
water available for beneficial reuse. The end users of this water could 
be agriculture, groundwater recharge for salt barrier intrusion and 
environmental reclamation.
    A third example would be the coal bed methane production waters 
that are being developed in the west. These waters need to be removed 
in order to develop the resource of the coal bed methane. This is a 
difficult water to dispose of due to the mineral content of the water. 
Technologies have been developed to treat this water, but the 
beneficial use of this water has not been researched or developed. 
Potential uses of this water are for municipal augmentation of a new 
water resource, industrial and agricultural interests as well as 
environmental enhancement through the creation of wetlands and in-
stream flows.

                   A NEED FOR PRODUCED WATER RESEARCH

    I believe that there is a real need for production water research. 
Presently, there is a lack of information on the amount of effort 
required to produce this water. I have been working on this effort in 
Colorado for over 5 years. Most of this time was spent obtaining 
regulatory approvals and working on the legal aspects of our project. I 
believe that the United States Bureau of Reclamation in conjunction 
with the United States Geological Survey is in the best position to 
provide this research. The USBR is the one agency that has a 
significant amount of technology information on desalting of brackish 
waters and is an agency that currently has access to the end users. The 
USGS is an agency that understands how this water can be utilized and 
what water quality constraints might be required of the technology 
developed. In addition, there will be a need to prove to the energy 
industry that these technologies are feasible and will assist in the 
development of these new energy resources.
    As S. 1116 and H.R. 910 states, there is a need for a collaborative 
effort to identify the obstacles in the development of this water 
resource and to provide research and demonstration plants to implement 
this in the future. This is a role of our government and will allow for 
the future use of this resource.

    Senator Salazar. Thank you very much, Dr. Stewart.
    Mr. Tibbetts.

STATEMENT OF NICHOLAS R. TIBBETTS, REDWOOD VALLEY COUNTY WATER 
                            DISTRICT

    Mr. Tibbetts. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify. I'm Nicholas Tibbetts, 
representing the Redwood Valley County Water District in rural 
Mendocino County.
    We support S. 1112 and its companion H.R. 235, which will 
permit the district to develop a water supply and achieve the 
revenues that will allow it to repay two Federal loans.
    In 1975 and 1983, the district built water supply 
facilities using two Bureau of Reclamation loans totaling 
$7,313 million.
    The district supplies water for agricultural and 
residential purposes and covers an area for about 3,800 people. 
Unfortunately right from the outset, it became apparent that 
the district could not depend on its water source and in fact 
had no firm supply or water right.
    This was known to the Bureau at the time the loans were 
made. Since 1988, a perfect storm of adversity has prevented 
the district from repaying its loans. Because of the endangered 
species act, water supplies in the Russian River, upon which 
the district depends, averted in order to protect salmon and 
steel head runs.
    Second, a California court in 1989 imposed an injunction 
against the district prohibiting it from adding new customers 
and increasing its rate, pay or base. That moratorium is still 
in effect today.
    Third, the local flood control district that supplies water 
for Redwood has suggested the district might be wise to look 
elsewhere for water. The district has identified three 
potential sources of a firm supply of water. It will borrow 
non-Federal funds to build new facilities.
    In order to do so, however, it must subordinate the 
existing two loans to the new non-Federal funding. This 
legislation permits this subordination and will enable the 
district to build facilities that will repay new financing and 
the existing two Federal loans, this not a loan forgiveness but 
rather a forbearance that will result in the repayment of those 
loans. Thank you.
    [The prepared statement of Mr. Tibbetts follows:]

      Prepared Statement of Nicholas R. Tibbetts, Redwood Valley 
                         County Water District

    Mr. Chairman, Members of the Committee, I am Nicholas Tibbetts 
testifying on behalf of the Redwood Valley County Water District. I 
appreciate the opportunity to address you in support of S. 1112 and 
H.R. 235 which will allow for the renegotiation of the payment schedule 
of contracts between the Secretary of the Interior and the Redwood 
Valley County Water District.
    The legislation before you enables the Redwood Valley County Water 
District (District or Redwood Valley) to reschedule the payment of its 
two Small Reclamation Projects loans to the United States. The 
legislation allows Redwood Valley to enter into financial obligations 
as are necessary to finance the procurement of dedicated water rights 
and improvements necessary to store and convey those rights to provide 
for the District's water needs. In short, it means that Redwood Valley 
will be able to financially pursue and construct a firm and reliable 
water supply that it has never had since its inception over 30 years 
ago. The following testimony will explain why this legislative relief 
is so critical to the residents and farmers of Redwood Valley.
    Redwood Valley is located five miles north of Ukiah, California in 
Mendocino County. It is largely rural with a significant element of 
small agricultural operations most notably vineyards. The Redwood 
Valley County Water District was formed as a California Special 
District in January, 1964, to provide a reliable water supply for the 
1100 residents and farmers of Redwood Valley. The. District built an 
$8.5 million water system project. The project was funded with a $1.2 
million local share and two Small Reclamation Projects Act loans 
totaling $7.3 million.
    In the early 1970's the Redwood Valley County Water District 
commissioned studies and analyses by a reputable engineering firm. The 
studies recommended constructing and operating a water supply system 
which was to be a dual distribution system for irrigation and domestic 
water service. The studies included engineering, cost analysis and loan 
repayment capabilities. The analysis concluded that the project was 
economically feasible. Further, it was reasonably anticipated that the 
loans could be repaid from income derived from the sale of water. The 
Bureau of Reclamation (Bureau) concurred that the project was feasible.
    In 1975 the Redwood Valley voters approved the project and a 
$4,800,000 loan to build it. Construction commenced in 1977. Funds were 
insufficient to complete it. The District, nonetheless, went into 
operation in 1979 with 95 percent of its domestic system and 50 percent 
of its irrigation system in service.
    The Bureau of Reclamation recommended that the District assume a 
second Small Reclamation Projects Act loan to complete the project. 
This supplemental loan of $2,513,000 was approved by the voters in 
1980, and the system was completed in 1983. The two loans were to be 
repaid in 35 annual installments.
    In the 1970's when the Redwood Valley County Water District was 
being formed and financing agreements were being negotiated with the 
Bureau of Reclamation, it was known that the District did not have a 
firm and reliable water supply. It did not have a summertime water 
right to Russian River water or to Lake Mendocino water, nor did it 
possess a firm and reliable water supply from any other source. Redwood 
Valley negotiated with its neighbor, Russian River Flood Control 
District (RRFCD or Flood Control), for water from Flood Control's 8000 
AF water right to Lake Mendocino. The water ticketed from the 8000 AF 
was understood to be excess or surplus to the needs of Flood Control. 
The negotiations culminated in a legal settlement in Superior Court in 
1980 resulting in the Redwood Valley County Water District securing 
excess or surplus water from Flood Control's 8000 AF water right.

                    EMERGING FINANCIAL DIFFICULTIES

    In 1983 Redwood Valley made its first and only loan payment of 
$58,000 against the principal to the Bureau of Reclamation. Shortly 
thereafter it became apparent that repayment projections generated by 
Redwood Valley's engineering consultant, and concurred in by the Bureau 
of Reclamation, did not come close to meeting either the actual costs 
of operation or the actual revenues generated from the water sales. 
District studies conducted at that time concluded that domestic water 
sales were 75% of initial projections, and agricultural (irrigation) 
water sales were 11% of initial projections. Redwood Valley embarked 
upon a program to raise water rates to generate the necessary revenues 
to meet its operational and loan repayment obligations. Since the 
1980's rates have been raised six times--the most recent two years ago. 
In the 1980's and today Redwood Valley County Water District's rates 
are in the top tier of water rates in Mendocino County.
    In the mid 1980's the Redwood Valley and the Bureau of Reclamation 
engaged in numerous exchanges over the District's inability to make the 
scheduled loan payments. Redwood Valley requested that payments be 
suspended until water sales could carry the annual debt load. The 
Bureau refused, indicating that any debt postponement or suspension 
needed congressional authorization.

   GOVERNMENT INTERVENTION--LOAN SUSPENSION AND CONNECTION MORATORIUM

    In October 1988 Congress passed P.L. 100-516 suspending Redwood 
Valley County Water District's loan repayment obligation until a 
renegotiated schedule of payment takes effect. Currently, the District 
is in the 19th year of the loan suspension. P.L. 100-516 suspended 
payments on principal, interest, and eliminated any accrued penalty 
interest associated with the two loans.
    In 1989 Redwood Valley was dealt a lethal blow to its ability to 
repay its Small Reclamation Projects Act loans. The Mendocino County 
Superior Court imposed a moratorium on domestic water service 
connections. This connection moratorium prohibits the District from 
making any new domestic service connections to its water system. This 
moratorium is still in effect 18 years later.
    In 1998 the Redwood Valley County Water District sought 
``moratorium relief'' from the California Legislature. The District 
sought legislation which would set aside the 1989 Superior Court 
decision. Instead of legislatively setting aside the moratorium, the 
legislature passed SB 1432 which allowed Redwood Valley to add a 
limited number of connections based on a demonstrated hardship. In the 
last nine years there have been a total of 60 such connections.
    The legislature in passing the limited relief recognized that the 
blanket moratorium on connections for domestic water service was 
onerous, not simply to the District, but to Redwood Valley's residents. 
Further, the legislature recognized that the District had over the 
years made unsuccessful, but good faith attempts, to find a firm and 
reliable water source.

   GOVERNMENT INTERVENTION CONTINUED--ENDANGERED SPECIES ACT AND FERC

    The area wide water source for Redwood Valley and the neighboring 
Ukiah Valley is the Russian River and its depository Lake Mendocino. 
Lake Mendocino is largely dependent upon water diversions emanating 
from the Eel River. In 1996, 1998, 1999 the United States government 
declared Salmon and Steelhead inhabiting California's northern coastal 
rivers, including the Russian River and the Eel River, as threatened 
species under the Endangered Species Act (ESA).
    Lake Mendocino is the source of Russian River Flood Control's 8000 
acre feet water right. It has been the water supply source for the 
Redwood Valley County Water District since 1979. Most of Lake 
Mendocino's water is diverted from the Eel River. The diverted water 
originates in neighboring Lake County and passes through a Pacific Gas 
and Electric Company power generation facility before cascading through 
an underground water tunnel into the Russian River in Mendocino County 
on its way to Lake Mendocino.
    Water users in the Ukiah Valley, including Redwood Valley, are 
dependent upon the continued diversion of Eel River water to the East 
Fork of the Russian River since this represents the only reliable 
source of summertime flow in the Russian River. The loss or reduction 
of this source of supply will have a significant impact upon the 
reliability of water supplies in Mendocino County and northern Sonoma 
County.
    In January, 2004, the Federal Energy Regulatory Commission (FERC) 
issued a decision which further threatens Redwood Valley's future water 
supply and its dependence upon Lake Mendocino and Russian River Flood 
Control. FERC determined that more water should stay in the Eel River 
and less diverted south to the Russian River. This decision ostensibly 
brought to an end a six decade long disagreement over the impacts of 
diverting Eel River water south to Sonoma and Mendocino counties. FERC 
concluded that cutting diversions by 15% should benefit three species 
of threatened fish protected by the ESA.
    In 2007 the National Marine Fisheries Service announced an error in 
the above 15% reduction in Eel River diversions south to Mendocino 
County, New calculations concluded that the Eel River diversions should 
be cut by 33% and not 15% as determined in 2004.
    Officials in Sonoma and Mendocino counties believe the dramatically 
reduced diversions will harm farmers and city residents in their 
counties. FERC's decision puts tremendous pressure on water supply 
available to Lake Mendocino which is the depository of water for the 
Russian River Flood Control District and consequently for the Redwood 
Valley County Water District.

               TODAY--VULNERABLE TO RUNNING OUT OF WATER

    The California State Water Resources Control Board (SWRCB) has 
declared the Russian River to be fully appropriated each year during 
the months of June through October. The only new water rights being 
considered by the SWRCB are those diversions of winter/spring flood 
flows which can be stored off stream for later summertime use.
    In 1999 the Russian River Flood Control District reported to the 
SWRCB that it diverted 8049 AF to its constituent users (including 1704 
AF to the Redwood Valley). The diversion exceeded Flood Control's 8000 
AF appropriative water right. The 1999 flood Control numbers suggest 
that the Redwood Valley County Water District's ``surplus water'' 
supply is entering an era of diminishing returns.
    It is increasingly clear that Redwood Valley enters the 21st 
century facing a fragile water supply future. In December, 2001, the 
Flood Control District in Resolution No. 1-83 informed the Redwood 
Valley County Water District that Flood Control no longer had surplus 
water to sell Redwood Valley. In December, 2002, Flood Control again 
noticed the Redwood Valley County Water District that it had no surplus 
water to sell. On April 1, 2007, Flood Control notified Redwood Valley 
``to plan for potential shortages later this year.''
    The California Department of Health Services in April, 2002, in its 
``Drinking Water Adequacy Assessment'' for the Ukiah Valley concluded 
the following:

        The Redwood Valley District continues to lack an adequate and 
        reliable source of supply during the critical months of June 
        through October and has to rely upon an interruptible supply 
        (surplus water) from the RR District (Flood Control).

    The report goes on to state:

        Given that the RR District is currently exceeding its water 
        rights limit, which does include surplus water sold to Redwood 
        Valley, the amount of surplus water available for Redwood 
        Valley can be expected to decline each year as authorized users 
        (six area public water systems) of the RR District's increase 
        their demand on water.

    The report notes that, ``Of the seven public water systems 
receiving RR District (Flood Control) water only the Redwood Valley 
County Water District is without a legally firm and reliable water 
supply.''
    The District since its creation has been aware of its vulnerability 
in not having a reliable water supply predicated on a firm water right. 
In 1974 and in 1992 the District conducted extensive investigations of 
potential water reservoir sites. All potential sites came with legal 
and or development problems of some sort and all were expensive. In 
anticipation of a restricted water supply future the Redwood Valley 
County Water District implemented a water conservation program.

                   TOMORROW--SECURING RELIABLE WATER

    In a letter to its ratepayers in 2001 Redwood Valley indicated that 
it had conducted water storage site surveys in the past and again was 
taking another look at that option. The District pointed out to its 
customers that all potential sites were expensive to develop. Redwood 
Valley notified the Bureau of Reclamation of its interest in pursuing 
such a project. Redwood Valley informed the Bureau that if a future 
water supply project were necessary for the District to maintain a 
viable water system, then the District would not be in a position to 
make payments to the Bureau of Reclamation on its two Small Reclamation 
Projects Act loans.
    In January, 2002, Redwood Valley engaged a water resource 
development company to assist it in finding and securing a firm and 
reliable water supply and water right. The effort identified three 
potential projects.
    The first diverts water in the wintertime and stores it for 
summertime use. The project costs range from $100 million to $150 
million. Redwood Valley applied to the State Water Resources Control 
Board (SWRCB) for a water right permit for 52,000 AF for storage and 
for 4,000 AF of diversion annually. The Redwood Valley County Water 
District has ruled this potential project as financially infeasible.
    The second potential project captures 5600 AF at an estimated cost 
of $10 million. Redwood Valley applied to the SWRCB in 2002, for a 
water right permit on this project. The third potential project 
implements the same practice of diverting water in the wintertime for 
storage and use in the summertime. The project is for 17,000 AF and has 
an estimated cost of $10 million.

               THE BUREAU OF RECLAMATION AND THE PROBLEM

    The Bureau of Reclamation in an August 2000 Draft Report on the 
Redwood Valley County Water District recognized the source of the 
District's financial problems when it wrote the following:

          The District has been unable to meet its financial obligation 
        . . . due to:

                  1) Lack of buildup in demand for both M&I (domestic) 
                and agricultural (irrigation) water service as 
                initially projected in the loan application reports.
                  2) . . . Redwood Valley CWD (District) has an 
                agreement with the Improvement District (Flood Control) 
                which allows them to use water from the Lake 
                (Mendocino) but they are last in line behind Sonoma and 
                (Flood Control). Because of this uncertainty, Redwood 
                Valley CWD's water supply is not considered a 
                dependable firm supply.
                  3) Some of the District's (Redwood Valley) customers 
                filed a lawsuit in the California Superior Court for a 
                writ of mandate (connection moratorium) prohibiting the 
                District from increasing its number of M&I (domestic) 
                customers. The District has been working towards 
                firming up their water supply and meet the requirements 
                necessary to get the writ of mandate (connection 
                moratorium) lifted, however, at present the District is 
                still prohibited from adding new M&I (domestic) 
                customers. This severely limit's the District's ability 
                to increase the M&I revenue to make repayment on the 
                P.L. 84-984 loan obligation.

    The Bureau of Reclamation concludes, ``Reclamation recognizes that 
a firm water supply is paramount for a complete solution to the 
District's current financial dilemma.''
    The Bureau, writing in 2000, believed that the Redwood Valley 
County Water District's water supply problem could be solved by it 
becoming geographically part of the Flood Control District. The merger 
was intended to qualify Redwood Valley as a ``firm water'' customer 
instead of a ``surplus water'' one using Flood Control's 8000 AF.
    That idea did not come to fruition in part because of potential 
legal conflicts, and more importantly as noted earlier, Flood Control 
was already reaching and breaching its 8000 AF water right limit. Flood 
Control announced in 2001 and 2002 that it did not have surplus water 
to sell to Redwood Valley. If that were true, then Flood Control might 
have believed in 2000 that it did not have water to sell to Redwood 
Valley as a ``firm water'' customer.
    The Bureau of Reclamation did not mention in its 2000 report that 
Redwood Valley's future water supply became increasingly threatened 
when another federal agency, National Marine Fisheries, listed salmon 
and steelhead in the Eel River and Russian River as threatened under 
the Endangered Species Act. That federal action prompted the Federal 
Energy Regulatory Commission (FERC) to announce in 2004, a 15% cut in 
water diverted from the Eel River into the Russian River and to Lake 
Mendocino. In 2007 the National Marine Fisheries Service increased that 
reduction to 33%.

                              THE SOLUTION

    The Bureau of Reclamation is correct when it recognizes that ``a 
firm water supply is paramount for a complete solution to Redwood 
Valley's current financial dilemma.'' Unfortunately there is no quick 
fix. There is no free fix. The Redwood Valley County District is and 
has been for years actively searching for a new firm and reliable water 
supply source. The current evidence suggests that the cost of a water 
project which will provide future firm water will range between $10 
million and $100 million.
    The evidence is becoming crystal clear that the Redwood Valley's 
water supply trend line is moving away from having an adequate water 
supply--firm or surplus. The District needs to commit its financial 
resources to finding, securing and building a water supply source which 
is firm and reliable. Not only will it take money and lots of it, it 
will require taking on new debt. Redwood Valley cannot take on new 
debt, comparable in size or larger than its existing debt. This is 
especially true with an existing loan obligation to the United States 
that is and has been inoperable since the day it was incurred. The 
District cannot seek new debt financing with a $7.3 million bad debt on 
its books.
    Passage of S. 1112 and/or H.R. 235 is critical to Redwood Valley's 
ability to find and finance a firm water supply and to maintain a 
viable water system. These bills will enable Redwood Valley to commit 
future revenues to pay for projects which will secure water for its 
present and future customers.
    When that happens, the judicially imposed moratorium on revenue 
producing domestic water service connections can be lifted. That will 
enable Redwood Valley to escape its Catch 22 circumstance. The District 
needs a judicially approved firm and reliable water supply which will 
enable the District to add additional domestic service (MU) customers. 
The ability to add new domestic customers becomes a source for new 
revenues which is necessary if the District is to finally achieve long 
term financial stability. Financial stability is essential if the 
District is to meet its mission of providing safe, firm, reliable and 
affordable water for its customers in Redwood Valley.
    S. 1112 and H.R. 235 enable Redwood Valley to reschedule the 
payment of its two Small Reclamation Projects loans to the United 
States. This legislation will allow Redwood Valley to enter into 
financial obligations as are necessary to finance the procurement of 
dedicated water rights and improvements necessary to store and convey a 
firm and reliable water supply for Redwood Valley's families, farms and 
businesses. This ultimately will make it possible for Redwood Valley 
and its ratepayers to pay their original loan obligations to the United 
States.
    On behalf of the Redwood Valley County Water District--its Board of 
Directors and its ratepayers, I respectfully request that your 
committee recommend the passage of S. 1112 and/or H.R. 235. Thank you 
very much for your time and attention to this request.

    Senator Salazar. Thank you very much, Mr. Tibbetts. I'll 
just take a few minutes and ask a couple of questions. Mr. 
Purcell and Mr. Glode, with respect to S. 752, it seems we have 
a conflict going on here in Wyoming.
    Mr. Purcell, your point of view is that we do not need an 
amendment to essentially protect the upstream water users from 
a call.
    Mr. Glode, you believe that we do need an amendment that 
essentially sets forth what is already a part of the decrees 
that were entered into the settlement that was agreed to by the 
U.S. Supreme Court.
    So, which is it? Where is Wyoming on this? Are the Governor 
and you, Mr. Purcell, in a different position than Mr. Glode 
and the water users that he represents? Is there a way in which 
we can resolve this issue?
    Mr. Purcell. Mr. Chairman, I hope so. I would contend that 
this is a matter that is best left to the parties' 
interpretation of the Modified North Platte Decree and Wyoming 
Water law. We've respected this body's actions in the past, 
which has deferred such issues as this to our law and to the 
modified decree and to those who interpret it.
    Senator Salazar. Mr. Glode, why would you say that isn't 
sufficient then, to simply defer to State law and to the 
modified Supreme Court decree, if the language already 
addresses the issue, why is that that you believe the amendment 
is necessary?
    Mr. Glode. First of all, Senator, the Wyoming Water law, 
the 1904 appropriation in Pathfinder is a water right in good 
standing and we feel that it's only a matter of time, given the 
fact that there's another 150,000 give or take acre foot 
requirement on an already over appropriated river. It's only 
going to be a matter of time before the Federal Government 
comes in and asks for the enforcement of Wyoming Water law.
    What we're asking for here is, not, for you to interfere in 
Wyoming Water law in any way shape or form. We're simply 
asking, you're asking for additional 54 thousand acre foot of 
water to be placed in storage in that reservoir.
    We're asking for protection from that. We're asking for you 
to limit your Federal asset. We're not asking for anything to 
do with Wyoming Water law, whatsoever, at this particular 
point.
    What's been resisted up to this point is that the State 
engineer and the State of Wyoming have refused the ability to 
limit the powers of the State engineer and we're not asking to 
limit the power of the State engineer. We could see where that 
could be a problem for you to ask them to do that, but we're 
asking for you is to limit your own Federal agency and their 
ability to place a call.
    Senator Salazar. I will turn over to my colleagues for 
additional questions given the remaining time.
    Senator Corker.
    Senator Corker. I'll go ahead and let Senator Thomas. I 
know that he's got a more specific interest in this.
    Senator Salazar. Senator Thomas.
    Senator Thomas. Thank you. I want to follow up on that. I 
think that what we're seeking to do, as I understand it, that 
your recommendation has indicated, that they're not likely to 
increase that demand during the season. However, there's no 
assurance that that's necessarily going to be the case. We want 
it to be the case and therefore we're simply saying that that 
increase be called on and for the lake, it would not happen 
during this period of time and to ensure that's right.
    And so, Mr. Purcell, why is that a problem if we put that 
into the law, that that increase would be at the, what is it, 
125 or whatever during that period of time.
    Mr. Purcell. Mr. Chairman, Senator Thomas, I think it's the 
request of the Upper North Platte Water Users, there's a little 
more than that. There's already language in the stipulation of 
the modified decree that says the 54 thousand acre foot of the 
recaptured space.
    Now understand, this is an existing water right held by the 
Federal Government for a million seventy thousand acre foot. 
We're just reactivating 54,000 acre foot of space of that and 
we have said in the stipulation that that 54,000 acre foot 
cannot place calls on the upper basin. What is being asked of 
you is that the entire million seventy cannot place a call 
during the irrigation season.
    My Governor has written to you requesting that this 
amendment be approved. Personally, we've worked very hard to 
get the Federal Government to comply with our laws on water 
related issues.
    Senator Salazar. Let me ask, if I may, just a question on 
that. Governor Freudenthal supports the amendment? Mr. Glode is 
here in support of the amendment and yet, Mr. Purcell, you're 
here testifying that the amendment is not necessary and isn't 
welcome to be part of the legislation.
    So where's the State of Wyoming with respect to the 
proposed amendment that Mr. Glode and his concerned user 
district are proposing today.
    Mr. Purcell. Governor Freudenthal, a year ago, asked the 
delegation to support an amendment similar to this. My issue 
is, I don't want this amendment to affect the Pathfinder 
Modification Project in this potential authorization.
    To me, that is the key. We need this project very badly to 
meet our obligations to both the program and to provide water 
that we have promised under the settlement, as well as to 
supplement some very junior water rights.
    Senator Thomas. But the Bureau of Reclamation has indicated 
they're not going to do that. All we're doing is assuring that 
what they say will happen, will happen.
    Mr. Purcell. And if you think that, Mr. Chairman, Senator 
Thomas, and if you think that's appropriate, so be it.
    Senator Thomas. Well, I do, obviously. Would you like to 
respond, Mr. Glode, to Mr. Purcell's comment?
    Mr. Glode. No, I think the information speaks for itself. I 
just see that the risk is there and we're simply asking for the 
force of law for what everybody thinks is fairly ours to begin 
with. We're just simply asking for what everybody says we have 
already. I don't see it as being controversial either.
    Senator Thomas. I agree. Thank you.
    Senator Salazar. Senator Corker.
    Senator Corker. No.
    Senator Salazar. Dr. Stewart, in the project that you 
referred to, which is already online in Wellington, Colorado, 
where you are saving some of this produced water. How long will 
that occur? How much water is available from a project that's 
already functioning in the way that we contemplate under this 
legislation?
    Dr. Stewart. That's an oil project and so that has life of 
about 500 years.
    Senator Salazar. About 500 years?
    Dr. Stewart. Yes.
    Senator Salazar. So the water supply from essentially the 
mining of this water will be available for a period of nearly 
five centuries?
    Dr. Stewart. Yes.
    Senator Salazar. And Mr. Tibbetts, to you, it seems clear 
that a firm water supply is the foundation of the Redwood 
Valley to establish a water system at a rate base that will 
help solve its financial problems.
    Has the district done a sufficient analysis of its 
alternatives to warrant the conclusion that it is feasible to 
implement a project that will provide a revenue stream adequate 
to repay the new loans and its outstanding obligations to the 
Bureau of Reclamations.
    Mr. Tibbetts. The stage of its analysis, Senator, is that 
they've identified three sources, potential sources. Any one of 
the three would work for Redwood Valley. Two of those sources 
have taken to the State water board a request to provide for 
water right and that issue is pending and it's not clear, quite 
frankly, how soon there will be an action taken on that.
    What would be needed in both cases, essentially, is an 
ability to divert water in the winter high flow season, send it 
off stream, impound it and then transmit it through with a pipe 
up the valley to Redwood Valley.
    It is estimated and it's only an estimate at this time, 
that that project would probably run $7 million to $10 million.
    Senator Salazar. Thank you very much. Are there any other 
questions of this panel from either of my colleague Senators?
    Senator Corker.
    Senator Corker. Since we do have a few moments before the 
vote, I'd love to understand from Dr. Stewart, exactly what the 
process is of reusing produced water in the method that we're 
talking about.
    Dr. Stewart. There are a bunch of different processes. 
That's why I think it's important for the Bureau to be involved 
because they can help develop that tool box, but in Wellington, 
for example, we bring that water to the surface. We separate it 
in a knock out tank. We remove the wall head gases. We allow 
the water to come to the surface and remove any residual oils. 
Then we send it through a walnut shell filter, a ceramic micro 
filter activated carbon and discharge it.
    But when the water leaves, it has no alter organics. It has 
no metals associated with it. It can be used on ag land or for 
augmentation is what we use it for.
    We're involved in another project, CBM project, where we're 
doing treatment there and that has only sodium as the issue. So 
we remove the sodium to lower the sodium absorption ratio for 
ag land reuse and in that particular case, the Wellington case 
we generate about 150 acre feet per year.
    In the CBM project, we generate about 10,000 acre feet per 
year. So that's the difference. The CBM projects, coal bed 
methane projects, are very high volume but they only last 20 to 
30 years. The oil projects are low volume but they last 
hundreds of years.
    Senator Salazar. Let me ask, Senator Corker, I'm sorry.
    Senator Corker. No, go ahead.
    Senator Salazar. I was going to ask one more question of 
Mr. Purcell on S. 752 relating to the Platte River Recovery 
Program. That's a program that I have been involved with for 
longer than I care to think about and as I see Dan Ludke and 
you, Mr. Purcell and others in the audience, I remember when we 
first held the meeting in Denver back in 1990 or 1991, to get 
that program off the ground.
    What would be the consequence to the program if S. 752 is 
not adopted?
    Mr. Purcell. Mr. Chairman, in essence, without the money, 
you can't do the work. It provides the authorization to access 
$157 million of Federal funds of which we're matching; the 
States are matching, with watered land and of course, dollars.
    But the primary components of the program are acquiring 
additional lands for restoration, acquiring additional water. 
The States are contributing 80,000 acre foot of water per year. 
We'd like another 50 to 70,000 acre foot of water per year.
    Plus, we're involved in what's called a Scientific Adaptive 
Management Program, which is going to judge how the habitat 
reacts to additional water and our other improvements to the 
habitat.
    So, in essence, we have a lot of work to do and the funding 
is required, Mr. Chairman.
    Senator Salazar. So, S. 752 is very essential for the 
program on the South Platte River Recovery Effort to continue 
and to succeed.
    Mr. Purcell. Yes, Mr. Chairman, very much so.
    Senator Salazar. Well, with that I want to thank all of the 
witnesses. The legislation that we've covered in today's 
hearing is set out in the joint staff memoranda of April 25, 
2007. We have no additional questions for the witnesses.
    I want to thank each of you for your willingness to testify 
today and for those of you who traveled to our Nation's capital 
today, I want to thank each of you very much for the 
information of Senators and their staffs and those of you who 
are interested in any of the bills before us today.
    Any questions for the record will be due by the close of 
business tomorrow, and with that, the hour of 3 o'clock having 
come and gone, know that this meeting is adjourned. Thank you 
very much.
    [Whereupon, at 3 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Mr. Glode to Questions From Senator Salazar

    Question 1. If the modified North Platte Decree and Wyoming State 
law, as interpreted by the State Engineer and the Attorney General, 
prohibit Reclamation from placing a call on upstream water users during 
the irrigation season, why is an amendment needed?
    Answer. 1. Neither Formal Opinion No. 2004-001 nor previous Wyoming 
State Engineer opinions prohibit the Bureau of Reclamation from placing 
a call on upstream water users during the irrigation season. Rather, 
they opine that the State Engineer probably would not honor such a 
call, and that refusing to honor a post-May 1 call would be the proper 
course. The 2005 letter from the Wyoming State Engineer that we sent 
with our earlier materials states: ``[I]n my opinion, a Wyoming State 
Engineer cannot say he will never honor a call for regulation for 
Pathfinder Reservoir from May 1 to September 30 in each year.'' See 
September 30, 2005 letter by Patrick T. Tyrrell, p. 4. Although Mr. 
Tyrrell also stated that it would be difficult to conceive of 
circumstances leading to his office honoring such a call, there are no 
guarantees, absent the legislation we have proposed, that such a post-
May 1 call would not be made and honored.
    2. There is no guarantee that the Wyoming Supreme Court, or the 
U.S. Supreme Court, will agree with the conclusions made in Formal 
Opinion No. 2004-001. Even if the State Engineer were to follow the 
Opinion and refuse to honor a post-May 1 call for regulation, he may be 
forced to do so if a judicial challenge is made to that decision.
    3. Mr. Tyrrell serves at the pleasure of the Wyoming Governor. 
Given Governor Freudenthal's recent withdrawal of his previous support 
for legislation limiting the Bureau of Reclamation's ability to place a 
post-May 1 call, there are no guarantees that the current Engineer or 
his successor will not similarly change position concerning whether to 
honor a post-May 1 call.
    4. Throughout the entire Final Environmental Impact Statement 
(``FEIS'') for the Platte River Recovery Implementation Program 
(``PRRIP'') there is no clear indication of where the water for the 
PRRIP would come from. This left some uncertainty about which water 
rights will be limited as a result of the PRRIP. Following the 
Governor's dramatic reversal, it is now crystal clear that Wyoming's 
contribution will be borne by irrigators above Pathfinder Reservoir. 
Indeed, despite the many assurances we have had to the contrary, we 
note that the Modified North Platte Decree contemplates calculating an 
allocation year by including months all the way into July. Modified 
Decree, App. E. Accordingly, despite all the promises, a post-May 1 
call has been contemplated, and only by way of the amendment we seek 
will protection be provided.
    5. The amendment we have endorsed will leave room for compromise 
regarding future implementation of the PRRIP, and can only hasten 
implementation of the program. Without the amendment, the possibilities 
for compromise diminish significantly. We will be forced to challenge 
the PMP and PRRIP by all legal means.
    6. The amendment we suggest is fully consistent with Wyoming law 
and is consistent with the primacy of state water law. Indeed, it is 
the current proposal for the PMP that is not consistent with Wyoming 
law, as it would create a new federal water right, for new 
environmental uses in Nebraska; yet would have a 1904 priority date. 
There is certainly nothing in Wyoming water law that recognize such a 
right. Our proposal would at least mitigate the injury to upstream, 
junior water rights that will be cause by the PRRIP and the PMP.
    7. By way of the amendment, the United States could not place a 
post-May 1 call. In so doing, the Wyoming State Engineer would not have 
to decide whether to honor any call. The United States would be treated 
like any other state water right owner who has agreed to limit a water 
right to prevent injury from a proposed change.
    8. Formal Opinion No 2004-001 only applies to calls from Pathfinder 
Reservoir, and specifically does not apply to the additional storage 
proposed to be created by the Pathfinder Modification Project 
(``PMP''). See Formal Opinion No. 2004-001, p. 2. Pursuant to the 
Nebraska v. Wyoming settlement and the modified North Platte Decree, 
the Bureau of Reclamation cannot call against upstream junior water 
rights with the exception of those stored in Seminoe Reservoir. The 
Formal Opinion does not address the impact of a rebound call when the 
1931 Seminoe water right calls for regulation of upstream rights. When 
calls are made against Seminoe Reservoir due to the Pathfinder 
Reservoir 1904 right, and Seminoe places a subsequent call, the impact 
will be effectively the same as if Pathfinder had made a call against 
all upstream water rights.
    The amendment will provide some measure of relief to the irrigators 
in the Upper North Platte River basin, while at the same time allowing 
the funding mechanisms for the PMP to move forward without significant 
delay.
    Question 2. Isn't it more appropriate to raise this issue before 
the Wyoming Board of Control when Reclamation petitions the Board for a 
change in its storage permit for Pathfinder Reservoir.
    Answer. 1. Only the federal government can agree to the voluntary 
restrictions the Upper North Platte Water Users have suggested by way 
of the proposed amendment to Senate Bill 752.
    2. Action by the federal government in implementing the PMP is a 
matter of federal law, including issues concerning the taking of vested 
property rights. See Tulare Lake Basin Water Storage District v. United 
States, 49 Fed. Cl. 313, 319 (2001). These issues cannot be addressed 
before the Board of Control.
    3. If post-May 1 call protection is provided as an amendment to 
Senate Bill 752, there will be no need to raise the issue before the 
Board of Control. It only makes sense to deal with the issue of post-
May 1 call protection in Congress, which has the ultimate authority for 
United States property and to bind the Bureau of Reclamation.
    4. Congress is also the appropriate body to consider the equities 
involved in the impact of the PMP. As we have previously noted, (1) the 
FEIS shows no correlation between water uses in the Upper North Platte 
River Basin and water shortages in the Nebraska recovery area, and (2) 
the Supreme Court and the Special Master in the Nebraska v. Wyoming 
lawsuit recognized that there is little or no hydrologic connection 
between water use above Pathfinder Reservoir in Wyoming and water 
shortage in the Nebraska recovery area. Yet, the Upper Basin water 
users are asked to bear the brunt of the PMP impacts. This inequity may 
not be given the weight it deserves by the Board of Control. It is up 
to Congress.
    5. The shortcomings of the FEIS are also properly before Congress 
as the Board of Control cannot remedy its deficiencies. As we have 
noted, Appendix F of the final Modified Decree mandates that the Bureau 
of Reclamation cannot proceed with the PMP until it has been 
appropriately considered under the National Environmental Policy Act. 
As the impacts of a post-May 1 call were not even considered in the 
FEIS, such a call cannot be part of the approved PRRIP program.
    6. The North Platte River is already overappropriated. There is 
simply no additional water available for storage in Pathfinder 
Reservoir, and no new water will be created by way of the PMP. In 
addition, the environmental and municipal accounts contemplated for the 
PMP will store water on an equal priority basis with all other users of 
the Reservoir. This becomes an additional demand for the full, 
unrestricted 1.016 million acre-feet of existing storage capacity in 
the Reservoir. Irrigators in the Upper North Platte River basin are 
asked to give up their water rights for both the PRRIP and 
municipalities.
    Congress, and specifically the Water and Power and Power 
Subcommittee, is the appropriate forum to provide the relief necessary 
for the water users in the Upper North Platte River Basin. Amending 
Senate Bill 752 now with the language proposed in our previous comments 
will achieve that very end and lessen the chance for future disputes on 
the PMP implementation.
    We thank you again for the opportunity to comment on Senate Bill 
752, for your questions on the appropriate mechanism to provide post-
May 1 call protection, and for your interest in the Upper North Platte 
River Basin.
                                 ______
                                 
       Responses of Dr. Hirsch to Questions From Senator Salazar

    Question 1. S. 324 (Domenici/Bingaman)--According to your testimony 
on S. 324, USGS is conducting a pilot project on approaches to a 
national assessment of water resources.
    What are you evaluating in the pilot project and how might it apply 
elsewhere to address the need identified in S. 324?
    Answer. The National Water Availability and Use Program--a pilot 
effort that is part of the USGS Ground Water Resources Program line 
item is intended to provide citizens, communities, and natural-resource 
managers with a clearer knowledge of the status of the Nation's water 
resources (how much water we have now), trends over recent decades in 
water availability and use (how water availability is changing), and an 
improved ability to forecast the availability of water for future 
economic and environmental uses. This pilot effort includes a study in 
the Great Lakes Basin and a small effort in the Lower Colorado River 
Basin. The pilot is helping determine the best ways to evaluate the 
resource and how to deliver the information in a manner that is most 
helpful to planners and policymakers working at local, regional, and 
national levels. The program is based on concepts presented in the 
report, Concepts for National Assessment of Water Availability and Use 
(http://water.usgs.gov/pubs/circ/circ1223/), which was produced at the 
request of the House Appropriations Committee. It could be expanded to 
include other major aquifers in the United States.
    Question 2. S. 1116 (Salazar) & H.R. 902--Your testimony notes that 
USGS and Reclamation have sufficient authority to carry-out the 
activities in the produced water bills.
    My question is: Are you actually carrying out any such activities? 
You described USGS's activities with respect to assessing the impact of 
produced water contamination on the landscape. Are you doing anything 
right now to look at cleaning up and using produced water?
    Answer. The USGS has conducted some preliminary compilations of the 
volumes and quality of produced water presently being generated in 
selected areas by oil and gas activities from existing conventional and 
coalbed methane producing wells. The volume is important because it has 
impact on whether the water available justifies the development of an 
infrastructure to use the water. The quality is important because the 
more varied the contaminant types and higher the concentrations, the 
more expensive the cleanup. This information may allow some 
understanding of the availability of produced water in producing areas 
and the costs that may be associated with cleaning up waters for reuse 
in those areas.
    In 2006, the USGS patented a general solar distillation loop 
process that accepts saltwater, wastewater, brine, mine water, etc. 
This low-energy process accelerates distillation of impaired water to 
produce distilled water and hyper-concentrated brine (which is dried 
for disposal). Current research with a local public water agency in San 
Diego County is looking for options for disposal of a high-copper 
discharge from their reverse osmosis stream. The goal of this three-
year project is to treat all discharge leaving the plant, returning the 
solar distillate to the water production plant, and disposing the high-
copper precipitate into a landfill.
    Question 3. In your testimony, you say that USGS and Bureau of 
Reclamation do not have the expertise ``to identify the legal, 
legislative, or administrative obstacles'' to the use of produced 
waters. Which agency or agencies do you believe possess this expertise?
    Answer. The potential legal, legislative, and administrative 
obstacles to using produced waters are many and varied and may include 
such things as water-quality restrictions for proposed uses; land-use 
restrictions; habitat alteration for threatened and endangered species; 
rights-of-way issues for water pipelines; liability issues for harm due 
to improper or incomplete treatment of water to remove contaminants; 
unanticipated or unintended environmental consequences of use and 
resultant liability; and water-rights issues. The States and tribes 
play major roles in the regulation of water supply and quality and thus 
should play a significant role in such an evaluation. This task might 
best be accomplished through involvement of a State-based organization 
such as the Western States Water Council. Also, a consortium of State 
Water Resources Research Institutes may be able to provide such an 
analysis given their interdisciplinary nature, including their 
expertise in legal matters. The presentations and the affiliations of 
the participants in the April 2006 produced water beneficial use 
conference held in Ft. Collins, Colorado, and hosted by the Colorado 
Water Resources Research Institute provides information on the 
interested parties and the extent of the issues of concern. The issues 
raised are primarily regulatory. Neither the USGS nor the Bureau of 
Reclamation is a regulatory agency.
       Responses of Dr. Hirsch to Questions From Senator Domenici

                            REGARDING S. 324

    Dr. Hirsch, New Mexico has limited potable ground water supplies. 
However, it has vast supplies of brackish water. Many communities in 
the state are exploring the possibility of desalinating brackish ground 
water. However, very little is understood about this resource.
    Question 1. What role do you believe the USGS should have in 
characterizing brackish water aquifers in order to more fully 
understand and make use of this resource?
    Answer. The USGS carries out many studies of ground-water systems, 
including fresh and saline resources. Roles of the USGS include (1) 
better definition of the distribution of saline ground-water resources 
and their chemical characteristics; (2) development of methods and 
predictions of the effects of saline-water extraction on the 
environment and connected hydrologic systems; and (3) hydrogeologic and 
chemical studies to support proper disposal of waste products.

    My understanding is that the Interior Department often conducts 
water resource studies, including aquifer characterization. In New 
Mexico, there is very little information available on the size and 
recharge capabilities of the state's aquifers.
    Question 1. If this bill is enacted, what will the Department do to 
characterize these aquifers?
    Answer. The New Mexico Office of the State Engineer has recognized 
40 Underground Water Basins in New Mexico for the purpose of 
administering ground-water resources. In many cases, multiple aquifers 
comprise those administrative ground-water basins. One would first need 
to prioritize these basins/aquifers and evaluate ongoing or recent 
studies to characterize their geologic framework and ground-water 
resources. Depending on the issues and availability of information, 
ground-water assessments for individual systems would require 3 to 6 
years and studies may require drilling, testing, and monitoring of 
observation wells; investigations of ground-water-flow paths, recharge, 
and discharge; and conceptual model testing prior to development of 
ground-water-flow models. These studies would be subject to available 
appropriations.
    Question 2. What do you believe would be an appropriate non-Federal 
cost share for a study of this kind?
    Answer. A minimum 50 percent non-Federal match for any Federal 
resources would seem to be appropriate for the work proposed by the 
bill.
    Question 3. What types of assistance, in addition to what is 
authorized in this bill do you believe USGS could offer the state to 
more fully understand its water resources?
    Answer. The USGS conducts the extensive ground-water and surface-
water data collection and investigations in conjunction with State and 
local partners through the Cooperative Water Program. National programs 
such as the National Streamflow Information Program (NSIP), Ground-
Water Resources Program, and National Water-Quality Assessment (NAWQA) 
Program provide fundamental monitoring data and interpretive analyses. 
USGS technical specialists also actively participate on key work groups 
and committees addressing critical New Mexico water issues. Any 
assistance offered by the USGS would be subject to available 
appropriations.

        Responses of Dr. Hirsch to Questions From Senator Corker

                           REGARDING H.R. 902

    Question 1. If a good solution were developed and demonstrated to 
increase the extent produced water may be used for irrigation and other 
purposes, what is the potential economic value/savings of doing that?
    Answer. We have not done such an analysis.
    Question 2. You state that ``it is not within your purview to 
identify the legal, legislative, and administrative obstacles to 
increasing the extent to which produced water can be used for 
irrigation. Who should conduct this analysis? Should USGS and 
Reclamation still be consulted during the analysis?
    Answer. The USGS and Bureau of Reclamation may be able to provide 
data and interpretation that might be useful to those conducting such 
an analysis. The potential legal, legislative, and administrative 
obstacles to using produced waters are many and varied and may include 
such things as water-quality restrictions for proposed uses; land-use 
restrictions; habitat alteration for threatened and endangered species; 
rights-of-way issues for water pipelines; liability issues for harm due 
to improper or incomplete treatment of water to remove contaminants; 
unanticipated or unintended environmental consequences of use and 
resultant liability; and water-rights issues. The States and tribes 
play major roles in the regulation of water supply and quality and thus 
should play a significant role in such an evaluation. This task might 
best be accomplished through involvement of a State-based organization 
such as the Western States Water Council. Also, a consortium of State 
Water Resources Research Institutes may be able to provide such an 
analysis given their interdisciplinary nature, including their 
expertise in legal matters. The presentations and the affiliations of 
the participants in the April 2006 produced water beneficial use 
conference held in Ft. Collins, Colorado, and hosted by the Colorado 
Water Resources Research Institute provides information on the 
interested parties and the extent of the issues of concern. The issues 
raised are primarily regulatory. Neither the USGS nor the Bureau of 
Reclamation is a regulatory agency.
                                 ______
                                 
       Responses of Mr. Johnson to Questions From Senator Salazar

    S. 175 (Inhofe)--It's my understanding that Reclamation completed 
an Appraisal Report on Central Oklahoma water supply alternatives in 
August 2005.
    Question 1. Isn't the Appraisal Report the prerequisite for moving 
forward with a Feasibility Study? Why is a plan of study now needed, 
and how long will it take to develop?
    Answer. Yes, an Appraisal Report is a prerequisite for the 
Feasibility Study, If a Feasibility Study is warranted, Reclamation 
normally initiates a draft Plan of Study as part of an Appraisal 
Report. The circumstances of finalizing the Appraisal Report did not 
allow Reclamation to include the draft Plan of Study, so the Plan of 
Study was initiated after completion of the Appraisal Report. The 
purpose of the Plan of Study is to develop specific scopes of work and 
cost estimates associated with performing a Feasibility Study. This 
provides the basis for which draft cost-sharing agreements can be 
developed and facilitates implementation of a Feasibility Study when or 
if Congress provides the necessary authorization. The draft Plan of 
Study is complete.
    S. 542 Craig--Your testimony refers to a Boise/Payette Water 
Storage Assessment Report that was completed in July 2006, and 
indicates that the Report is the foundation for future feasibility 
studies to address water shortages in Idaho.
    Question 2. What is the range of alternatives identified in the 
Assessment Report? Are those alternatives limited to surface water 
storage options? If so, what types of issues do you anticipate 
evaluating in the feasibility studies?
    Answer. The Boise/Payette Assessment Study only looked at surface 
water storage options it as acknowledged in the process that a 
comprehensive water supply program would be necessary in the Boise 
basin to meet future water needs. This may include water conservation 
and other water management measures. The Assessment Study identified 
``areas oil opportunity'' that showed high hydrology potential with 
relatively low social/environmental impacts. However, alternatives have 
not yet been formulated. Evaluation of physical site constraints and 
formulation of alternatives will be developed at the Appraisal or 
Feasibility study level.
    A Feasibility level study will identify and evaluate social, 
environmental, and economic issues specific to each site in accordance 
with NEPA and the ``Principles and Guidelines'' for the evaluation of 
potential water development projects. Some of the areas of opportunity 
identified in the Assessment Study were within ESA listed hull trout 
migration corridors. As such, passage and mitigation issues would 
likely be significant at those sites. Other areas may also have 
significant benefits, such as enhanced flood control along the Boise 
River. Alternatives will also be evaluated in terms of their potential 
to affect flow augmentation for Columbia River ESA listed salmon.
    S. 752 (Nelson/Salazar . . .)--You note in your statement that S. 
752 will help ensure compliance with the Endangered Species Act (ESA) 
and the protection of existing and future water uses.
    Question 3. Can you explain a little more the basis for that 
statement? If the Platte River Recovers Program were not implemented, 
with its habitat restoration goals and consensus-based process to 
acquire water for ESA needs, what would be the implications for 
Colorado, Wyoming, and Nebraska?
    Answer. A collaborative, basin-wide approach to resolving the 
endangered species issues is the best way to ensure that the current 
water use can continue and new uses can proceed in compliance with the 
ESA while providing for the needs of the species. Trying to address ESA 
requirements separately for each of the hundreds of Federal and private 
water projects in the Platte Basin would be vastly more expensive, 
provide less certainty for water users, and be less effective for the 
species.
    A collaborative effort among the States and water users in the 
basin allows for a more equitable distribution of effort than might 
occur under individual project ESA consultations. Without a cooperative 
approach and coordination between the States' administrations of water, 
many projects will literally compete for both land and water to improve 
habitat in order to meet their ESA obligations, Past experience has 
demonstrated that the likelihood of litigation between water users and 
between the States would also increase without a cooperative effort.
    S. 752--Based on the testimony to be given on the 2 panel, there 
appears to be disagreement on whether the Pathfinder Modification 
Project will impact the water rights of the Upper North Platte Valley 
Water Users in Wyoming. Specifically, there is concern that an expanded 
Pathfinder Reservoir will either (1) place priority calls on the Upper 
North Platte Water Users during the irrigation season, or (2) place 
priority calls on Seminoe Reservoir, which through a domino effect will 
result in calls being placed on the Upper North Platte folks.
    Question 4. Reclamation is supporting the Pathfinder Modification 
Project. Have you analyzed the situation? If so, are there risks to the 
water supply of the Upper North Platte water users? Would Reclamation 
support an amendment that limits its right to place a priority call for 
the Pathfinder Modification Project?
    Answer. Reclamation does not take formal positions on potential 
amendments. However, an amendment of this nature could: 1) greatly 
diminish Reclamation's entire 1,070,000 AF of 1904 senior water right 
by limiting the ability of Reclamation to request priority 
administration to adequately protect the water supply for Reclamation 
contractors in Wyoming and Nebraska; 2) potentially affect the 
apportionment of North Platte River between Wyoming and Nebraska as set 
forth in the North Platte decree; and 3) set a precedent of federally 
legislating State water law.
    We believe that the program under the legislation as currently 
written and the 2001 Amended Stipulation to the North Platte Decree 
between the States and the Federal Government provides for protection 
of water rights through a state water law process. We are not likely to 
support amendments that undermine the water rights of Reclamation's 
project beneficiaries downstream of Pathfinder Dam.
    Question 5. Would the amendment proposed by the Upper North Platte 
Valley Water Users Association be contrary to the amended stipulation 
between the State of Nebraska, the State of Wyoming, and the State of 
Colorado entered in 2001 by the Supreme Court or contrary to Wyoming 
State water law?
    Answer. Yes, the potential amendment is contrary to the Amended 
Stipulation because it addresses the entire Reclamation Pathfinder 1904 
water right of 1,070,000 AF rather than the Pathfinder Modification 
which recovers 54,000 AF of storage. Limiting the water right with 
regard to the Pathfinder modification (54,000 An has been addressed in 
the 2001 Amended Stipulation between the States and the Federal 
Government. Appendix F of the stipulation with regard to the 54,000 AF 
of storage space states ``. . . the recaptured storage space could not 
place regulatory calls on existing water rights upstream of Pathfinder 
Reservoir other than the rights pertaining to Seminoe Reservoir.''
    Question 6. What is the nature of the 54,000 acre feet of storage 
space that would be gained by the Pathfinder Modification proposal? 
Does this reclaimed storage space constitute a new water right or an 
existing water right that dates back to the original 1904 water right 
associated with Pathfinder Reservoir?
    Answer. The Pathfinder modification project would restore 54,000 AF 
of storage space lost to sediment in Pathfinder reservoir. The 
recaptured storage space would store water in the Reclamation's 
existing 1,070,000 AF 1904 storage right for Pathfinder reservoir to be 
administered per the 2001 Amended Stipulation as agreed to by the 
States and the Federal Government. Thus, it would be part of the 
existing water right.
    S. 1037 (Smith/Wyden)--Your statement on S. 1037 is a little 
confusing. First, you express concern that the Tumalo Irrigation 
District is not associated with a Reclamation project, and that the 
Department is concerned that funding a non-Reclamation project would 
adversely impact Reclamation's core projects. You then state that the 
Tumalo water conservation project may be ideally suited for 
Reclamation's Water 2025 Program.
    Question 7. Is Water 2025 siphoning off funds from Reclamation's 
core projects? If not, what benefits is Water 2025 producing with 
respect to existing Reclamation projects? From Reclamation's 
perspective, will the Tumalo Irrigation District water conservation 
project advance any federal interest?
    Answer. The President's FY 2008 budget request funds the Water 2025 
Program to achieve the overarching goal of preventing crises and 
conflict over water before they occur, especially in the areas of the 
west where we can predict problems. The FY 2008 proposal for Water 2025 
represents a balance of getting ahead of crises while not detracting 
from the needs of Reclamation projects. Water 2025 uses a competitive 
process to award grants focused on stretching existing supplies through 
innovation, technology and market based solutions. In evaluating 
applications for grants, one of the ranking criteria used is whether 
the request involves a Reclamation. project. However, this is not the 
sole criteria. Consideration is also given to factors such as benefits 
to ESA listed species and the accomplishment of other federal 
interests. The proposed Tumalo Irrigation District Water Conservation 
Project appears to be a candidate for a Water 2025 grant because it 
would help restore instream flows to the middle Deschutes River, 
benefiting downstream ESA-listed fish. However, it would he subject to 
the program's competitive evaluation criteria and funding levels.
    S. 1112 (Feinstein & H.R. 235--While you are not supporting H.R. 
235, it sounds as though you could with some modifications to its text.
    Question 8. Can you provide for the record, legislative language 
that would implement your suggestions on the deferment legislation?
    Answer. The Department and Reclamation recognize that a firm and 
reliable water supply is likely necessary for a. complete solution to 
the District's current financial dilemma related to repayment of these 
two loans. Such legislation should include a date certain for repayment 
of Reclamation loans to begin or to be completed. Extending out the 
payment dates and not charging interest until repayment begins serves 
to devalue the loan.

       Responses of Mr. Johnson to Questions From Senator Corker

                            REGARDING S. 175

    Question 9. Commissioner Johnson, in your testimony regarding S. 
175, you state that the one-year time frame for the study authorized in 
the bill is ``insufficient for a thorough evaluation of alternatives.'' 
What would be a sufficient time frame?
    Answer. Three years would be sufficient to complete a thorough 
investigation of the alternatives.
    Question 10. If the time were lengthened, would the Administration 
consider supporting the bill, or are there other concerns that would 
need to be addressed in order to gain that support?
    Answer. In addition to an insufficient time frame, the department 
believes that $300,000 would not be sufficient to meet the Federal cost 
share of 50 percent. The Federal cost of the study is now estimated at 
$850,000 (federal share only) based on results of the draft Plan of 
Study for meeting the future water demands of the cities currently 
served by the Central Oklahoma Master Conservancy District. The 
Administration's support of the bill would be determined at the time 
when the bill is introduced and reviewed in its entirety. However, this 
project is not in BOR's budget and will have to compete with other 
funding priorities.
    Since the April 25 Subcommittee hearing, S. 175 has been reported 
from Committee with amendment on 5/23/07. The legislation now specifies 
a three-year window to conduct the specified study. The bill authorizes 
an appropriation of $900,000. It also specifies that Federal costs may 
not exceed 50 percent of the study's total cost. The legislation allows 
DOI to accept in-kind services to count toward the non-Federal portion 
of the project's costs.

                           REGARDING S. 1037

    Question 11. You have stated that the Department does not support 
S. 1037 and that the Tumalo Irrigation District and the facilities in 
question are not part of a Reclamation project. Has Reclamation worked 
on any project like this in the past or a project that Reclamation 
would have originally considered non Reclamation?
    Answer. Reclamation has been directed by Congress in the past to 
work on non-Reclamation projects. However, limited budgets require 
Reclamation to focus Federal funding on existing Reclamation programs 
and on the significant water management challenges facing existing 
Reclamation projects and irrigation districts. The Water 2025 program 
also allows Reclamation to assist in funding non-Reclamation projects 
on a competitive basis. A recent example is the collaborative 
conservation project involving Tumalo and Swaney Irrigation districts, 
both non-Reclamation projects.
                                 ______
                                 
       Responses of Mr. Purcell to Questions From Senator Salazar

    Question 1. S. 752 (Mike Purcell--Wyoming Water Development 
Commission)--Your testimony indicates that negotiations on the Platte 
River program took 14 years to complete.
    How was ESA compliance and ongoing water use maintained during that 
time? Will this legislation add more stability and certainty to the 
situation?
    Answer. During the negotiations, the U.S. Fish and Wildlife Service 
(USFWS) was completing interim consultations, whereby the water users 
were required to provide offsetting measures. If the water users were 
seeking federal clearances for new water related activities that would 
deplete 25 acre feet or more, the offsetting measures were to replace 
the new depletions and provide funding for habitat. If the water users 
were seeking federal clearances for existing water related activities, 
the offsetting measures were annual depletion fees. The annual average 
depletions resulting from the existing water related activities were 
applied to formulas which determined the total annual fees required for 
each project. The formulas were based on achieving 417,000 acre feet of 
water per year and 29,000 acres of habitat. The fees were provided to 
the National Fish and Wildlife Foundation and were used to acquire land 
and water.
    The interim consultations documented that if there was no Platte 
River Recovery Implementation Program (Program), the water users would 
be required to re-consult with the USFWS. The likely result of these 
re-consultations would be that all of the water users would be required 
to replace depletions and provide funds for habitat until the USFWS 
achieved 417,000 acre feet of water per year and 29,000 acres of 
habitat, rather than the 150,000 acre feet of water per year and 10,000 
acres of habitat to be provided under the Program.
    The Program will serve as the reasonable and prudent alternative 
for specified new water related activities and all existing water 
related activities. Those water users whose activities are covered by 
the Program will not be required to provide water and pay the annual 
depletion fees and will not be subjected to complex and often 
contentious consultations. There will be an abbreviated consultation 
process in which the states will be involved through their respective 
depletions plans. The purpose of this long-winded response is to assure 
that the legislation will certainly add stability and certainty for the 
states and their water users.
    Question 2. S. 752 (Mike Purcell)--Your testimony seems to indicate 
that the amendment proposed by the Upper North Platte Water Users is 
unnecessary because the Bureau of Reclamation is precluded from the 
placing an upstream call by the modified North Platte Decree and 
Wyoming state law.
    Is my description of your testimony correct?
    Answer. The modified North Platte Decree does not preclude the 
Bureau of Reclamation from placing an upstream call for water rights 
administration for the benefit of Pathfinder Reservoir. In an effort to 
address concerns expressed by Mr. Glode and the Upper North Platte 
Water Users, Wyoming Governor Dave Freudenthal requested the Wyoming 
Attorney General to address this matter. The Wyoming Attorney General 
issued an opinion that the Wyoming State Engineer should not legally 
recognize such a call by the Bureau. The opinion was based on the 
Attorney General's review of the modified North Platte Decree and 
Wyoming water law.
    Question 2a. Mr. Glode's testimony, though, cites a letter from 
Governor Freudenthal that requests the Wyoming delegation to impose a 
legal restriction on Reclamation's ability to place an upstream call. 
Do the Wyoming Water Development Commission and other proponents of the 
Program oppose the amendment? If so, what's the basis for the 
objection?
    Answer. Attached is copy of a letter, dated May 4, 2007, from Dave 
Freudenthal, Governor of Wyoming, to the Wyoming delegation. This 
letter explains the Governor's letter of March 15, 2005 to the Wyoming 
delegation and clarifies the state's position related to the proposed 
amendment. In his closing, Governor Freudenthal states:

          Frankly, I am perplexed by the apparent strategy of some to 
        leverage the passage of the proposed Act to provide the 
        assurances that were being sought in 2005. In my view, the 
        proposed Act should stand apart from the requested assurances 
        and the two should not be intertwined--as to do otherwise would 
        compromise not only this important legislation, but also our 
        working relationship with Colorado, Nebraska, the Bureau of 
        Reclamation and other Wyoming water users in the Platte River 
        basin.
          I am hopeful that S. 752 and H.R. 1462 can be passed in their 
        original form.
                                 ______
                                 
       Responses of Dr. Stewart to Questions From Senator Salazar

    Question 1. S. 1116 & H.R. 902--Based on your experience, what are 
the capital investment costs at a typical oil production site that 
would have to be made to treat produced waters so they can be used 
safely?
    Answer. Typically, the cost of a plant for produced water would 
vary between $1,000,000 to $5,000,000
    Question 2. S. 1116 & H.R. 902--One of the components of S. 1116 
would look at ways to reduce the amount of produced waters that are 
generated at an oil production site.
    In your professional opinion, can you estimate by what percentage 
the produced waters can be reduced, and briefly describe how this is 
done?
    Answer. One way to reduce produced water is to provide the water/
oil separation within the well. However, this does not always work
    Question 3. S. 1116 & H.R. 902--Your testimony talks about a 
project coming online near Wellington, Colorado. I assume that the 
produced water will be available as long as the oil and gas production 
is taking place.
    How long do you expect that water will be available from this 
project? Are we talking about a long-term supply in most cases?
    Answer. We anticipate the produced water will be available for 
approximately 300 to 500 years. This would be typical for an oil well. 
Regarding the Coal Bed Methane produced water, we anticipate that these 
wells will last approximately 20 to 50 years.
                                 ______
                                 
       Response of Mr. Tibbetts to Question From Senator Salazar

    Question. S. 1112 & H.R. 235--It seems clear that a firm water 
supply is the foundation for Redwood Valley to establish a water system 
and a rate base that will help solve its financial problems.
    Has the District done a sufficient analysis of its alternatives to 
warrant the conclusion that it is feasible to implement a project that 
will provide a revenue stream adequate to repay new loans and its 
outstanding obligation to the Bureau of Reclamation?
    Answer. Yes it has. First, the existing plant has the capacity to 
increase water deliveries to new revenue generating domestic hook-ups 
which have been embargoed since the 1989 court decision. Second, since 
1990 the District has looked at several options which it believes would 
judicially qualify as a firm water supply source.
    One option is the claiming an abandoned water right in its 
vicinity. This option is referred to as the Mill Creek Project. The 
District has analyzed its capacity at 3200 AF which is more than 
sufficient for the District needs. The District has done preliminary 
engineering and design work. It has conducted preliminary fish studies, 
identified water flows and has identified necessary water storage site 
locations. The District has a pending water rights application on file 
with the California State Water Board. The preliminary estimated cost 
for the project is about $10,000,000.
    The State Water Board will require that Redwood Valley conduct 
environmental review on the proposed project. These reviews generally 
take about one year. In California the environmental review process is 
costly. The District is prepared to take that step when its current 
loan obligations to the federal government are deferred as provided for 
in S. 1112 and H.R. 235.
    The second option is similar to the one above in that it diverts 
water during high wintertime flows and stores it for summertime use. 
This option known as the West Fork Project would provide for 8,000 AF 
of water.
    Preliminary work by the District includes identifying water 
diversion points, a flow study, and looking at potential storage sites. 
This project has on file with the California State Water Board a water 
rights application. As in the above option the California State Water 
Board would require environmental review. The estimated cost of this 
project is also about $10,000.000.
    The third project is a much larger undertaking and as such would 
require the participation of the Mendocino County Water Agency and 
other smaller water districts in the county including Redwood Valley. 
This project is known as the Eel River Diversion Project. On April 24, 
2007, the Mendocino County Board of Supervisors voted to initiate a 
feasibility study in conjunction with other interested water districts 
on this project.
    The project is located in the Eel River Watershed area in northern 
Mendocino County. The project would divert Eel River water during 
wintertime high flows, sending water south to the Ukiah Valley and 
Redwood Valley areas. Redwood Valley has a water rights application on 
this project pending before the California State Water Board. The 
application would need to be amended to include the participating 
consortium of users. This project is roughly estimated to carry a big 
price tag of over $100,000,000. This project is presently in the early 
stages of analyses. Because it may include others in need of water, it 
has the potential to move fairly quickly in the study stage.
    Fourth, in 1990 Redwood Valley undertook a preliminary analysis of 
locating storage sites which could hold between 2000 AF and 3000 AF of 
water for summer release. In 1990 these sites ranged in cost between $5 
and $7 million dollars. Any selected storage site would require 
environmental review. The dollar amount would need to be upwardly 
adjusted by approximately 50%. The engineering analysis shows that the 
identification of a preferred site and construction is feasible.
    Finally, in 2006 Redwood Valley entered into a Memorandum of 
Understanding (MOU) with five other water agencies in the valley area 
to explore the possibilities of identifying and constructing joint use 
storage sites. A new study is presently underway.
    Redwood Valley is and will continue to engage other area water 
agencies and districts for the purposes of seeking partnerships where 
such collaboration would facilitate the acquisition of a firm water 
supply source.
    Once the court imposed moratorium on revenue producing domestic 
hook-ups is lifted the District could sustain a payment schedule 
similar to that which would be necessary to pay its existing federal 
loans. However, the District cannot simultaneously pay off the existing 
loan obligations and new capital debt obligations. Following the 
retirement of new debt necessary to create and construct a firm water 
supply, the District could then repay its present outstanding loan 
obligations to the federal government.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                    City of Aurora,
                       Utilities Department Administration,
                                        Aurora, CO, April 20, 2007.
Hon. Tim Johnson, Chairman,
Hon. Robert Corker, Ranking Member,
Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Johnson and Senator Corker: We are writing you today 
to request your support for S. 752, to authorize the Secretary a the 
Interior to participate in the implementation of the Platte River 
Recovery Implementation Program (``Program'') for Endangered Species in 
the Central and Lower Platte River basin and to modify the Pathfinder 
Dam and Reservoir.
    The States of Nebraska, Wyoming and Colorado and the U.S. 
Department of the Interior have entered into a comprehensive basin-wide 
Program to address habitat needs of endangered and threatened species 
in the Central and Lower Platte River basin. This cooperative basin-
wide approach is an equitable and effective means to resolve conflicts 
and provide greater certainty that the Platte River will continue as a 
reliable water source for the many people who reside and use water in 
the basin as well as wildlife. The proposed Program will allow water 
use and development activities in each of the three states to continue 
in compliance with the Endangered Species Act (``ESA.'').
    For Colorado, the Program will provide regulatory compliance under 
the ESA for both existing and prospective new water uses within the 
South Platte River basin. This compliance is needed for water providers 
to meet the water supply needs of the urban, agricultural and 
industrial sectors of this rapidly changing and growing part of the 
state.
    Additionally, we request sour support and assistance in ensuring 
federal funding for the Platte River Recovery Implementation Program. 
This cooperative Program has the objective of recovering three species 
of threatened or endangered birds and one endangered fish while 
allowing water use to continue and water development to proceed in 
compliance with the ESA. We respectfully request support and assistance 
by the Subcommittee to fund this vitally important Program.
            Sincerely,
                                     Peter D. Binney, P.E.,
                                            Director, Aurora Water.
                                 ______
                                 
                                              Denver Water,
                                        Denver, CO, April 20, 2007.
Hon. Tim Johnson, Chairman,
Hon. Robert Corker, Ranking Member,
Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Johnson and Senator Corker: I am requesting your 
support for S. 752, to authorize the Secretary of the Interior to 
participate in the implementation of the Platte River Recovery 
Implementation Program (Program) for Endangered Species in the Central 
and Lower Platte River basin and to modify the Pathfinder Dam and 
Reservoir.
    The States of Nebraska, Wyoming, and Colorado and the U.S. 
Department of the Interior have entered into a comprehensive basin-wide 
Program to address habitat needs of endangered and threatened species 
in the Central and Lower Platte River basin. This cooperative basin-
wide approach is an equitable and effective means to resolve conflicts 
and provide greater certainty that the Platte River will continue as a 
reliable water source for both wildlife and the many people who reside 
and use water in the basin. The proposed Program will allow water use 
and development activities in each of the three states to continue, in 
compliance with the Endangered Species Act (ESA).
    For Colorado, the Program will provide regulatory compliance under 
the ESA for both existing and prospective new water uses within the 
South Platte River basin. This compliance is needed for water providers 
to meet the water supply needs of the urban, agricultural, and 
industrial sectors of this rapidly changing and growing part of the 
state.
    Additionally, we request your support and assistance in ensuring 
federal funding for the Platte River Recovery Implementation Program. 
This cooperative Program has the objective of recovering three species 
of threatened or endangered birds and one endangered fish while 
allowing water use to continue and water development to proceed in 
compliance with the ESA.
    We respectfully request support and assistance by the Subcommittee 
to fund this vitally important Program.
            Sincerely,
                                                  HJ Barry,
                                                           Manager.
                                 ______
                                 
                                  City of Lakewood,
                                   Public Works Department,
                                      Lakewood, CO, April 20, 2007.
Hon. Tim Johnson, Chairman,
Hon. Robert Corker, Ranking Member,
Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Johnson and Senator Corker: I am requesting your 
support for S. 752, to authorize the Secretary of the Interior to 
participate in the implementation of the Platte River Recovery 
Implementation Program (Program) for Endangered Species in the Central 
and Lower Platte River basin and to modify the Pathfinder Dam and 
Reservoir.
    The States of Nebraska, Wyoming, and Colorado and the U. S. 
Department of the Interior have entered into a comprehensive basin-wide 
Program to address habitat needs of endangered and threatened species 
in the Central and Lower Platte River basin. This cooperative basin-
wide approach is an equitable and effective means to resolve conflicts 
and provide greater certainty that the Platte River will continue as a 
reliable water source for both wildlife and the many people who reside 
and use water in the basin. The proposed Program will allow water use 
and development activities in each of the three states to continue, in 
compliance with the Endangered Species Act (ESA).
    For Colorado, the Program will provide regulatory compliance under 
the ESA for both existing and prospective new water uses within the 
South Platte River basin. This compliance is needed for water providers 
to meet the water supply needs of the urban, agricultural, and 
industrial sectors of this rapidly changing and growing part of the 
state.
    Additionally, we request your support and assistance in ensuring 
federal funding for the Platte River Recovery Implementation Program. 
This cooperative Program has the objective of recovering three species 
of threatened or endangered birds and one endangered fish while 
allowing water use to continue and water development to proceed in 
compliance with the ESA. We respectfully request support and assistance 
by the Subcommittee to fund this vitally important Program.
            Sincerely,
                                       Richard J. Plastino,
                                          Director of Public Works.
                                 ______
                                 
                                  City of Loveland,
                             Department of Water and Power,
                                      Loveland, CO, April 20, 2007.
Hon. Tim Johnson, Chairman,
Hon. Robert Corker, Ranking Member,
Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Johnson and Senator Corker: I am requesting your 
support for S. 752, to authorize the Secretary of the Interior to 
participate in the implementation of the Platte River Recovery 
Implementation Program (Program) for Endangered Species in the Central 
and Lower Platte River basin and to modify the Pathfinder Dam and 
Reservoir.
    The States of Nebraska, Wyoming, and Colorado and the U. S. 
Department of the Interior have entered into a comprehensive basin-wide 
Program to address habitat needs of endangered and threatened species 
in the Central and Lower Platte River basin. This cooperative basin-
wide approach is an equitable and effective means to resolve conflicts 
and provide greater certainty that the Platte River will continue as a 
reliable water source for both wildlife and the many people who reside 
and use water in the basin. The proposed Program will allow water use 
and development activities in each of the three states to continue, in 
compliance with the Endangered Species Act (ESA).
    For Colorado, the Program will provide regulatory compliance under 
the ESA for both existing and prospective new water uses within the 
South Platte River basin. This compliance is needed for water providers 
to meet the water supply needs of the urban, agricultural, and 
industrial sectors of this rapidly changing and growing part of the 
state.
    Additionally, we request your support and assistance in ensuring 
federal funding for the Platte River Recovery Implementation Program. 
This cooperative Program has the objective of recovering three species 
of threatened or endangered birds and one endangered fish while 
allowing water use to continue and water development to proceed in 
compliance with the ESA. We respectfully request support and assistance 
by the Subcommittee to fund this vitally important Program.
            Sincerely,
                                            Ralph Mullinix,
                                                          Director.
                                 ______
                                 
                            Nebraska Public Power District,
                                      Columbus, NE, April 20, 2007.
U.S. Senate,
Committee on Energy and Natural Resources, Washington, DC.
Subject: S. 752

    Dear Honorable Committee Members: My name is Brian Barels and I am 
the Water Resources Manager for Nebraska Public Power District (NPPD). 
On behalf of NPPD I would like to offer NPPD's support for S. 752 to 
authorize the Secretary of Interior to participate in implementation of 
the Platte River Recovery Implementation Program (Program) for 
endangered and threatened species in the central and lower Platte River 
Basins in Nebraska.
    NPPD provides approximately one-half of the electricity consumed in 
Nebraska. NPPD's customers received a substantial amount of electricity 
from generating facilities associated with water resources along the 
Platte River Basin. NPPD has been directly involved in monitoring and 
providing habitat for endangered and threatened species along the 
Platte River for many years. In addition, NPPD, as part of the 
relicensing of our Platte River hydroelectric project, has committed 
habitat, water, and monitoring resources that have been integrated into 
this Program and we have actually been implementing those activities 
with the intention to jump-start this Program and provide benefits to 
the species.
    NPPD has been directly involved in the process that has led to the 
development of this program since its inception by the governors of the 
three states and the Secretary of Interior in 1993. NPPD believes this 
program provides for a collaborative effort by three states, water 
users, environmental interests, and two federal agencies to provide for 
monitoring and habitat enhancement for endangered and threatened 
species in the central Platte River Basin.
    In summary, NPPD urges your support of S. 752 which will authorize 
the Secretary of Interior to participate in this collaborative Program 
for endangered and threatened species.
    If you should have any questions, I can be reached at 402-563-5335.
            Sincerely,
                                           Brian L. Barels,
                                           Water Resources Manager.
                                 ______
                                 
                                 South Adams County
                               Water & Sanitation District,
                                                    April 20, 2007.
Hon. Tim Johnson, Chairman,
Hon. Robert Corker, Ranking Member,
Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Johnson and Senator Corker: I am requesting your 
support for S. 752, to authorize the Secretary of the Interior to 
participate in the implementation of the Platte River Recovery 
Implementation Program (Program) for Endangered Species in the Central 
and Lower Platte River basin and to modify the Pathfinder Dam and 
Reservoir.
    The States of Nebraska, Wyoming, and Colorado and the U. S. 
Department of the Interior have entered into a comprehensive basin-wide 
Program to address habitat needs of endangered and threatened species 
in the Central and Lower Platte River basin. This cooperative basin-
wide approach is an equitable and effective means to resolve conflicts 
and provide greater certainty that the Platte River will continue as a 
reliable water source for both wildlife and the many people who reside 
and use water in the basin. The proposed Program will allow water use 
and development activities in each of the three states to continue, in 
compliance with the Endangered Species Act (ESA).
    For Colorado, the Program will provide regulatory compliance under 
the ESA for both existing and prospective new water uses within the 
South Platte River basin. This compliance is needed for water providers 
to meet the water supply needs of the urban, agricultural, and 
industrial sectors of this rapidly changing and growing part of the 
state. South Adams County Water and Sanitation District (District) is a 
municipal water supply provider in the northeastern Denver metro area 
and is experiencing rapid growth. The Program will provide significant 
benefit to the District in meeting the needs of its members.
    Additionally, we request your support and assistance in ensuring 
federal funding for the Platte River Recovery Implementation Program. 
This cooperative Program has the objective of recovering three species 
of threatened or endangered birds and one endangered fish while 
allowing water use to continue and water development to proceed in 
compliance with the ESA. We respectfully request support and assistance 
by the Subcommittee to fund this vitally important Program.
            Sincerely,
                                Curt W. Bauers, P.E., P.G.,
                                             Water Systems Manager.
                                 ______
                                 
              Northern Colorado Water Conservancy District,
                                      Berthoud, CO, April 20, 2007.
Hon. Tim Johnson, Chairman,
Hon. Robert Corker, Ranking Member,
Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Johnson and Senator Corker: On behalf of the Northern 
Colorado Water Conservancy District, I am requesting your support for 
007-752 to authorize the Secretary of the Interior to participate in 
and contribute funding toward the Platte River Recovery implementation 
Program for Threatened and Endangered Species in the Central and Lower 
Platte River basin, and to modify the Pathfinder Dam and Reservoir.
    The States of Nebraska, Wyoming, and Colorado and the U.S. 
Department of the Interior have entered into a comprehensive basin-wide 
Program to address habitat needs of endangered and threatened species 
in the Central and Lower Platte River basin. The Program is a 
cooperative, basin-wide solution created to resolve escalating 
conflicts between water use and endangered species protection that 
affect federal permitting of both existing and planned irrigation and 
municipal water supply projects in the Platte River basin, and more 
specifically in Colorado's South Platte River basin. Resolution of 
these conflicts is of state interest and important to all who live and 
work along Colorado's rapidly growing Front Range.
    For Colorado, the Program will provide regulatory compliance under 
the Endangered Species Act for both existing and prospective new water 
uses within the South Platte River basin. This compliance is needed for 
water providers to meet the water supply needs of the urban, 
agricultural, and industrial sectors of this rapidly changing and 
growing part of the state. This cooperative Program also preserves and 
enhances habitat that is critical for the continued survival of three 
species of threatened or endangered birds and one endangered fish. We 
respectfully request support and assistance by the Subcommittee to fund 
this vitally important Program.
            Sincerely,
                                          Alan D. Berryman,
                                         Assistant General Manager.
                                 ______
                                 
              Northern Colorado Water Conservancy District,
                                      Berthoud, CO, April 20, 2007.
Hon. Tim Johnson, Chairman,
Hon. Robert Corker, Ranking Member,
Water and Power Subcommittee, Committee on Energy and Natural 
        Resources, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Johnson and Senator Corker: On behalf of the Northern 
Colorado Water Conservancy District (Northern Water), I am requesting 
your support for S. 752, to authorize the Secretary of the Interior to 
participate in the implementation of the Platte River Recovery 
Implementation Program (Program) for Endangered Species in the Central 
and Lower Platte River basin and to modify the Pathfinder Dam and 
Reservoir.
    The states of Nebraska, Wyoming, and Colorado and the U.S. 
Department of the Interior have entered into the comprehensive basin-
wide Program to address habitat needs of endangered and threatened 
species in the Central and Lower Platte River basin. This cooperative 
basin-wide approach is an equitable and effective means of resolving 
conflicts and providing greater certainty that the Platte River will 
continue as a reliable water source for both wildlife and the many 
people who reside and beneficially use water within the basin. The 
proposed Program will allow water use and development activities in 
each of the three states to continue in compliance with the Endangered 
Species Act (ESA).
    For Colorado, the Program will provide regulatory compliance under 
the ESA for both existing and future water uses within the South Platte 
River Basin. This compliance is needed for water providers to meet the 
water supply needs of the urban, agricultural, and industrial sectors 
of this rapidly changing and growing part of Colorado.
    Northern Water requests your support and assistance in ensuring 
federal funding for the Platte River Recovery Implementation Program. 
This cooperative Program has the objective of recovering three species 
of threatened or endangered birds and one endangered fish, while 
allowing water use to continue and water development to proceed in 
compliance with the ESA.
    We respectfully request support and assistance by the Subcommittee 
to fund this vitally important Program.
            Sincerely,
                                         Eric W. Wilkinson,
                                                   General Manager.
                                 ______
                                 
                              The State of Wyoming,
                                    Office of the Governor,
                                         Cheyenne, WY, May 4, 2007.
Hon. Craig Thomas,
U.S. Senate, Dirksen Senate Office Building, Washington, DC.
Hon. Michael B. Enzi,
U.S. Senate, Russell Senate Office Building, Washington, DC.
Hon. Barbara Cubin,
U.S. House of Representatives, Longworth House Office Building, 
        Washington, DC.
    Dear Senator Thomas, Senator Enzi and Representative Cubin: During 
the recent hearing held before the Senate Subcommittee on Water and 
Power on S. 752, the Platte River Recovery Implementation Program and 
Pathfinder Modification Project Authorization Act (proposed Act), there 
was discussion regarding the State of Wyoming's position as it relates 
to an amendment being circulated on behalf of the Upper North Platte 
Water Users. The amendment proposes a restriction on the Bureau of 
Reclamation's ability to place a priority call for Pathfinder 
Reservoir, including the proposed Pathfinder Modification Project, 
between May 1st and September 30th in any year.
    In terms of the history of this issue, on March 15, 2005, I wrote 
each of you a letter noting my support for the Platte River Recovery 
Implementation Program and the Pathfinder Modification Project, 
advising that the Town of Saratoga filed a petition for the abandonment 
of the storage space needed for the Pathfinder Modification Project, 
and offering that the Town, through the Upper North Platte Water Users, 
had suggested that they would withdraw their petition if they could be 
guaranteed that the Bureau of Reclamation would not request a call for 
Pathfinder Reservoir between May 1st and September 30th. The Wyoming 
Attorney General had issued an opinion which indicated that the Wyoming 
State Engineer should not legally recognize such a call by the Bureau. 
While this opinion provided some comfort to the Upper Platte users, 
they were interested in assurances that the Bureau would recognize 
Wyoming law. Therefore, I sought assistance from the Wyoming Delegation 
in obtaining the requested guarantee through congressional action. 
Today, it unfortunately seems that my now two year old letter, written 
wholly outside the context of the proposed Act, may derail federal 
legislation that is critical to the long term viability, predictability 
and sustainability of water use in Wyoming.
    Frankly, I am perplexed by the apparent strategy of some to 
leverage the passage of the proposed Act to provide the assurances that 
were being sought in 2005. In my view, the proposed Act should stand 
apart from the requested assurances and the two should not be 
intertwined--as to do otherwise would compromise not only this 
important legislation, but also our working relationship with Colorado, 
Nebraska, the Bureau of Reclamation and other Wyoming water users in 
the Platte River basin.
    I am hopeful that S. 752 and H.R. 1462 can be passed in their 
original form.
            Best regards,
                                          Dave Freudenthal,
                                                          Governor.
                                 ______
                                 
       Statement of Dennis Strauch, General Manager, Pathfinder 
                          Irrigation District

    My name is Dennis Strauch, General Manager of the Pathfinder 
Irrigation District, headquartered in Mitchell, Nebraska. The 
Pathfinder Irrigation District by contract with the Bureau of 
Reclamation operates the Interstate Division of the Bureau's North 
Platte Project. The District provides irrigation water to over 102,000 
acres in western Nebraska and eastern Wyoming. In addition the 
District, by contract delivers water to two irrigation districts in 
Wyoming serving approximately 15,000 acres.
    There are 13 irrigation districts, including Pathfinder in western 
Nebraska and eastern Wyoming that by contract with the Bureau of 
Reclamation receive their storage water supplies from Reclamation's 
Pathfinder and Guernsey Reservoirs in Wyoming. Because of these 
districts connection by contract with a federal agency, their water use 
is subject to review under the Endangered Species Act.
    For the past 10 plus years I have represented water users in 
western Nebraska and eastern Wyoming on the Governance Committee 
negotiating the Platte River Recovery Implementation Program (PRRIP). 
The Platte River Recovery Implementation Program provides for a 
cooperative basin-wide approach to addressing endangered species issues 
on the Central Platte River in Nebraska, involving the states of 
Colorado, Wyoming and Nebraska, the Department of Interior, water users 
in all three states and conservation interests.
    The water users I represent fully support Senate Bill 752, which 
authorizes the Secretary of Interior's participation in the Platte 
River Recovery Implementation Program and the necessary federal 
funding. S. 752 also authorizes the Pathfinder Modification Project, 
which is a water component for the PRRIP, offered by the State of 
Wyoming and the water users whose water supply comes from Pathfinder 
Reservoir.
    It is my understanding that there are some interests in the upper 
reach of the North Platte River basin that support amending S. 752 to 
include restrictions on the water right for Pathfinder Reservoir. This 
is totally unacceptable to the 13 irrigation districts and the hundreds 
of water users who heavily rely on Pathfinder Reservoir for their water 
supply. For the past 5 years and once again this year, the drought in 
Wyoming and Nebraska has severely limited the available water supply 
for our irrigators. To restrict the ability of the Bureau of 
Reclamation to call for administration of junior water rights above 
Pathfinder Reservoir for the benefit of it's senior right would cause 
severe injury to the water users in Nebraska and Wyoming who depend on 
water from the reservoir. This issue was addressed in the Final 
Settlement Stipulation in Nebraska v. Wyoming, 534 U.S. 40 (2001). S. 
752 is not the proper place to address water right concerns. If water 
users in the upper North Platte River Basin are unhappy with the 
settlement reached in Nebraska v. Wyoming, they should discuss their 
displeasure with Wyoming representatives to the North Platte Decree 
Committee.
    I strongly encourage passage of S. 752, with no amendments. Your 
consideration of my comments as you contemplate advancement and passage 
of S. 752, would be greatly appreciated.
                                 ______
                                 
    Statement of Ann Bleed, Director of the Nebraska Department of 
                           Natural Resources

    My name is Ann Bleed. I am the Director of the Nebraska Department 
of Natural Resources and am Nebraska Governor David Heineman's 
representative on the Governance Committee of the Platte River Recovery 
Program.
    Thank you for this opportunity to provide testimony in support of 
Senate Bill 752 (House Resolution 1462) and its authorization of the 
Platte River Recovery Implementation Program.
    The Platte River system arises in the mountains of Colorado and 
Wyoming crosses the State of Nebraska and empties into the Missouri 
River on Nebraska's eastern border. The Platte River and its 
tributaries irrigate millions of acres of farmland, provide water to 
cities such as Denver, Colorado, Casper, Wyoming, Lincoln and Omaha 
Nebraska, as well as numerous smaller cities and towns, and provide 
water for power plants that provide power throughout the western United 
States.
    The Platte River in Nebraska also provides critical habitat to the 
endangered or threatened whooping crane, least tern, piping plover and 
pallid sturgeon, as well as habitat for numerous other species, and is 
a major staging area for migrating sandhill cranes. In the 1990's the 
State of Nebraska granted instream flow permits to protect fish and 
wildlife habitat along the Platte and put a moratorium on the issuance 
of new surface water permits on the western two-thirds of the Platte 
River and its tributaries.
    Nevertheless, the importance of this river for so many competing 
interests led to conflicts not only among these interests, but also 
among the three states through which it flows. Exacerbating these 
conflicts was the need to comply with the federal Endangered Species 
Act. In an attempt to avoid costly litigation in 1994 the three states 
and their constituents and the U.S. Department of Interior signed a 
Memorandum of Understanding that after thirteen years of intense 
negotiations developed and approved the Platte River Recovery 
Implementation Program.
    The goal of the Program is to use a basin-wide cooperative approach 
to assist in the conservation and recovery of habitat for the Platte's 
endangered and threatened species and help prevent the need to list 
more basin associated species pursuant to the Endangered Species Act, 
while at the same time provide regulatory certainty to the people and 
industries that also rely on the flows of the river.
    The Program has established an organizational structure that will 
ensure appropriate state and federal government and stakeholder 
involvement in the implementation of the Program. The Program will 
utilize an incremental approach to land and water management that 
places an appropriate and heavy reliance on the development of sound 
science through an adaptive management program. This adaptive 
management program has developed extensive protocols for testing 
hypotheses and management techniques to insure that the efforts of 
program participants will produce the desired results.
    The States and other interests in the basin have committed 
substantial resources to the success of this effort including $30 M, 
major land contributions and an average of 80,000 acre-feet of water. 
In addition each state has committed to reduce their consumptive use of 
water to 1997 levels and implement administrative procedures to hold 
water use at this limit.
    Before closing I would like to address an amendment to Senate Bill 
752 and House Resolution 1462 that has been proposed on behalf of the 
Upper North Platte Water Users in Wyoming relating to the Pathfinder 
Modification Project, which is part of the Platte River Recovery 
Implementation Program. The Bureau of Reclamation has a Wyoming water 
right to store 1,070,000 acre feet of water in Pathfinder Reservoir for 
the benefit of the North Platte Project, which includes irrigated land 
in Eastern Wyoming and Western Nebraska. Over the years, 53,493 acre 
feet of the storage capacity of the reservoir have been lost to 
sediment. The Pathfinder Modification Project would recapture this 
storage space.
    The administration of the water rights for using this recaptured 
space was the subject of much negotiation among the United States and 
the States of Colorado, Nebraska, and Wyoming, all of whom were parties 
to the settlement of the Nebraska v. Wyoming law suit, which was 
approved by the U.S. Supreme Court in November, 2001. The results of 
these negotiations were codified in Appendix F to the Final Settlement 
Stipulation This appendix, which establishes the terms and conditions 
under which the Pathfinder Modification Project will be operated states 
in part:

          The recaptured storage space would store water under the 
        existing 1904 storage right for Pathfinder Reservoir and would 
        enjoy the same entitlements as other uses in the reservoir with 
        the exception that the recaptured storage space could not place 
        regulatory calls on the existing water rights upstream of 
        Pathfinder Reservoir other than the rights pertaining to 
        Seminoe Reservoir.

    The proposed amendment suggests that the Bureau of Reclamation 
should be restricted from seeking water rights administration on behalf 
of Pathfinder Reservoir during the irrigation season. It is Nebraska's 
view that the restrictions on calls for regulation for Pathfinder 
Reservoir during the irrigation season in the proposed amendment would 
be in violation of the Modified North Platte River Decree.
    In summary, the negotiations to develop this program were long and 
arduous. The time, land, water and financial commitments by the States, 
water and power districts, environmental interests and the people in 
the basin are very substantial. There are a lot of future challenges 
that the Program must overcome. However, when the Governor's of all 
three States signed the Program agreement, the States attested to the 
premise that cooperation and collaboration will provide a much higher 
likelihood of protecting habitat and providing regulatory certainty for 
all involved than any other alternative. For this reason I urge you to 
enable the federal government to be a partner in this collaborative 
effort.
    Thank you again for this opportunity to provide testimony.
                                 ______
                                 
             Statement of The National Wildlife Federation

                              INTRODUCTION

    The Platte River basin is one of the most important ecosystems and 
economic areas in the Rocky Mountain-High Plains region. With its 
watershed in Colorado, Wyoming, and Nebraska, the river has played an 
essential role in both defining the character of the region 
ecologically and in sustaining the economy. Unfortunately, the 
environmental value of the river has often been ignored in the pursuit 
of more narrowly defined economic goals. The challenge now, from both 
an environmental and economic perspective, is to begin the process of 
correcting the past imbalance in an equitable and efficient fashion. 
The river supports millions of ducks and geese and hundreds of 
thousands of sandhill cranes on their Central Flyway migration. But 
what makes the environmental challenge even more important and 
imperative is the role the river plays in supporting endangered 
species.
    The Platte River Recovery Implementation Program (recovery program) 
and its approval under the Platte River Recovery Implementation Program 
and Pathfinder Modification Authorization Act of 2007 will mark a 
significant step in correcting the disparity between the economic and 
environmental importance of the Platte. The recovery program identifies 
an initial set of flow and land protection measures that the U.S. Fish 
and Wildlife Service has determined to be a sound basis for the first 
stage in restoration of the structure and function of the Platte River 
ecosystem in central Nebraska. The ultimate goal is the reestablishment 
of a riverine/land habitat complex that can meet the needs of the 
endangered whooping crane, interior least tern, and piping plover and, 
farther east, the testing of actions and associated research activities 
that will provide a better understanding of the needs of the pallid 
sturgeon.
    The states of Colorado, Wyoming, and Nebraska, their water users, 
and the environmental community have accepted these resource management 
goals and the associated research agenda as the basis for starting the 
process of restoration. An important feature of the structure of the 
recovery program is its incorporation of flexible provisions that allow 
the states' water users to continue to divert water to which they are 
entitled and, at the same time, providing them a substantial measure of 
regulatory certainty under the Endangered Species Act. This concept of 
flexibility is also incorporated in a land conservation plan that is 
based on willing seller/willing buyer agreements and in a research and 
monitoring protocol that incorporates a carefully constructed adaptive 
management program.
    The Platte River Recovery Implementation Program Cooperative 
Agreement, signed at the end of 2006 by the Secretary of Interior and 
the governors of the three states, is the product of several years of 
negotiations among the states, the Department, water users, and 
environmentalists (including National Wildlife Federation). It sets in 
motion the process of putting in place the detailed land and water 
program elements designed to reverse the long-term process of habitat 
deterioration in the Platte River.
    In April 2004 the National Academy of Sciences (NAS) issued a 
report on the importance of the Platte River to the endangered species 
mentioned above (Endangered and Threatened Species of the Platte River) 
and the role of the recovery program in the Platte's restoration. The 
Academy committee that reviewed the Platte agreed unanimously that the 
habitat in central Nebraska is unique, that the U.S. Fish and Wildlife 
Service's proposal for habitat restoration measures that have been 
incorporated in the recovery program were sound, and that ultimately 
``. . . [s]uccessful, sustainable solutions of species issues . . . 
must begin with water management.''
    At the time the NAS report was released, the environmental 
community strongly supported its conclusions and we believe they remain 
applicable today. We believe that the report validates the data and 
science embodied in the recovery program, a set of sound water and land 
protection activities.
    With the passage of SB 752, we will have taken a major step in the 
authorization for a Platte River Program that is based on the following 
actions:

  <bullet> A water program that includes modifying Pathfinder Dam in 
        Wyoming, Lake McConaughy environmental storage in Nebraska, 
        groundwater recharge and management in Colorado (at Tamarack 
        State Wildlife refuge and elsewhere), and other water actions 
        that will reduce flow shortages in the central Platte by at 
        least 130,000 to 150,000 acre-feet.
  <bullet> Channel improvements in the North Platte River near the town 
        of North Platte that will increase capacity to 3,000 cubic 
        feet/second (cfs) or such improvements that will increase the 
        flood stage to six feet allowing the U.S. Fish and Wildlife 
        Service to use its McConaughy environmental water to produce a 
        flow of at least 5,000 cfs at Lexington, Nebraska for three 
        days in the spring.
  <bullet> A 10,000-acre land plan based on habitat complexes that will 
        establish channel areas and other important habitat by means of 
        purchase, permanent conservation easements, and long-term 
        leases.
  <bullet> A sediment management plan that will clear islands upstream 
        of the central Platte habitat and that will be sufficient to 
        ensure no further river habitat degradation downstream.
  <bullet> A research and monitoring plan that will be sufficient to 
        track the impacts of all changes to the habitat and their 
        relationship to species.

                           CONCLUDING COMMENT

    We believe that there is a clear need for an endangered species 
recovery program in the Platte River that is basinwide, comprehensive, 
and cooperative. Because we recognize the importance of constructing a 
program that is politically feasible, we support the program's key 
principles of protecting water entitlements, of willing seller/willing 
buyer land conservation arrangements, an incremental approach to 
habitat improvement and protection, and adaptive management. The 
recovery program honors all these key principles. For these reasons and 
because the Platte is a unique and vital habitat, the National Wildlife 
Federation supports the recovery program and urges this committee and 
the Senate to authorize the program by passing SB 752.
                                 ______
                                 
 Statement of Don Kraus, General Manager, The Central Nebraska Public 
                     Power and Irrigation District

    My name is Don Kraus, General Manager of The Central Nebraska 
Public Power and Irrigation District (District), with headquarters in 
Holdrege, Nebraska. My testimony today is offered in support of S. 752 
and its authorization of Department of the Interior's participation in 
the Platte River Recovery Implementation Program (Program) for three 
threatened or endangered species using the central Platte River and one 
using the lower Platte.
    The District operates the Kingsley Dam Project (Project) in south-
central Nebraska. Using water from the North Platte and Platte Rivers, 
the Project directly provides irrigation water to approximately 200,000 
acres, groundwater recharge resulting from project operations 
indirectly provides irrigation to an additional 300,000 acres and 
recreation benefits to over 1,000,0000 visitors annually. The Project 
also generates hydroelectric power at four hydropower plants under the 
jurisdiction of the Federal Energy Regulatory Commission (FERC).
    In the mid-1980s, the District applied to renew its FERC license, a 
process which included consultation with the U.S. Fish and Wildlife 
Service (the Service) under the federal Endangered Species Act (ESA). 
The relicensing proceeding continued through many years and cost many 
millions of dollars as a result of conflicting scientific and legal 
opinions on ESA issues. Concurrent with the relicensing proceeding, 
other water users in the Platte basin were also entering ESA 
consultation with the Service, and together the complex regulatory 
conflicts were headed toward what was then popularly called an ``ESA 
train wreck.''
    As a result of these ongoing conflicts regarding ESA issues in the 
Platte basin, the District and many other entities started to seek a 
comprehensive basin-wide approach to addressing ESA requirements. The 
process went through many phases, starting with a simple Memorandum of 
Understanding in 1994 and culminating with the Platte River Program 
(Program) that is the subject of S. 752. At its core, the program 
provides a way for existing and potential future water uses throughout 
the Platte basin to operate while meeting the regulatory requirements 
of the ESA. Indeed, the District's FERC licensing was resolved in 1998 
because FERC assumed that the Program would be developed and 
implemented. Since that time the District has been making millions of 
dollars of contributions of habitat and water for endangered species 
that will become a part of the Program. Key to reaching agreement on 
the District's commitments was the Program's assurance of mitigation 
for the impacts to water development after 1997, and the regulatory 
certainty that meeting Program milestones will address ESA compliance 
concerns into the future. The development of the Program has not been 
easy and has required a great deal of effort on the part of all 
involved. We believe it offers a better opportunity than any 
alternative to protect endangered species and provide regulatory 
certainty for the District and water users throughout the basin.
    For all of these reasons I urge passage of S. 752 to authorize the 
Department of the Interior to participate in implementing the Program.
                                 ______
                                 
Supplemental Statement of Don Kraus, The Central Nebraska Public Power 
                        and Irrigation District

    My name is Don Kraus, General Manager of The Central Nebraska 
Public Power and Irrigation District (District), with headquarters in 
Holdrege, Nebraska. The following testimony is offered to supplement 
earlier testimony that was supportive of S. 752 and its authorization 
of federal participation in the Platte River Recovery Implementation 
Program (Program).
    I was disappointed to learn in the discussion of S. 752 that there 
is now consideration of potential restrictions on the rights of the 
United States Bureau of Reclamation (USBR) to place a call under 
Wyoming state water administration affecting waters stored in 
Pathfinder reservoir. The District strongly opposes this potential 
change to S. 752.
    Such a change represents an attempt to interfere with state water 
administration. The administration of waters within a state has 
historically been reserved to the states and I believe that any 
infringement on that authority should be strongly resisted. In 
addition, the restriction has apportionment ramifications between 
Nebraska and Wyoming that could negatively affect the water supply for 
hundreds of thousands of irrigated acres in the panhandle of Nebraska. 
This amendment would also undermine the principles established in the 
decree between Nebraska and Wyoming and may result in additional 
litigation regarding the division of water between the two states.
    In addition, the change would upset the balance among the three 
basin states and the federal government that was carefully struck in 
the Program agreement. If the agreed upon balance is not maintained, 
years of work to develop a basin wide approach to addressing endangered 
species issues are in jeopardy.
    Your efforts to ensure that a potential amendment to place a 
restriction on the rights of the USBR to place a call under Wyoming 
water law is blocked would be greatly appreciated. Thank you for your 
consideration of this supplemental testimony.
                                 ______
                                 
      Statement of Ted Kowalski, Colorado Water Conservation Board

    My name is Ted Kowalski and I manage the Platte River Program for 
the State of Colorado. I am providing this written testimony in support 
of the Platte River Recovery Implementation Program and Pathfinder 
Modification Authorization Act. The State of Colorado appreciates this 
subcommittee's attention to these issues, and we are grateful to 
Senators Nelson, Salazar, Hagel, and Allard for their leadership in 
pursuing this important legislation.
    By way of background, the North and South Platte Rivers start in 
Colorado. The South Platte River basin is Colorado's most populous 
basin, with more than 3 million residents. Like much of the western 
United States, the population in the South Platte basin is increasing 
dramatically. With the increases in population in Colorado comes 
additional water development.
    For many years, the States of Colorado, Nebraska, Wyoming, and the 
Department of the Interior have been working with our stakeholders to 
establish the framework for an Endangered Species Act Recovery Program 
(Program) to recover the endangered whooping crane, interior least 
tern, and pallid sturgeon, and the threatened piping plover. Each of 
these species has designated habitat the State of Nebraska along the 
Platte River. That critical habitat is impacted by actions upstream of 
it in Wyoming and Colorado. I am pleased to testify that this hard work 
has paid off, and that the three States and the federal government 
signed a Program agreement in the fail of 2006. The Program, 
established by that agreement, began on January 1, 2007.
    The Program is modeled after the very successful and longstanding 
Upper Colorado River Recovery and the San Juan River Recovery Programs. 
The State of Colorado has benefited from these programmatic approaches 
to recovering endangered species while allowing water development to 
continue within the States that participate in these types of recovery 
programs.
    The Platte Program is incremental, and the first increment is 
expected to last thirteen years. Within the first thirteen years, the 
participants will: 1) acquire and restore 10,000 acres of habitat; 2) 
provide 130,000 to 150,000 acre-feet of water to meet certain target 
flows; 3) operate within state and federal laws and the depletion plans 
established under the Program; and, 4) provide integrated monitoring 
and research through a comprehensive adaptive management plan.
    By pursuing recovery of these species on a programmatic basis, as 
opposed to pursuing recovery efforts on a case-by-case basis, we wilt 
use our resources more efficiently and effectively. Moreover, water 
users will benefit from streamlined consultations with the Fish and 
Wildlife Service as opposed to individualized consultations and 
negotiations.
    Colorado is dedicated to the success of the Platte River Recovery 
Program. The State has already appropriated and authorized the 
expenditure of up to $7 million dollars to meet Colorado's cash and 
water obligations. In addition, there is legislation pending that 
immediately authorizes an additional expenditure of $3 million dollars 
on July 1, 2007 and sets forth a plan to fund the majority of 
Colorado's remaining obligations over the next several years. Water 
providers, environmental organizations, and the agricultural community 
have all expressed support for the State legislation.
    Water providers, in particular, have been partners with the State 
since the beginning of the three states negotiations. Colorado water 
users have established an organization called the South Platte Water 
Related Activities Program (SPWRAP), which is a nonprofit organization. 
SPWRAP has the authority to assess annual assessments from its members, 
and to use that money to help the State of Colorado meet its 
obligations under the Program.
    It is important to note that the Colorado Water Conservation Board, 
Colorado's statewide water policy board, unanimously passed a 
resolution in support of this federal legislation. A copy of this 
resolution is attached to this written statement.
    Once again, thank you for your consideration. I hope that you will 
support this legislation that is important to the Recovery of 
endangered species and the citizens of the United States and, in 
particular, the States of Colorado, Wyoming and Nebraska.

[Attachment.]

                         CWCB RESOLUTION 2007-1

      In Support of Federal and State Legislation Authorizing and 
   Appropriating funds for the Platte River Recovery Implementation 
                                Program

    WHEREAS, the State of Colorado is signatory to the South Platte 
River Compact, C.R.S. Section 37-65-101, et seq., executed on behalf of 
the State on the 27th day of April, 1923. The South Platte River 
Compact divides and apportions the water of the South Platte River 
between the State of Colorado and the State of Nebraska.
    WHEREAS, the State of Colorado is subject to a decree of the United 
States Supreme Court regarding the use of the waters of the North 
Platte River. Nebraska v. Wyoming, 325 U.S. 589, 65 S.Ct. 1332, 89 
L.Ed. 1815 (1945) as amended or as it may be amended.
    WHEREAS, the South Platte River Compact and the decree in Nebraska 
v. Wyoming limit the use of the waters of the South Platte and North 
Platte Rivers within the State of Colorado.
    WHEREAS, the State of Nebraska, in the case of the South Platte 
River, and the States of Wyoming and Nebraska, in the case of the North 
Platte River, are entitled to use such waters of the South and North 
Platte Rivers, respectively, which flow out of the State of Colorado in 
accordance with the requirements of the South Platte River Compact and 
the decree in Nebraska V. Wyoming.
    WHEREAS, all water which is not required to flow out of Colorado 
under the South Platte River Compact and the decree in Nebraska v. 
Wyoming is available for diversion and beneficial use within the State 
of Colorado.
    WHEREAS, the United States Fish and Wildlife Service 
(``U.S.F.W.S.'') has listed the whooping crane, piping plover, least 
tern, and pallid sturgeon under the federal Endangered Species Act, and 
has designated critical habitat for the whooping crane pursuant to the 
Endangered Species Act. These species, and the designated critical 
habitat, are located in the Central Platte Region of the State of 
Nebraska.
    WHEREAS, the State of Colorado was a signatory to a Cooperative 
Agreement between the States of Colorado, Wyoming, and Nebraska, and 
the United States Department of the Interior for the purpose of 
developing a program to protect and improve habitat for the endangered 
and threatened species, originally executed on July 1, 1997, and which 
was extended three times.
    WHEREAS, the Bureau of Reclamation has issued a Final Environmental 
Impact Statement and a final Record of Decision (``ROD''), and the 
U.S.F.W.S. has issued a final Biological Opinion, in support of the 
Platte River Recovery Implementation Program (``Program'').
    WHEREAS, the Governors of the States of Colorado, Wyoming, and 
Nebraska, and the Secretary of the United States Department of the 
interior signed the Program. Agreement to protect and improve habitat 
for the endangered and threatened species.
    WHEREAS, the State of Colorado and Colorado water users will 
benefit from the regulatory certainty associated with the Program.
    WHEREAS, the State of Colorado recognizes the value in recovering 
threatened and endangered species and supports the Program and the 
Adaptive Management Plan as a measured effort towards this goal.
    NOW THEREFORE BE IT RESOLVED that the Colorado Water Conservation 
Board:
    1. Supports the passage of federal legislation that would federally 
authorize the Program, as well as any other legislation that would 
appropriate federal funds for the Program.
    2. Supports the passage of House Bill 07-1182, and any other 
subsequent legislation that would authorize the expenditure of State 
funds necessary to satisfy Colorado's obligations under the Program.

Unanimously approved on March 12, 2007 in Canon City, Colorado.
                                 ______
                                 
 Statement of Bryan Mitchell, P.E., Capital Projects Engineer, City of 
                               Norman, OK

    Chairman Bingaman and Members of the Committee: The citizens of 
Norman, Oklahoma, along with all other Oklahomans realize the 
importance of their water supply. Regardless of their needs, everyone 
understands their future depends on reliable amounts of water. Everyone 
desires a future with adequate water supplies.
    Norman, Oklahoma, along with Midwest City and Del City rely upon 
Lake Thunderbird as their primary source of drinking water. This 
reservoir was constructed by the United States Department of the 
Interior Bureau of Reclamation in the early 1960's. The three cities 
share the responsibility of its operation through the Central Oklahoma 
Master Conservancy District (the District). Each city holds rights to a 
portion of the water supply provided by Lake Thunderbird. No additional 
rights are currently available to others.
    Into the early 1980's Lake Thunderbird provided an adequate supply 
source of water for the District. Midwest City and Del City had 
abundant supply reserves within their portion of the District but 
during this time Norman began to draw near to their allotted capacity. 
In 1988 Norman exceeded their allocation of the District for the first 
time. Since then, Norman's allocation has been exceeded a total of 15 
times. This threshold has been crossed the last 10 consecutive years 
with no projected future demands below our legally allocated amount.
    As Norman's demands upon Lake Thunderbird grew, it was understood 
that additional supplies were needed. Beginning in the early 1980's 
Norman started drilling new water wells into the naturally occurring 
aquifer beneath its city boundaries. This aquifer was the supply source 
prior to the construction of the lake and was relied upon again to meet 
Norman's needs. Wells drilled over the last 25 years help meet an ever 
growing demand in Norman. Lake Thunderbird and the District's supply 
capabilities have been relied upon continuously throughout this period.
    In 1999 the City of Norman, facing the now common supply shortfall 
from the District, built a waterline connecting to the City of Oklahoma 
City's treated water supply system. This line serves as an emergency 
supply source only. Norman voters have not approved a water rate 
structure capable of relying upon this high priced water. This 
alternative supply shortfall reflects Norman's desire to rely upon the 
District and its supply capabilities over the long term.
    Norman's decision to rely, long term, upon the District is the 
beginning of the process that has led to this testimony today. In 2003 
the 108th Congress provided funding through the Energy and Water 
Appropriation Bill to begin the process of achieving additional long 
term water supplies for the District and the possibility of an even 
larger public benefit. The Norman Project, Oklahoma, Water Supply and 
Augmentation Enhancement--Appraisal Investigation was initiated with 
the 2003 approval. The final report was delivered in August 2005. A 
copy of this report is included for the record as Attachment No. 1.
    In May 2005 discussions were underway between Norman, the District, 
the Oklahoma Water Resources Board and the Bureau of Reclamation as to 
the need for investigating the feasibility of augmenting the supply 
capability of Lake Thunderbird. In May 2005 it was communicated that 
the cost of a feasibility study was $600,000. With this information, 
Senator Inhofe and Congressman Cole, both of Oklahoma, introduced 
companion bills calling for the appropriation of $300,000 and 
authorization for the Bureau of Reclamation to perform the needed 
studies. The legislation introduced in 2006 did not make it through 
committee due to timing limitations.
    It has long been the idea to bring water into the District from 
some outside source to help meet long term demands. The idea of out of 
basin water is a good idea but is not allowed under the existing State 
of Oklahoma water permit for the District. A purpose of the Appraisal 
Investigation was to formally introduce the idea of using Lake 
Thunderbird to assist with the redistribution of the waters of the 
State of Oklahoma to the metropolitan area citizens. This was 
considered in the initial report and will be further pursued in the 
Feasibility Study. The State of Oklahoma Water Resources Board is 
participating in this study and supports the option of augmenting the 
waters in Lake Thunderbird while protecting the rights of all parties 
potentially impacted.
    The Appraisal Investigation, completed by the Bureau of 
Reclamation, reports four possible scenarios to help meet the 
District's ability to continue to meet their member's long term water 
supply needs. This document completes the appraisal-level assessment of 
alternatives and opportunities that could be implemented to meet 
present and future water needs of the District and Central Oklahoma.
    The purpose of completing this investigation was to determine the 
desirability of proceeding to a Feasibility Study of the project. This 
series of investigations, each looking in defined levels of detail, 
review the validity of the District's needs. The Appraisal Study, 
Feasibility Study, and the concluding Final Design Report are the 
series of events that must be completed by the Bureau of Reclamation 
before taking formal action to construct or modify any federal 
projects. Lake Thunderbird is a federal project and the District is 
pursuing this series of events to continue their ability to meet the 
water service expected of them.
    Four options were considered in the Appraisal Investigation report. 
These options centered on the replacement of key pieces of 
infrastructure and supply availability. Broad cost projections were 
completed for each option and detailed in Attachment No. 1. The 
conclusion of this initial review is the foundation for starting the 
Feasibility Study. The Feasibility Study begins to look in detail at 
very specific items for consideration. Implementing any project in the 
future to help the District with its ability to serve the public better 
will involve more than just water. Augmenting the water supplies of 
Lake Thunderbird could impact water rights, water quality, and instream 
uses for fish and wildlife as well as recreation. Associated studies to 
address these items would need to be completed during the Feasibility 
Study. This effort, if approved and funded, would determine actual 
environmental impacts and any mitigation actions that may be required.
    On January 4th, 2007 Senator Inhofe of Oklahoma introduced S. 175 
which was referred to the Committee on Energy and Natural Resources. 
This bill, if approved, will lead towards solving the District's long 
term water needs. S. 175 will provide for a Feasibility Study of 
alternatives to augment water supplies of the District and the cities 
so served. A copy of S. 175, as proposed, is included for the record as 
Attachment No. 2. In addition, Congressman Cole of Oklahoma has also 
introduced H.R. 1337 to address this same issue. The combined 
involvement of Senator Inhofe and Congressman Cole reflects the need to 
address the water supply issues faced by the District and the citizens 
of Oklahoma.
    Prior to and following the submission of S. 175 the City of Norman 
and the Central Oklahoma Master Conservancy District believed that the 
project cost of May 2005, $600,000, was reasonably accurate for the 
efforts to be undertaken. In March 2007 City of Norman and District 
officials learned that the cost for the Bureau of Reclamation's efforts 
had escalated from $600,000 to between $1,700,000 and $6,700,000 to 
complete the needed tasks. This change was unexpected and is counter to 
prior information and contradictory to both bills introduced on 
Norman's and the District's behalf. Therefore, Norman is requesting 
that S. 175 introduced by Senator Inhofe be amended to reflect an 
appropriate amount based on the Bureau of Reclamation's level of effort 
soon to be approved by the District's member cities. Member cities of 
the Central Oklahoma Master Conservancy District will provide the 
matching funds upon approval of this bill.
    Completion of the Feasibility Study is required in order to 
consider using Lake Thunderbird as an enhanced long term water supply 
source. Without it, the District will not have the means to advance 
toward using Lake Thunderbird beyond its original design parameters. 
The original design parameters will soon be insufficient to meet the 
District's long term needs. The amount of water available to Norman is 
an example of the problems faced. Much more water will be needed in our 
future. Approval of S. 175, with appropriate funding, is the second 
step of many to be taken towards providing long term water supplies to 
the almost 200,000 persons served by the District.
    Thank you for your time and effort in representing the public and 
in your role within the committee addressing the natural resource needs 
of our great nation. I greatly appreciate the opportunity to present 
this testimony on behalf of the City of Norman and the Central Oklahoma 
Master Conservancy District.
    Attachment No. 1: Norman Project, Oklahoma, Water Supply 
Augmentation and Enhancement--Appraisal Investigation, August 2005.
    Attachment No. 2: S. 175 as proposed.

    [Note: Attachments have been retained in subcommittee files.]
                                 ______
                                 
 Statement of Elmer G. McDaniels, Manager, Tumalo Irrigation District, 
                                Bend, OR

    Chairman, Members of the Subcommittee, I am Elmer G. McDaniels, 
Manager of the Tumalo Irrigation District in Bend, Oregon. The Tumalo 
Irrigation District (TID) was founded in 1914 and currently serves 
about 45 square miles with 8,100 irrigated acres between Bend and 
Sisters, Oregon, on the east slope of the Cascade Mountains.
    The District greatly appreciates the introduction of S. 1037, the 
Tumalo Water Conservation Project Act of 2007, by Senator Smith and 
Senator Wyden and the opportunity to provide our strong support for the 
legislation at this hearing. S. 1037 would authorize the Secretary of 
the Interior to assist in the planning, design, and construction of the 
TID Water Conservation Project in Deschutes County, Oregon.
    This legislation is vital to our area as we continue to undergo the 
rapid urbanization and growth that is occurring throughout our part of 
the State during a period of continuing drought. The project involves 
the piping of approximately six miles of open canals, and returning 
20cfs of conserved water to in-stream flows under the Oregon State 
Water Conservation Statute. This project, when completed, will result 
in a major benefit to the Deschutes River which is why we know of no 
opposition to it in the area.
    The benefits of this particular water conservation project are to 
eliminate water loss, enhance public safety, and conserve energy along 
the project's six-mile length. The completed project, including other 
work by TID, will deliver pressurized water to TID irrigators during 
drought years, whereas they now receive an inadequate water supply in 8 
out of 10 years. From a watershed enhancement perspective, this project 
is to provide significant in-stream flow benefits to both Tumalo Creek 
and the Deschutes River, a major tributary to the Columbia River, 
draining much of central Oregon. The Middle Deschutes River in the 
recent past has been reduced to seasonal flows as low as 30cfs, and the 
goal for this project is to enhance that flow to eventually achieve 250 
cfs for the Middle Deschutes basin, a river reach that is significantly 
productive for trout and anagromous fisheries.
    The TID Water Conservation Project will provide a 20 cfs water 
savings to transfer to in-stream in the Tumalo Creek and the Deschutes 
River. Together with previous TID water conservation efforts, this 
represents 10.4% of the 250cfs basin goal for restoring the Deschutes 
River, which will greatly benefit stream ecosystem and habitat for 
listed species as well as provide flow stability for both anagromous 
fisheries and resident species. The completed project will eliminate or 
reduce farm pumping systems thereby saving energy, realize 
pressurization throughout the irrigation systems, and reduce the risk 
of injury and drowning to small children growing up in our District 
around open canals.
    The Tumalo Irrigation District, even though it is a non-Federal 
Reclamation District, has a history of working with the Bureau on 
solutions. The Federal and State interest in having this project 
constructed becomes apparent given the need for solutions in the 
Deschutes basin for in-steam flow, anagromous fish, and environmental 
issues; we view the work that would be undertaken with this project as 
a model that the Bureau should consider for their own projects, 
consistent with their Water 2025 Program.
    We support the cost-sharing called for under the legislation 
recognizing the Federal fiscal constraints for the Bureau of 
Reclamation program. We believe S. 1037 offers a District such as ours 
the opportunity to undertake a project having so many positive benefits 
including: water conservation savings, watershed enhancement, 
protection of listed species, and a reliable water supply to our 
service area customers during the drought while increasing the public 
safety of our communities.
    Thank you for the opportunity to provide this statement for the 
hearing record on such an important piece of legislation for our 
District. And thank you again to Senator Smith and Senator Wyden for 
their assistance. We look forward to favorable action by the full U.S. 
Senate on this legislation.
                                 ______
                                 
                                           Trout Unlimited,
                                       Boulder, CO, April 23, 2007.
Hon. Jeff Bingaman, Chairman,
Hon. Pete V. Domenici, Ranking Member,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
Re: S. 1116

    Dear Chairman Bingaman: Trout Unlimited appreciates the Committee's 
consideration of S. 1116, the More Water, More Energy and Less Waste 
Act, that Senator Salazar recently introduced along with you, Ranking 
Member Domenici and Senator Thomas.
    Trout Unlimited is a national non-profit organization with 140,000 
members dedicated to the conservation, preservation and restoration of 
our nation's cold water fisheries and their habitats. In the semi-arid 
West, there are rivers that cannot provide healthy habitat for native 
and wild fishes because dams and diversions have so altered the river's 
natural hydrograph that it can no longer support a fishery. In 
addition, our working rivers and aquifers are being stressed even 
further as the region grows ever more rapidly, as climate change 
threatens to lower water yield through increased evaporation and as 
global markets affect the viability of the region's irrigated 
agriculture.
    Given all of these factors, one might think that the vast 
quantities of produced water brought to the surface during energy 
development, especially coal bed methane development, would be a boon 
to western fisheries. And yet, this water is rarely put to beneficial 
use. Rather, its quality is often too poor even for stock watering, and 
its discharge to the surface can wreak havoc on both productive 
farmland and fragile aquatic ecosystems. For this reason, producers 
usually re-inject the water into the ground.
    Treatment of produced water on the surface prior to discharge may 
be an alternative that allows both those who have unmet consumptive 
needs for water and the environment to benefit. For this reason, TU 
supports S. 1116, with one small amendment, explained below. Senator 
Salazar's statement upon introduction of the bill makes clear that what 
is currently a liability not only for the industry, but also for 
landowners, ecosystems and would-be water users, could become a 
benefit, with proper management and the application of technologies.
    The study that S. 1116 proposes in section 3 is critical to 
reaching the legislative goal. It will be important that the study 
consider the environmental consequences of various strategies 
identified not only in terms of whether the strategies will protect the 
environment during production, but also once production has ceased. 
Similarly, it will also be important that, in considering the economic 
obstacles to increasing the beneficial use of produced water, the study 
assess what are the potential adverse effects of creating a temporary 
water supply for irrigators and other users, especially down the road 
when the temporary supply is no longer available. Will the creation of 
such a temporary supply allow irrigators to stay in business for 
another generation but also assure an increased battle over scarce 
resources then?
    Suggested amendment: In order to ensure that the study includes the 
critical issues mentioned in the preceding paragraph, we recommend that 
you amend the bill to add an additional paragraph to subsection 3(a) to 
study, ``the environmental and economic impacts likely to occur in an 
area where produced water is used for irrigation or other uses and then 
ceases to be available for such uses because the energy development 
that created the produced water shuts down.''
    TU looks forward to learning more about the pilot projects that S. 
1116 would fund, and to commenting through the public process that the 
statute establishes.
            Sincerely,
                                                    Melinda Kassen.
                                 ______
                                 
    Statement of Hon. Mark Udall, U.S. Representative From Colorado

    Thank you, Mr. Chairman, for holding this hearing on my bill, H.R. 
902, the ``More Water and More Energy Act,'' and the related 
legislation (S. 1116) introduced by Senator Salazar.
    The purpose of H.R. 902 as passed by the House of Representatives 
is to facilitate the use of water produced in connection with 
development of energy resources for irrigation and other uses in ways 
that will not adversely affect water quality or the environment.
    The House bill is similar to one that passed the House last year 
but on which the Senate did not complete legislative action. It was 
cosponsored by Representative Pearce of New Mexico and also by 
Representative Edwards of Texas. I greatly appreciate their support.
    The Senate bill expands on the House version in some respects, and 
I note that it also has impressive support.
    I think these bills can help change an energy-industry problem into 
an opportunity, not just for oil and gas producers but for everyone 
else who would benefit from increased supplies of useable water.
    Especially in the arid west, that covers everyone--not least our 
hard-pressed ranchers and farmers.
    The focus of the House bill is the underground water extracted in 
connection with development of energy sources like oil, natural gas or 
coalbed methane. It would do two things:
    First, it would direct the Bureau of Reclamation and the USGS to 
identify the obstacles to greater use of produced water and the how 
those obstacles could be reduced or eliminated without adversely 
affecting water quality or the environment.
    Second, it would provide for federal help in building 3 pilot 
plants to demonstrate ways to treat produced water to make it suitable 
for irrigation or other uses, again without adversely affecting water 
quality or the environment.
    At least one of these pilot plants would be in Colorado, Utah, or 
Wyoming. At least one would be in New Mexico, Arizona or Nevada. And 
there would be at least one each in California and Texas. This is to 
assure that, together, the plants would demonstrate techniques 
applicable to a variety of geologic and other conditions. The federal 
government could pay up to half the cost of building each plant, but no 
more than $1 million for any one plant. No federal funds could be used 
for operating the plants.
    The House bill's goal is reflected in its title--the ``More Water 
and More Energy Act of 2006.''
    The extent of its potential benefits was shown by the testimony of 
Mr. David Templet at a hearing on the similar bill of mine the House 
considered last year.
    Mr. Templet testified in support of that bill on behalf of the 
Domestic Petroleum Council and several other groups, including the 
Colorado Oil & Gas Association. He noted that produced water is the 
most abundant byproduct associated with the production of oil and gas, 
with about 18 billion barrels being generated by onshore wells in 1995.
    And he pointed out that if only an additional 1% of that total 
could be put to beneficial use, the result would be to make over 75 
billion gallons annually available for use for irrigation or other 
agriculture, municipal purposes, or to benefit fish and wildlife.
    Now, remember that in the west we usually measure water by the 
acre-foot--the amount that would cover an acre to the depth of one 
foot--and an acre-foot is about 32,8560 gallons, so an additional 75 
billion gallons is more than 230,000 acre feet--more water, indeed.
    And at the same time making produced water available for surface 
uses, instead of just reinjecting it into the subsurface, can help 
increase the production of oil and gas.
    At least year's hearing, this was illustrated by the testimony of 
Dr. David Stewart, a registered professional engineer from Colorado. He 
cited the example of an oil field in California from which an estimated 
additional 150 million barrels of oil could be recovered if water were 
removed from the subsurface reservoir. And he pointed out that where 
oil recovery is thermally enhanced, a reduced amount of underground 
water means less steam--and so less cost--is needed to recover the oil.
    The potential for having both more water and more energy is also 
illustrated by the example of a project near Wellington, Colorado, that 
treats produced water as a new water resource. I had the opportunity to 
visit it just last week, and found it very interesting.
    An oil company is embarking on the project to increase oil 
production while a separate company will purchase the produced water to 
supplement existing supplies, eventually allowing the town of 
Wellington and other water users in the area to have increased water 
for drinking and other purposes.
    In view of its potential for leading to both ``more water'' and 
``more energy'' I was pleased but not surprised that last year the 
Administration, through the Interior Department, testified that it 
``agrees that the goals of the House bill are commendable and the needs 
that could be addressed are real'' and that the roles the bill would 
assign to the Bureau of Reclamation and the USGS are consistent with 
the missions and expertise of those agencies.
    In view of all this, I submit that legislation along these lines 
deserves the support of the Senate as well as the House of 
Representatives.
                                 ______
                                 
  Statement of the Domestic Petroleum Council, Also on Behalf of the 
 Colorado Oil & Gas Association; Independent Petroleum Association of 
  America; Independent Petroleum Association of the Mountain States; 
International Association of Drilling Contractors; New Mexico Oil & Gas 
    Association; Petroleum Association of Wyoming; U.S. Oil and Gas 
              Association; and Western Business Roundtable

    The large independent exploration and production companies of the 
Domestic Petroleum Council as well as the member companies of the 
Colorado Oil and Gas Association, Independent Petroleum Association of 
America, Independent Petroleum Association of the Mountain States, 
International Association of Drilling Contractors, New Mexico Oil & Gas 
Association, Petroleum Association of Wyoming, US Oil & Gas Association 
and the Western Business Roundtable appreciate the opportunity to offer 
our support for S. 1116, the More Water, More Energy and Less Waste Act 
of 2007 and its goals of facilitating beneficial use of water that must 
be produced by energy extraction operations while also exploring ways 
of reducing such water production.
    Produced water is the most abundant byproduct--unfortunately often 
characterized as a ``waste''--produced in the oil and gas production 
process. There are not many wells in this country that do not produce 
some water. While the quality of the water varies dramatically, we 
believe there are significant opportunities to convert more produced 
water to beneficial use.
    According to the American Petroleum Institute (API) about 18 
billion barrels of produced water was generated by U.S. onshore 
operations in 1995. Some significant share of that water is already 
used for irrigation, livestock watering and the like, but converting 
just 1% more of that total to additional beneficial use would yield 
over 75 billion gallons more useable water for irrigation, ranching, 
fish and wildlife enhancement, stream augmentation or drinking water.
    The produced water that contains the lowest concentration of total 
dissolved solids, or TDS, (less than 10,000 parts per million, or ppm) 
is found in the Western United States where water is a critical 
resource (see attachment). For example, energy operations in the Powder 
River Basin in north-central Wyoming produce approximately 1.4 million 
barrels of relatively good-quality water per day. A large volume of 
this water could be used for agricultural, ranching and other purposes.
    Beneficial use of water in these arid environments should be a win-
win for the energy industry and water consumers, but the costs of water 
treatment and inconsistent water quality regulations among states make 
that process extremely difficult.
    Section 3 of the proposed legislation recognizes the need to fully 
identify the legal and regulatory problems with beneficial use water 
and find solutions. Early attempts to implement beneficial use 
solutions have faced state-specific water rights issues and regulatory 
restrictions or prohibitions. The research conducted in response to 
this legislation needs to evaluate existing regulatory barriers for 
beneficial use, particularly with surface discharge under the 
Environmental Protection Agency (EPA)'s National Pollutant Discharge 
Elimination System (NPDES) onshore permit programs. Additionally, a 
number of the issues preventing or posing obstacles to the surface 
discharge of produced water are firmly within the arena of state 
agencies, current rulemaking and lawsuits.
    Often the biggest hurdle to beneficial use is finding the 
technology to accomplish water treatment in a cost effective manner. 
Water treatment must compete with the lower-cost option of deep well 
injection. And while deep well injection is the most environmentally 
sound method of disposal, it forgoes the opportunity to use millions of 
gallons of water as a resource.
    Management and/or conservation of produced water can represent a 
critical cost component that affects the economic viability of oil and 
gas production. Research that provides concise and comprehensive 
information on produced water and ways in which it can be managed can 
help operators, regulators, landowners, and other stakeholders to be 
better informed and support management options that can lower 
production costs and protect and even enhance the environment.
    With respect to the demonstration projects authorized in S. 1116, 
we trust that a Senate-House conference agreement will ensure 
appropriate direction with respect to their regional allocation. We 
note, however, that such projects will undoubtedly be most important in 
areas that are seeing the most significant energy activity increases 
and corresponding water quantity and quality issues. And, since 
produced water volume and quality varies greatly across the country, it 
will be important to have enough projects to fully evaluate the 
opportunities for increased conservation and use of that water.
    The consultation language of S. 1116 specifying involvement of 
those with experience ``. . . relating to production of oil, natural 
gas, coalbed methane, or other energy resources (including geothermal 
resources) . . .'' is important to ensure that appropriate projects are 
selected. To ensure that their potential is fulfilled to the maximum 
degree, however, the legislation may need to be more explicit as to the 
qualifications of those who may apply and be awarded grants. The 
ability to carry out meaningful projects with real potential benefits 
will be crucial. We strongly support the involvement of energy industry 
representatives to help guide the research and demonstration project 
efforts to help ensure that practical and transferable technology is 
developed.
    Again, useable produced water can be an abundant resource but the 
technology must be cost-effective when compared with other disposal 
options available to the industry.
    We encourage you to evaluate the cost implications and incentives 
that may be necessary to fulfill the true intent of this legislation 
which is to find ways to conserve such a valuable resource, while 
converting water that must be produced as part of our energy supply 
efforts is put to beneficial use.
    We will be glad to help see a final version of S. 1116 signed into 
law, and we appreciate the opportunity to provide our views.


</pre></body></html>
